<html>
<title> - NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

=======================================================================

                                (110-25)

                                HEARINGS

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                         APRIL 17 AND 19, 2007

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                   ____

2007

  NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER QUALITY

=======================================================================

                                (110-25)

                                HEARINGS

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         APRIL 17 AND 19, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

?

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)

?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California           JOHN R. `RANDY' KUHL, Jr., New 
ELEANOR HOLMES NORTON, District of   York
Columbia                             CHARLES W. BOUSTANY, Jr., 
BOB FILNER, California               Louisiana
ELLEN O. TAUSCHER, California        JEAN SCHMIDT, Ohio
MICHAEL E. CAPUANO, Massachusetts    CANDICE S. MILLER, Michigan
GRACE F. NAPOLITANO, California      THELMA D. DRAKE, Virginia
MICHAEL A ARCURI, New York           JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

?

                                CONTENTS

                                                                   Page

Proceedings of:

  April 17, 2007.................................................     1
  April 19, 2007.................................................   130

                             April 17, 2007

Summary of Subject Matter........................................   vii

                               TESTIMONY

Driscoll, Charles T., University Professor of Environmental 
  Systems Engineering, Department of Civil and Environmental 
  Engineering, Syracuse University...............................    26
Fineday, Lenny, Director, Administration and Governmental Affairs 
  Department, Leech Lake Band of Ojibwe..........................     7
Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, U.S. Environmental Protection Agency..........     7
Mueller, Jon, Director of Litigation, Chesapeake Bay Foundation..    26
O'Donnell, Hon. Arleen, Acting Commissioner, State of 
  Massachusetts, Department of Environmental Protection..........     7
Slattery, Michael C., Director, Institute for Environmental 
  Studies, Texas Christian University............................    26

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Baker, Hon. Richard H., of Louisiana.............................    43
Costello, Hon. Jerry F., of Illinois.............................    45
Kagen, Hon. Steve, of Wisconsin..................................    46
Mitchell, Hon. Harry E., of Arizona..............................    47
Oberstar, Hon. James L., of Minnesota............................    51

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Driscoll, Charles T..............................................    55
Grumbles, Benjamin H.............................................    79
Goggleye Jr., Hon. George (submitted by Lenny Fineday)...........    98
Mueller, Jon A...................................................   104
O'Donnell, Arleen................................................   115
Slattery, Michael C..............................................   119

                       SUBMISSIONS FOR THE RECORD

Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, U.S. Environmental Protection Agency, 
  responses to questions for the record..........................    88

                             April 19, 2007

                                                                   Page

Summary of Subject Matter........................................  xvii

                               TESTIMONY

Baker, James, Professor Emeritus, Department of Agricultural and 
  Biosystems Engineering, Iowa State University..................   151
Coombe, Richard, Regional Assistant Chief, Natural Resources 
  Conservation Service, U.S. Department of Agriculture...........   135
Faber, Scott, Farm Policy Campaign Director, Environmental 
  Defense........................................................   151
Hooks, Craig, Director, Office of Wetlands, Oceans and 
  Watersheds, Office of Water, U.S. Environmental Protection 
  Agency.........................................................   135
Howarth, Robert W., Ph.D, Department of Ecology and Evolutionary 
  Biology, Cornell University....................................   151
Stem, Wiley, Assistant City Manager, City of Waco, Texas.........   135
Wolf, Roger, Director of Environmental Programs, Iowa Soybean 
  Association....................................................   151

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Baker, Hon. Richard H., of Louisiana.............................   168
Bishop, Hon. Timothy H., of New York.............................   171
Costello, Hon. Jerry F., of Illinois.............................   177
Matsui, Hon. Doris O., of California.............................   179
Mitchell, Hon. Harry E., of Arizona..............................   181
Oberstar, Hon. James L., of Minnesota............................   186
Salazar, Hon. John T., of Colorado...............................   192

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Baker, James.....................................................   197
Coombe, Richard..................................................   217
Faber, Scott.....................................................   232
Hooks, Craig.....................................................   238
Howarth, Robert W................................................   251
Stem, Wiley......................................................   278
Wolf, Roger......................................................   298

                       SUBMISSIONS FOR THE RECORD

Baker, James, Professor Emeritus, Department of Agricultural and 
  Biosystems Engineering, Iowa State University, the impact of 
  agriculture on water quality...................................   201
Coombe, Richard, Regional Assistant Chief, Natural Resources 
  Conservation Service, U.S. Department of Agriculture, response 
  to questions for the record....................................   226
Hooks, Craig, Director, Office of Wetlands, Oceans and 
  Watersheds, Office of Water, U.S. Environmental Protection 
  Agency, responses to questions for the record..................   248
Howarth, Robert W., Ph.D, Department of Ecology and Evolutionary 
  Biology, Cornell University:

  Response to questions from Rep. Johnson........................   257
   The Development of Policy Approaches for Reducing Nitrogen 
    Pollution to Coastal Waters of the USA, Robert W. Howarth....   262
Wolf, Roger, Director of Environmental Programs, Iowa Soybean 
  Association, response to questions for the record..............   306

                        ADDITIONS TO THE RECORD

American Farm Bureau Federation, statement.......................   308
National Corn Growers Association, statement.....................   332
National Pork Producers Council, statement.......................   339
[GRAPHIC] [TIFF OMITTED] T4796.001

[GRAPHIC] [TIFF OMITTED] T4796.002

[GRAPHIC] [TIFF OMITTED] T4796.003

[GRAPHIC] [TIFF OMITTED] T4796.004

[GRAPHIC] [TIFF OMITTED] T4796.005

[GRAPHIC] [TIFF OMITTED] T4796.006

[GRAPHIC] [TIFF OMITTED] T4796.007

[GRAPHIC] [TIFF OMITTED] T4796.008

[GRAPHIC] [TIFF OMITTED] T4796.009

[GRAPHIC] [TIFF OMITTED] T4796.010

[GRAPHIC] [TIFF OMITTED] T4796.011

[GRAPHIC] [TIFF OMITTED] T4796.012

[GRAPHIC] [TIFF OMITTED] T4796.013

[GRAPHIC] [TIFF OMITTED] T4796.014

[GRAPHIC] [TIFF OMITTED] T4796.015

[GRAPHIC] [TIFF OMITTED] T4796.016

[GRAPHIC] [TIFF OMITTED] T4796.017

[GRAPHIC] [TIFF OMITTED] T4796.018

[GRAPHIC] [TIFF OMITTED] T4796.019

[GRAPHIC] [TIFF OMITTED] T4796.020



HEARING ON NONPOINT SOURCE POLLUTION: ATMOSPHERIC DEPOSITION AND WATER 
                                QUALITY

                              ----------                              


                        Tuesday, April 17, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [chairwoman of the subcommittee] presiding.
    Ms. Johnson. I would like to welcome today's witnesses to 
our hearing on the Impact of Atmospheric Deposition and Water 
Quality.
    Today we will hear from representatives from Federal, State 
and tribal governments and other interested stakeholders. These 
diverse perspectives will provide the Subcommittee with a much 
broader understanding on nonpoint source water pollution and 
how atmospheric deposition impacts water quality and what the 
Federal Government is currently doing about it.
    To begin, let me extend a warm greeting to Dr. Michael 
Slattery. Dr. Slattery comes from my home State of Texas and 
one of my alma maters, who is an expert in environmental 
science.
    As a former health care professional, I am very concerned 
about the impact that air pollution can have on human health 
especially on mothers and children.
    Dr. Slattery has been instrumental in providing critical 
scientific findings on the impact of coal-fired plants, power 
plants, in the State of Texas. These plants, as Dr. Slattery 
will testify, are central contributors to mercury loading in 
water bodies throughout Texas, Louisiana, Oklahoma and 
Arkansas.
    I thank you very much for being here today to discuss your 
research findings.
    Nonpoint source water pollution is an area that has not 
been looked at in many years by this Subcommittee, and I am 
pleased to announce that this is the first in a series of 
hearings that will look at this major area of concern and the 
impairment of the Nation's water bodies. I hope that these 
hearings will provide the members of the Subcommittee with a 
firmer grasp of the nature of nonpoint source pollution as well 
as what the Federal Government is doing or not doing to deal 
with it.
    Nonpoint water pollution might best be described by what it 
is not. It is pollution that enters water bodies through a 
pathway other than a discernible, confined and discrete 
conveyance such as a pipe or ditch. This pollution is captured 
by rainfall or snowmelt and carried into the waters, eventually 
causing these water bodies to become impaired.
    The sources of nonpoint water pollution are varied. They 
can include runoff from farms, streets and construction sites. 
The sources can also include emissions from power plants, 
industrial facilities and car tailpipes. This form of nonpoint 
source pollution is referred to atmospheric deposition and what 
we are here today to discuss.
    These types of substances begin as air emissions enter the 
atmosphere and eventually fall out or settle over the land and 
water bodies. In many cases, these substances are eventually 
washed into water bodies, causing considerable pollution. It is 
important to understand that atmospheric deposition nonpoint 
source pollution begins as an air pollution problem and ends up 
as a water pollution problem.
    While I realize that the regulation of air pollution is 
outside the purview of this Subcommittee, the fact that a 
significant number of waters are impaired through the 
atmospheric sources makes this issue a concern of the Water 
Resources and Environment Subcommittee.
    I, for one, am eager to find out if the Environmental 
Protection Agency is equipped to properly handle such 
multimedia pollution problems especially in the light of the 
interstate and international nature of air pollution and its 
impacts on State waters.
    Atmospheric deposition is a major source of water body 
impairment. In EPA's most recent National Assessment Database, 
the States report that 26 percent of lakes, reservoirs and bays 
are impaired because of atmospheric deposition. In addition, in 
2004, 44 States had fish consumption advisories for mercury. 
This means that nearly every State in the Union has fish that 
are contaminated and should not be eaten. The majority of fish 
consumption advisories focus on mercury contamination from 
atmospheric sources.
    Although sources of mercury in the environment can be both 
natural and manmade, the United States Geographical Survey has 
found that human activities have doubled or even tripled the 
amount of mercury in the atmosphere. This mercury has come from 
power plants and other fossil fuel-burning sources.
    Given what we know about health impacts of mercury, any 
mercury advisory in today's day and age is wrong. That more and 
more water bodies are subject to mercury advisories and nearly 
every State in the Country is subject to these mercury warnings 
is unbelievable and needs explaining. It is time for this 
Committee to start asking how this could be, and then it is 
time to ask what are we doing about it.
    Water bodies throughout this Country have been negatively 
impacted, are being negatively impacted by harmful atmospheric 
deposition for far too long. Unchecked, this type of nonpoint 
source pollution will result in human health and economic costs 
that both localized regions as well as the Nation can ill 
afford.
    I urge members of this Subcommittee not to forget these 
costs are not just the aesthetics of water bodies, not just the 
fish and aquatic plant life. Instead, the effects of mercury 
deposition and the effects of pesticide deposition, the effects 
of other toxic metals, all have demonstrated dramatic negative 
health impacts on young children, adults and the elderly. We 
need to ask ourselves if all of this harm can continue without 
any effective response.
    I welcome the witnesses to today's hearing, and I look 
forward to their testimony. They will better inform the 
Subcommittee as to the nature of atmospheric deposition, how it 
relates to nonpoint source pollution and how it impacts human 
health and the environment.
    The Chair recognizes Mr. Baker.
    Mr. Baker. I thank the gentlelady for convening this 
hearing and for her broad view and opening statement concerning 
water quality. I share many of her concerns in preserving the 
valuable asset that our nation relies on in a daily fashion.
    I would also point out that nonpoint source water 
degradation is certainly something the Congress should better 
understand, receive scientific comment and learn better the 
effects or consequences of that anomaly.
    With specific reference to atmospheric deposition, merely 
for establishing the scope of the problem we really face, there 
was actually a geologic period brought to an end by the result 
of a six mile meteor impact 65 million years ago that ended the 
Cretaceous and started the Tertiary period. Also, similarly, 
some believe ended the life of dinosaurs. Fortunately for 
humankind, no similar event has recently occurred although in 
1883 the volcano, Krakatoa, erupted and volcanic ash surrounded 
the equator in 13 days, having significant adverse ecological 
effects.
    I merely enter those observations into the record because 
atmospheric depositional conduct is an extremely complex 
phenomenon which can be affected by vehicle emissions in China 
or coal-burning gas-fired generators in other countries around 
the globe and, because of trade winds, result in depositional 
activities within the domestic United States, over which we 
obviously have very little control or ability to regulate.
    It is for those reasons that I suggest we certainly should 
learn and better understand the forces at work, but prior to 
moving to any new regulatory constraint on domestic business 
activity, we need to fully understand the risks we face and the 
appropriate response that this Congress should generate without 
unnecessarily constraining responsible economic growth.
    With that in mind, I look forward to the balance of the 
hearings that are now scheduled as I know the Committee will 
learn a great deal and resultingly take responsible action.
    I yield back and thank the Chairlady.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Ms. Matsui.
    Ms. Matsui. Thank you very much, Madam Chair. Thank you for 
calling this very important hearing.
    In my district of Sacramento, we are part of the greater 
Sacramento River Watershed which emanates from the Sacramento 
River. The Sacramento River is the largest and longest river in 
California. It stretches over 350 miles through the heart of 
Northern California, and it collects water from over a dozen 
counties between Sacramento and Oregon in an area of more than 
27,000 square miles. This mighty river has 27 tributaries 
feeding into it, and 17 percent of California's land drains 
into the Sacramento River.
    My priority since taking office has been flood protection, 
but the more I engage on the issue, the more it is apparent to 
me that flood protection is not just about levees and dams. It 
is also about the decisions we make within a watershed.
    I am very interested in developing a comprehensive 
Sacramento Watershed approach. It is my intent that this 
approach will address the environmental, water quality, 
conservation, land use and, yes, flood protection components of 
a full and robust watershed approach.
    I am particularly interested to hear about the EPA's 
Section 319 program and how it can work with other programs and 
agencies such as USDA. It is my belief that it will take more 
than one program, one agency and one approach to address the 
needs of our larger watersheds in this Country. Whether it is 
identifying nonpoint source pollution or managing land use, all 
of these issues are interrelated.
    I look forward to hearing from today's witnesses, and I 
thank you once again, Madam Chair, for calling this hearing.
    I yield back.
    Ms. Johnson. Thank you very much.
    Dr. Ehlers?
    Mr. Ehlers. Thank you, Madam Chair. I just want to express 
my appreciation for this hearing.
    I apologize. I won't be able to stay because the Aviation 
Subcommittee is having a classified briefing in 15 minutes, and 
I have to be at that, but I will try to stop by here after 
that.
    This is an extremely important issue and, as a 
representative of the Great Lakes, I can assure you how 
important it is for all of us who live there. We have something 
on the order of 70 million people depend on the Great Lakes for 
their drinking water, and so it is a crucial issue for everyone 
in the Great Lakes Region.
    We are very proud of our lakes. We are very proud of the 
purity of the water, but the atmosphere deposition is an 
increasing problem.
    Just to give you one example, a number of years ago, the 
United States banned the use of the chemical, Toxaphene. Not 
too long ago, the Great Lakes' concentration of Toxaphene was 
still continuing to increase because it is not banned in other 
parts of the world. It is a volatile organic compound. It gets 
into the air, circulates in the atmosphere, comes down with the 
rain into the Great Lakes Watershed, and there we are.
    So this is an extremely important topic, and I look forward 
to the comments on this.
    Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Bishop?
    Mr. Bishop. Thank you, Madam Chair. I just want to thank 
you for having this hearing as well as the hearing Thursday 
afternoon.
    This is a very important issue, nationally, one that is 
particularly important to my district. I represent a district 
that is literally surrounded by water. And so, these are 
concerns of ours that are of long standing, and we look forward 
to the testimony both this afternoon and on Thursday afternoon.
    Thank you very much.
    Ms. Johnson. Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Madam Chairman.
    Just briefly, I want to thank our witnesses on the first 
and second panels for coming. We look forward to a very 
productive working relationship with you over the next couple 
of years in this session of Congress, and we hope we can make 
progress.
    I have some other things. I am going to try to stay for the 
hearing, but I may have to leave.
    As we go through nonpoint source pollution and all the 
various aspects which is fundamentally human activity, 
everything we do from streetscapes to, as Mr. Ehlers mentioned, 
atmospheric deposition to herbicides, deforestation, 
agriculture, sewage treatment plants, the list is seemingly 
endless. Except that we match that list up with human activity, 
we now that it is not compatible with nature's design. Nature 
gets degraded. Pretty soon, we are the ones that are going to 
be degraded or our great grandchildren.
    But as we go through all of the nonpoint source pollution 
contributions to this degradation, into this mix I really think 
we have risen to the level of understanding to put climate 
change and what that does to acidification of our estuaries to 
the draw-down potentially of the Great Lakes because of 
changing weather patterns and what that reduction of the volume 
of water will do to the concentration of all of these 
activities from herbicides to toxic chemicals to sewage to more 
people, et cetera.
    So I just ask you to take into consideration, climate 
change, as you run through the various aspects of your 
responsibility.
    Thank you, Madam Chairman.
    Ms. Johnson. Thank you very much.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair.
    The Honorable Ben Grumbles, we have met before and we 
talked water extensively.
    I thank you, Madam Chairwoman, for the hearing because the 
Subcommittee on Water and Power, in my particular Subcommittee, 
we have a great interest in this, and this dovetails the 
efforts that we are trying to put in. The nonpoint sources of 
pollution have become a major problem, and I am sure the 
studies are going to show that it is at least in 50 percent of 
water.
    How do we work to be able to ensure that our residents or 
citizens are protected from that pollution which we know is 
identifiable, is filterable and will make our youngsters or 
elderly who may be prone to picking up that pollution in the 
water that is not filtered out?
    How do we work with all of the effects on water and be able 
to ensure that we do it in a way that is not going to be 
protracted in addressing who is responsible, what 
responsibilities the Federal Government may have if it is 
Federal Government land? There are all kinds of things that 
come to mind.
    The adding of Section 319 in Congress in 1987 to the Clean 
Water Act, I think, needs to be more vibrant, visible, 
effective, and we should work with the States to ensure that 
that runoff is managed properly so that we can then work with 
them to be able to ensure the delivery of potable water and 
clean water in our rivers and our dams and into the aquifers 
that we draw from.
    Those are all areas, Madam Chairwoman, that I am hoping 
that we will be addressing or at least identifying the plans 
that will address the nonpoint pollution problems, the funding, 
whether it is public access from the cities, the States, the 
Federal Government through implementing State management plans, 
and if those Section 319 funds are being used adequately to 
address agriculture and nonpoint pollution.
    Those are all issues that I am hoping that we will be able 
to address, and thank again for being here and to the 
Chairwoman for calling this hearing.
    I yield back.
    Ms. Johnson. Thank you very much.
    Dr. Kagen?
    Mr. Kagen. Thank you, Madam Chairman.
    It is a great honor for me to able to serve the people of 
Wisconsin. I have gone through some of the math, and I 
represent more shoreline than any of the Congressional seats. 
It is a matter of great importance to my district and my 
people.
    I am also very sensitive to the political nature of how we 
preserve our environment and nonpoint source pollution.
    My father was a volunteer health commissioner when I was 
growing up in the early 1960s in Appleton, Wisconsin, and he 
was very irritated when I came home with my baseball suit on 
and I smelled like the DDT fogger. We had been riding our 
bicycles in the fog. The very next day, he went down to city 
hall, and he banned DDT spraying, and he lost his job because 
of it. He was protecting the health of his children and his 
neighborhood.
    I certainly hope that the actions of this Congress, the 
110th, will be different than the results that he had as we 
seek to protect our environment, not just our surface water but 
our ground water as well.
    I look forward to working with everyone here and listening 
to the greatest extent possible to the testimony before I, like 
Vern Ehlers, have to go to a different meeting.
    Thank you very much.
    I yield back my time.
    Ms. Johnson. Thank you very much.
    I think that ends our opening statements.
    We are very pleased to have very distinguished panels of 
witnesses.
    For our first panel here this afternoon, we have the 
Honorable Benjamin Grumbles who we are going to give an 
honorary chair at that table. He is the Assistant Administrator 
for the Office of Water, the United States Environmental 
Protection Agency.
    Next, we have the Honorable Arleen O'Donnell, Acting 
Commissioner for the Massachusetts Department of Environmental 
Protection.
    Finally, we have Mr. Lenny Fineday, Director of the 
Administration and Governmental Affairs Department of the Leech 
Lake Band of Ojibwe. He is here on behalf of the Honorable 
George Goggleye, Jr., Chairman of the Leech Lake Band Board. 
Unfortunately, the Chairman is unable to attend this 
afternoon's hearing, but we are happy to have Mr. Fineday to 
deliver that testimony.
    We are pleased that you were able to make it this 
afternoon. Your full statements will be placed in the record.
    We ask that witnesses try to limit their testimony to five 
minutes of oral summary of their written statements as a 
courtesy to other witnesses. We will continue to proceed in the 
order in which the witnesses are listed in the call of the 
hearing.
    Mr. Grumbles, you may proceed.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
   ADMINISTRATOR FOR THE OFFICE OF WATER, U.S. ENVIRONMENTAL 
   PROTECTION AGENCY; THE HONORABLE ARLEEN O'DONNELL, ACTING 
      COMMISSIONER, STATE OF MASSACHUSETTS, DEPARTMENT OF 
      ENVIRONMENTAL PROTECTION; LENNY FINEDAY, DIRECTOR, 
ADMINISTRATION AND GOVERNMENTAL AFFAIRS DEPARTMENT, LEECH LAKE 
                         BAND OF OJIBWE

    Mr. Grumbles. Thank you, Madam Chair. It is always an honor 
and an education to appear before the Subcommittee and listen 
to your thoughtful statements. On behalf of EPA, I just want to 
commend you and the Subcommittee for holding this series of 
hearings this week, today on atmospheric deposition and 
Thursday on nonpoint source pollution.
    We all live downstream and downwind. I think over the 
course of several years the country is connecting the dots or I 
should say connecting the drops. The fact that acid rain, SO2 
deposition, has a significant impact on lakes and water bodies, 
the fact that deposition of mercury which then becomes 
methylmercury has significant ramifications for water quality 
and fish consumption and human health and the health of water 
bodies.
    So this series of hearings, this focus on the diffuse 
sources of pollution is critically important. We fully agree 
with you, and the data tells us that atmospheric deposition is 
a significant contributor to water pollution.
    EPA's recent data, the data that we get from the States 
under the Clean Water Act, Section 305(b) reports, cite 
atmospheric deposition as the source of impairment in 26 
percent of the lakes and bays and 5 percent of the rivers and 
streams. Over 8,500 water bodies in 43 states and Puerto Rico 
have been listed as impaired by mercury on the State TMDL 
lists, and most of these are believed to be caused by 
atmospheric deposition.
    Acid rain is also a challenge for the Country particularly 
in the Northeast and New England States, and acid rain causes a 
cascade of effects ranging from fish kills to reduced fish 
populations and decreased biodiversity.
    Nitrogen is a significant problem, a significant water 
quality problem, and people often focus appropriately on the 
runoff from the land, but it is also the deposition from the 
air that can be a major contributor to eutrophication and 
hypoxic zones through atmospheric deposition of nitrogen. In 
the Chesapeake Bay, air deposition of nitrogen accounts for an 
estimated 28 percent of the nitrogen inputs to the bay.
    Congressman Baker, in the Gulf of Mexico, that number is 
about 20 percent.
    So it is not just about the nitrogen from sewage treatment 
plants or from farms or from the land. It is also from the air. 
We are also aware of other toxic metals and polycyclic aromatic 
hydrocarbons, constituents that can be part of the atmospheric 
deposition that present challenges to the water.
    Most importantly, though, from an EPA perspective, I am 
focusing on the solutions, and I want to emphasize that one of 
the key steps we have taken over the last couple of years has 
been to use the Clean Air Act tools to control atmospheric 
deposition of mercury. In 2005, the Clean Air Interstate Rule 
and the Clean Air Mercury Rule which were signed in 2005, we 
have concluded that they will reduce air deposition of electric 
utility mercury emissions by nearly 70 percent from 1999 levels 
when fully implemented. That is a significant step forward in 
controlling mercury, the atmospheric deposition of mercury.
    Under the Clean Water Act, we have recently taken important 
steps working with our State partners to provide guidance, 
voluntary guidance to encourage a focus on early action, on 
implementing, using various State and regional tools and 
authorities to control and reduce mercury deposition and 
mercury discharges into water bodies through a voluntary 
approach coupled with our Clean Water Act tools that we will 
continue to use, the TMDL program as appropriate, and other 
tools under that statute.
    I also want to emphasize that one of the greatest success 
stories when it comes to environmental law and environmental 
statutes, from my perspective, is the acid rain trading program 
under the Clean Air Act amendments of 1990. This program set up 
a cap and trade approach, and we believe the data show that 
there are excellent environmental results from that cap and 
trade.
    Lastly, under the Clean Air Act rules, the Clean Air 
Interstate Rule, we believe, will be a major step forward in 
reducing NOx and SOx emissions and helping to protect and 
restore waters across the U.S. We estimate that the 2005 Clean 
Air Interstate Rule will reduce nitrogen loads to the 
Chesapeake Bay by 8 million pounds per year, a reduction of 8.8 
percent by 2010.
    So, in conclusion, Madam Chair, we have a lot of work ahead 
of us. We, EPA, have made a significant investment under the 
air and water authorities that we have, relying on technology 
and innovation and perhaps, most importantly, collaboration, 
recognizing that State and local authorities, when it comes to 
nonpoint source or diffuse pollution, are key, critical to 
solving the problem. We think working with you, we will 
continue to make success on this important effort.
    Thank you. I would be happy to answer questions if you have 
any.
    Ms. Johnson. Thank you very much, Mr. Grumbles.
    I would like to welcome Commissioner O'Donnell from the 
Massachusetts Department of Environmental Protection. We 
welcome your testimony.
    Ms. O'Donnell. Thank you, Madam Chairman. It is an honor to 
be here today to testify before this Subcommittee.
    I just want to make a few points, starting with the 
problem. Mercury is a serious problem for the residents of 
Massachusetts. We have a Statewide advisory for consumption of 
all freshwater fish across the State. Over 8,000 babies are 
born each year with elevated mercury levels in their blood. The 
problem with this is that mercury is a neurotoxin, and it 
causes brain damage.
    We also have over 100 lakes that we have tested 
specifically for mercury in fish, and they are all posted 
individually. Our motto is basically where you test for it, you 
are going to find it.
    The vast majority of mercury comes from air emissions. We 
have done a lot of work throughout the New England area and 
with the Eastern Canadian Provinces, and the amount coming from 
water discharges is really negligible. The vast majority of 
mercury that enters our water bodies and our fish comes from 
the air.
    In 1998, the New England Governors and the Eastern Canadian 
Premiers adopted a zero mercury strategy. We set very specific 
numeric goals. The goal is to control mercury by 50 percent by 
2003 and 75 percent by 2010 and virtual elimination after that. 
As a region, we are on target, and Massachusetts is ahead of 
schedule. Massachusetts has currently reduced 70 percent of its 
in-State mercury resources.
    I am going to mention six sectors that we specifically 
controlled. Number one, trash incinerators, all of our trash 
incinerators control 90 percent of mercury emissions. That is 
three times the national standard.
    Coal-fired power plants, by 2008, all will have 85 percent 
mercury emission controls. By 2012, that will be up to 95 
percent mercury emission controls.
    We had 150 medical waste incinerators. We work closely with 
the hospital industry in Massachusetts which is obviously a big 
industry in Massachusetts. All of those hospitals have found 
alternative ways of dealing with their mercury products, mostly 
replacing them with non-mercury sources. All 150 medical waste 
incinerators have been decommissioned.
    We also have 3,600 dentists in our State, and now 80 
percent of them have amalgam separators on their discharge 
which goes to our wastewater treatment plants. We started with 
a voluntary program. We now have a mandatory program. You might 
not think dentists contribute a lot of mercury, but in 
Massachusetts alone 400 pounds of mercury came from dental 
offices directly into our rivers and streams.
    All of our industrial wastewater dischargers must control 
mercury down to one part per billion by 2009. We have that 
standard on some wastewater treatment plants. We are putting it 
on the industrial wastewater dischargers themselves.
    Then finally, last year we passed mercury product 
legislation, the last State in New England to pass it. We are 
very proud of that legislation. It will involve phaseouts of 
mercury products where there are less hazardous substitutes, 
recycling for mercury products for which there is no acceptable 
substitute and a labeling program.
    Okay, so what results have we seen to date? We have been 
doing this now since 1998. We are sampling our fish Statewide 
from the time we put the controls on incinerators, five years 
out, to see if the environment showed any improvement 
whatsoever. Surprising results, you wouldn't expect to see that 
rapid a response in fish tissue over five years, but Statewide 
we saw mercury levels come down between 15 and 20 percent.
    Interestingly, in the vicinity of the mercury sources 
themselves where the incinerators had controls put on them--
there is one part of Massachusetts that has a lot of 
incinerators--up to 32 percent mercury reductions in fish 
tissue there, just over a period of five years. But that is 
still not enough.
    What else do we need to do? Well, the New England States 
all banded together with New York State and last week submitted 
to EPA, a regional TMDL. A TMDL is a Total Maximum Daily Load 
under the Clean Water Act, and it basically is a calculation of 
how much mercury reduction has to come from various sources in 
order to meet water quality standards.
    Our calculation in Massachusetts alone is 70 percent of all 
of the mercury coming into Massachusetts comes from upwind 
sources. So we have done our best to control our own sources, 
but 70 percent is still coming in from out of State, and we 
will not meet water quality standards unless more controls are 
put on upwind sources. Our calculations show that the incoming 
mercury sources need to be reduced by 86 to 98 percent in order 
for our fish to be safe to eat.
    Minnesota has also submitted a TMDL which I believe has 
been approved by EPA, and their figures show 93 percent out of 
State sources need to be controlled in order for their fish to 
be safe to eat.
    So, in summary, the States have done a lot, New England in 
particular. With westerly prevailing winds, we are at the end 
of the pipeline, and so we have seen some dramatic impacts 
associated with mercury deposition. We are doing our part to 
control it, and we believe that more controls ought to be put 
on upwind sources or else we will not be able to reach our 
goals in New England.
    Thank you.
    Ms. Johnson. Thank you very much.
    Welcome, Mr. Fineday, for testimony from the Leech Lake 
Board.
    Mr. Fineday. Good afternoon, Madam Chairwoman and 
Subcommittee members.
    I am here today representing the Honorable George Goggleye, 
Jr., the Chairman of the Leech Lake Band of Ojibwe. He sends 
his gratitude to the Subcommittee for holding this hearing and 
allowing us to offer testimony, but he also sends his regrets 
that a scheduling conflict prevented him from being here.
    There are several toxic pollutants or contaminants that are 
known to be capable of adversely impacting our watersheds and 
waters via atmospheric deposition. Mercury, dioxins and PCBs 
quickly come to mind. Of these, mercury is the most ubiquitous 
because it comes from any fossil fuel combustion source and is 
deposited through atmospheric deposition both into watersheds 
and directly into lakes.
    The fish in all of our tribal lakes and in all Minnesota 
lakes contain mercury from atmospheric deposition. Because of 
the widespread adverse impacts of mercury, I will direct my 
remarks today to this atmospherically deposited nonpoint source 
pollutant.
    Briefly, what do we know about mercury and its adverse 
impacts? Mercury is a potent neurotoxin, and human 
developmental impacts are well described. Mercury falling out 
of the air into a lake or watershed becomes methylated usually 
through natural bacteriologic processes.
    Once methylated, the mercury enters a terrestrial or 
aquatic food chain. All forms of mercury may be transformed 
biologically to methylmercury. Once methylmercury is 
incorporated into a food chain, it may be bioaccumulated and 
biomagnified as one organism eats another. Human exposure to 
mercury occurs primarily through consumption of fish and 
seafood.
    Because mercury is a potent neurotoxin, exposure to small 
amounts in the womb and during childhood can cause permanent 
neurological damage. In addition to IQ reduction, mercury 
toxicity has been associated with childhood diseases and 
disorders including mental retardation, cerebral palsy-like 
symptoms and hyperactivity as well as heart disease in men.
    An additional sobering fact regarding the toxic impacts of 
mercury is that the slope of the dose response curve appears to 
be steeper at lower doses, a term known as supralinear. This 
means that even at very low doses, mercury can cause 
significant adverse impacts to children, and impacts to fetuses 
may occur with minimal or no apparent symptoms in the mother.
    The following quote by the physician, Dr. Ian Donald, must 
be in the foreground of our thoughts as we deliberate mercury 
issues: ``The first 38 weeks of life spent in the allegedly 
protected environment of the amniotic sac are medically more 
eventful and more fraught with danger than the next 38 years in 
the life span of most human individuals.''
    Tribes using their fishery resources are disproportionately 
impacted by mercury contamination because of their generally 
higher fish consumption as compared to the overall U.S. 
population. Based on human blood mercury research by Schober, 
the U.S. Centers for Disease Control and Prevention estimates 
that 8 percent of American women of childbearing age have blood 
mercury levels above EPA safe levels. This percentage increases 
by four times to 31.5 percent for Native American women with 
blood mercury levels above the safe limit established by the 
EPA.
    The ability of mercury to cause IQ deficits in children is 
perhaps the most widely recognized quantifiable mercury impact.
    The following calculations are derived from the findings of 
the three major studies that have been done regarding mercury 
impacts to children, the EPA and our ongoing tribal research of 
mercury in fish. The three major studies are named for their 
geographic locations: Faroe Islands, New Zealand and 
Seychelles. The range of potential IQ deficit for children in 
the above studies is quite large, spanning from-.53 to-0.024 IQ 
point for each part per million of maternal hair mercury.
    Our assessment of potential IQ impacts to Leech Lake 
children incorporates the above referenced study data, tribal 
specific fish mercury data and tribal seasonal fish consumption 
data. All of this data translates to potential IQ losses of up 
to 14 IQ points per Leech Lake child. Then, as distasteful as 
this may be, using the EPA's economic valuation per IQ point of 
$11,871, a child losing 14 IQ points to mercury would also be 
at an economic disadvantage of $166,194.
    We as Indian people cannot afford to relinquish the fish 
that have sustained us for centuries. Fish are an integral part 
of our culture. They are who we are.
    Thank you again for allowing me to speak here today. 
Megwitch.
    Ms. Johnson. Thank you very much.
    We will begin the first round of questions now.
    Let me start by asking Mr. Grumbles. What is EPA actively 
doing at this time to coordinate EPA's Office of Air and 
Radiation and the Office of Water to reduce atmospheric 
deposition?
    Mr. Grumbles. Thank you, Congresswoman.
    Several things, one of them is the two offices work 
together in the implementation of the water program, sharing 
observations and ideas in coordination with our State partners 
as the Air Office works with its States to implement the Clean 
Air Interstate Rule and the Clean Air Mercury Rule.
    We are also working together on several fronts to advance 
energy efficiency and water efficiency to reduce and to 
mitigate the emissions of greenhouse gases. The two offices 
have been working together for years on the Energy Star 
Program, and now we are also working on a Water Star. It is 
called Water Sense Labeling Program to help use voluntary 
measures.
    But, frankly, the focus is on using the tools we have to 
provide to the Air Office, added incentives and insights from 
the water programs across the Country and the tribal programs 
across the Country to help connect the dots or the drops 
between atmospheric deposition and water.
    Ms. Johnson. Thank you.
    Now what is EPA doing to reduce the mercury emissions from 
foreign sources?
    Mr. Grumbles. One of the highest priorities in the Agency 
is to work with our global partners to reduce air pollution 
that does have an impact on U.S. citizens. There are several 
initiatives that are underway. There is the Methane to Markets 
Partnership that the Administration has been advancing, not 
just EPA but the Department of Energy and others.
    I, myself, as well as the Administrator on several 
occasions have been to China to meet with environmental 
officials to learn what they are doing and to also provide 
insights from the EPA programs and statutes that your Committee 
and other committees have passed to control atmospheric 
deposition including mercury.
    The Agency has a mercury road map which involves many 
different offices and programs reducing the sources of 
pollution. Arleen O'Donnell mentioned an effort with dentists 
to have amalgam separators. Our Prevention, Pesticides and 
Toxic Substances Office as well as our Air Office have been 
working to advance measures with States and with the regulative 
community to reduce mercury emissions and discharges into the 
air and into the water because we recognize that what you put 
on the land or what you put in the air is ultimately written on 
the water.
    So it is a priority for the Agency including continuing to 
work with the FDA on joint fish consumption advisories to 
reduce the risk and also recognize that eating fish is part of 
a healthy, balanced diet.
    Ms. Johnson. Do you have a copy of the results? Are you 
documenting results?
    Mr. Grumbles. Under which?
    Ms. Johnson. On the international influence or impact.
    Mr. Grumbles. We have an extensive amount of information 
that we would be happy to provide the Committee with in terms 
of our discussions and comparisons with Chinese officials, Air 
and Water.
    I just recently entered a memorandum agreement with the 
Ministry of Water Resources to focus on a watershed approach 
and in particular to provide technical assistance to them on 
integrated river basin management and ways to address nonpoint 
source pollution because that is one of the major challenges 
facing China when it comes to water.
    Ms. Johnson. Thank you.
    Mr. Grumbles. Thank you.
    Ms. Johnson. Ms. O'Donnell, do you have any comments?
    Ms. O'Donnell. I am also Chairman of the Quicksilver Caucus 
which is a national affiliation of State associations, and we 
have been working closely with EPA on the mercury road map. We 
provided comments along the way, and I think the bulk of our 
comments, at least from me, are that the road map ought to have 
more specific numerical targets, the same way the New England 
Governors and Eastern Canadian Premiers mercury strategy did.
    We have done a lot of work with vehicle switches, with 
electric arc furnaces. I think that is a great success story, 
having an agreement with the Automobile Manufacturers of 
America. That will reduce about 10 tons of mercury emissions a 
year just coming from that one source alone. But I think we 
have got to take a sector approach and look at all the other 
sectors that need to be controlled and figure out what numeric 
targets are achievable.
    On the coal-fired power plants, we can do in 95 percent in 
Massachusetts. Other States are requiring 95 percent. We think 
70 percent under the Clean Air Mercury Rule is not sufficient.
    Ms. Johnson. Thank you.
    Mr. Fineday, did you want to comment?
    Thank you.
    Mr. Baker?
    Mr. Baker. Secretary Grumbles, what is the database on 
which the atmospheric depositional estimates are based? Is 
there, for example, a Canadian-U.S. monitoring system that is 
run for some continuous period of time to generate a database 
from which assumptions can be made?
    Mr. Grumbles. Congressman, I am going to ask to get back to 
you with specifics on that. I want to coordinate with the Air 
Office in terms of the precise databases.
    I am not sure if it is. It probably is the Clean Air Act 
permitting programs, one of the most reliable databases for 
atmospheric deposition. They may also be using in part some of 
the TRI data, air emissions.
    Mr. Baker. Permitting data would be a one time instance 
where you are required to report certain data upon your 
applications filing. That would not be a continual monitoring 
responsibility, would it?
    Mr. Grumbles. I can speak to the Clean Water Act on 
continual monitoring responsibilities which it is the case for 
all facilities under the Clean Water Act on monthly monitoring.
    Mr. Baker. But not for air.
    Mr. Grumbles. I don't know the time frame for the 
monitoring on air, and I commit to get that to you.
    Mr. Baker. Well, it is my understanding that there are 
various governmental agencies like the NOAA, for example, and 
various states which may have their own aggregating data 
points, but it is not a formalized EPA-driven monitoring system 
which generates an annual data set from which conclusions about 
atmospheric deposition rates, on a statistically significant 
basis--let me clarify--those conclusions.
    My point is A, we need to know more, but B, if we were to 
find out that the coal-fired generators of Canada are a 
significant contributor to Massachusetts and Minnesota's 
numbers, what do we do about that? Do you have a 
recommendation?
    Mr. Grumbles. Well, I know one thing that the Agency is 
doing is that the Administrator is in discussions with the 
Environment Minister for Canada, talking about issues that we 
share, and one of them is atmospheric deposition and air 
pollution, trans-boundary air pollution.
    Mr. Baker. Would there be any data available to us that 
shows the U.S. atmospheric depositional rates to other nations?
    Mr. Grumbles. I think we do have some data that I would be 
happy to provide to you. I want to check the facts on this, but 
as I was going through some of the background material that we 
will provide to you and other members, the figure of 1 percent 
jumps out in my mind.
    Mr. Baker. That is 1 percent of what? I am sorry.
    Mr. Grumbles. The global emissions, that the U.S. 
contributes 1 percent of the global emissions, atmospheric 
deposition emissions with respect to mercury.
    Mr. Baker. Sure, and so what we need then is a substantive 
material database by element and by amount. I think it is 
important for us to see what we are doing to others as well as 
what others are doing to us.
    I am very concerned about the rate of industrialization in 
China and the lack of air quality restrictions that they do not 
appear to be anxious to impose on their burgeoning economic 
development and the consequences of that to us, not necessarily 
mercury but nitrogen particularly. Is there any study of those 
international relationships that might be available to us or is 
that an area where significant work needs to be done?
    Mr. Grumbles. We need to continue to do work, and I will 
also coordinate with the Assistant Administrator for 
International Affairs to coordinate a response to you.
    I would also say, Congressman, that the Administration's 
emphasis on the strategic economic dialogue is precisely to 
engage with our partners, China and other Asia Pacific 
partners, on energy efficiency, energy production and 
environmental responsibility. Part of the purpose for that 
emphasis that the Administrator and other cabinet level 
officials have is to have sincere discussions with China and 
other countries about the concerns we have about global air 
pollution.
    Mr. Baker. To wrap up for me, you mentioned a 20 percent 
contribution to the Gulf waters from atmospheric deposition. On 
what basis was that 20 percent calculation made? Is there some 
study that you might make available?
    Mr. Grumbles. I can certainly make available the study, the 
data that we have. The Air Office and their programs in 
Research Triangle, they have similar data on the Chesapeake Bay 
where I got the 28 percent figure.
    Mr. Baker. I will only point out this observation about our 
circumstance in my immediate market, that we are under an EPA 
restricted economic environment because of our non-attainment 
standards.
    I have been advised by academics that if you were to take 
all mankind, all vehicles, all industry and everybody that 
breathes, including cows, off the face of the state in the area 
in which the current non-attainment requirements exist, given 
the number of trees and hours of daylight, there are days in 
July and August when God can't meet the standard without any 
contribution from human involvement.
    We just need some reasonableness here, and I think that 
that is the thing that concerns many of us who want clean 
water, clean air and our kids to be healthy. How do we get 
there in a manner which makes taxpayer sense and environmental 
sense?
    Without this data, it seems very hard to develop a 
meaningful policy that can be publicly defended. The 20 percent 
figure should be something that ought to be very clearly 
delineated so that we can understand and then try to proceed 
and do something about it, having identified the source.
    I thank the gentleman and yield back.
    Mr. Grumbles. Thank you.
    Ms. Johnson. Thank you, Mr. Baker.
    I have a couple more questions before I move on.
    Mr. Fineday, thank you very much for being here. What I 
would like you to tell me about is the unique situation faced 
by the Native American neighbors especially with regard to 
contaminated fish.
    Mr. Fineday. I guess all I can really say on that is that 
fish has been an integral part of our culture for centuries, 
and it has been a staple of our diet for many, many centuries. 
From my testimony, I think you can see that we have concluded 
the potential negative impacts as far as the impacts on IQ is 
an economic disadvantage. Outside of that, I guess I would ask 
for something maybe more specific.
    I would also just like to say that the Chairman had 
instructed me that any technical questions, if they could 
please be submitted in writing, and we will respond to those as 
expeditiously as possible.
    Ms. Johnson. Thank you very much.
    Mr. Grumbles, just one more question, you have a web site 
that has been up. When we started to look in order to do some 
research on this hearing, it disappeared. Who manages that web 
site?
    Mr. Grumbles. Is this the Office of Water home page?
    Ms. Johnson. Yes.
    Mr. Grumbles. Well, it is within my office. We have a 
technical official, a technical person within the resource 
management staff, who operates it. I would love to know for how 
long it was not available. It must have just been a technical 
bleep or something.
    Was it after the storm?
    Ms. Johnson. It disappeared last Thursday.
    Mr. Grumbles. I would love to know more. We embrace 
transparency and providing as much information as we can that 
is credible and reliable, putting it on the web site. So I 
would be very interested to find out more.
    Our web site does have, just for the benefit of others who 
haven't visited it, we do have specific focus and emphasis on 
mercury, the mercury road map which is in the Office of Water. 
It is an Agency-wide web site.
    Then also within the Office of Water, we have something in 
particular. You were just asking a question about fish 
advisories. We have an annual listing of fish advisories and 
through the Office of Water web site, EPA.gov/water, you can 
locate the different types of fish advisories, most of which 
are mercury-related, throughout the Country, and we can track 
the trends, the status and trends of that.
    Ms. Johnson. Is it updated periodically?
    Mr. Grumbles. Yes. Yes, it is.
    Ms. Johnson. Is that the reason it is down?
    Mr. Grumbles. Yes.
    Ms. Johnson. Okay. I wonder. We have complimented you for 
the transparency, but I wonder whether or not anything outdated 
or whatever that is not that far outdated, that warrants 
removing it completely from public view.
    Mr. Grumbles. I think that the credibility of the Agency 
and other agencies depends on having accurate, reliable 
information. I think particularly in this day and age having a 
web site that shares as much information as we know is a good 
thing, and we fully embrace that. Also updating is the key as 
some of these issues are so complex. As we gather information 
and benefit from peer review, it is important to get the 
scientific information up there.
    So I am happy to look further into that and find out more 
specifics with your staff as what problem you might have run 
into.
    Ms. Johnson. Thank you very much.
    Mr. Grumbles. Thank you.
    Ms. Johnson. We were a little curious because of this 
hearing come up, that it suddenly disappeared. Thank you.
    Mr. Grumbles. Thank you.
    Ms. Johnson. Are there questions from other members?
    Mr. Taylor?
    Mr. Taylor. Thank you, Madam Chairman.
    Mr. Grumbles, I happen to represent the coastal area of 
Mississippi that was clobbered by hurricane Katrina a year and 
a half ago. A fairly large portion of the coast went underwater 
at different times. So that would have subjected the 
Mississippi Sound to urban runoff, in some instances maybe even 
industrial waste.
    I am curious since the consumption of shellfish in that 
area is very high--crab, shrimp--and we are trying to revive 
the oyster industry. To what extent, if any, has your Agency 
been involved in testing of those coastal water, in particular 
testing of shellfish like crab and shrimp to see if there have 
been any adverse effects?
    I would take the attitude of I just think people need to 
know. Let them decide whether or not they want to eat it, but 
they at least need to know if there is something that they 
should be concerned about in that source of food.
    Mr. Grumbles. Thank you, Congressman. I recognize your 
involvement and leadership after the storms.
    The Agency was very quick to enter into a partnership with 
FDA and with NOAA and with the Mississippi DEQ precisely on 
that subject of coastal water quality and the potential for 
contamination of fish and shellfish. I would not say we were 
the lead, but we offered expertise and technical assistance 
both within my office and, probably more importantly, within 
the regional office for that EPA region.
    So we have been involved. We continued to be involved. I 
don't know. I haven't gotten an update in the last few months 
on that concern, but we did work with the State and with the 
public health agencies on the water quality monitoring.
    We also took extensive samples in coastal water quality and 
also used our relatively new ocean research and survey vessel, 
the Bold. We diverted it from other missions and brought it 
into the Gulf of Mexico for additional reconnaissance work and 
testing in coastal waters.
    Mr. Taylor. If there is a compilation of results of what 
you have done, as things start to get a little better, these 
kinds of questions are coming up in my town meetings, and I 
would very much welcome whatever information you could provide 
along those lines.
    Mr. Grumbles. Definitely, and also on the Agency's web 
site, there is an extensive amount of information on hurricanes 
Katrina and Rita and all the different types of environmental 
monitoring that we did.
    So I will also go back and mention your ongoing interest 
and need for data on that.
    Mr. Taylor. The consumption of seafood really tends to 
spike during the summer, shrimp season, crab season. In the 
fall, they are expecting the first oyster harvest since the 
storm. So I think a timely response from you would be greatly 
appreciated.
    Mr. Grumbles. Okay.
    Mr. Taylor. Thank you, sir.
    Mr. Grumbles. Thank you.
    Mr. Taylor. Thank you, Madam Chairman.
    Ms. Johnson. Thank you very much, Mr. Taylor.
    Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Madam Chairman.
    The issue of mercury and air deposition, to some extent it 
seems to me, is a design flaw in our engineering technology. 
Nature has a particular design. Now you could say it is random. 
You could say there is an infinite number of variables. But 
there is a particular design to hydrology, to air deposition, 
to everything on the planet.
    We reach in, and we disrupt that with our designing 
technology which doesn't take mercury out, which for a long 
time didn't take lead out of gasoline. It didn't take CFCs out 
of the atmosphere. We saw what all of those things did.
    So what we did with lead, we took it out of gasoline and 
designed engines to run without it. We took CFCs out of the 
atmosphere and had an international arrangement to do that.
    Ben, you mentioned acid rain and all of those things and 
how they were created. Acid rain, or example, is a cap and 
trade program, so we are reducing that by fairly significant 
numbers, and it is beginning to work. We were able to engineer 
new technology to become not only as efficient but even more 
efficient and improve the economy at the same time.
    If in the Clean Air Interstate Rule and the Clean Air 
Mercury Rule, we are going to reduce mercury levels by 70 
percent, if I heard you right, Ben, what is the date that we 
are going to achieve that 70 percent reduction by the target 
date?
    Mr. Grumbles. I am going to make sure that I provide 
accurate information in follow-up.
    But some of the materials I have that I am looking at, 
there are a couple of different phases. The first phase for the 
Clean Air Mercury Rule, what I have got.
    Mr. Gilchrest. You can approximate, Ben. Is it somewhere 
around 2015, 2017?
    Mr. Grumbles. I think it is around that. I have got the 
second phase under the Clean Air Mercury Rule is due in 2018.
    Mr. Gilchrest. Okay, so that is a reduction of 70 percent 
by 2018 of mercury.
    Mr. Grumbles. Right.
    Mr. Gilchrest. Ms. O'Donnell, does that reduction by 70 
percent by 2018 enhance or help anything that you are doing in 
your reduction of mercury in Massachusetts, New England and New 
York, and what is your goal by 2018?
    Ms. O'Donnell. Our goal is 95 percent by 2012.
    Mr. Gilchrest. By 2012.
    Ms. O'Donnell. Correct.
    Mr. Gilchrest. How are you achieving that?
    Ms. O'Donnell. Actually, because we were already 
controlling for NOx and SOx, so we have already got air 
pollution controls on our coal-fired power plants for that, 
those controls alone got us to 80 percent mercury reduction. So 
with some additional control technologies, it wasn't far 
fetched to get to 85 and eventually 95 percent by 2012.
    Mr. Gilchrest. Is there some discussion with New England 
and New York?
    First of all, I would like to have Maryland associated with 
that. We will see what we can do to connect with that prospect.
    Is there a discussion with people in EPA about how you are 
achieving more dramatic results a lot sooner and apparently, I 
am assuming, successfully and sharing your system with them?
    Ms. O'Donnell. Yes, we submitted voluminous comments on the 
Clean Air Mercury Rule when it was proposed. So we do have 
extensive comments in the public record, and several States 
have actually sued EPA under the Clean Air Mercury Rule because 
we believe that further controls are needed.
    Mr. Gilchrest. Do you feel that what you are doing with 
mercury is hampering or stifling your economy in New England?
    Ms. O'Donnell. No. We do cost-benefit analyses for all 
regulations that are submitted, and our analyses show that the 
benefits far exceed the costs and the costs were fairly 
minimal.
    Mr. Gilchrest. You wanted to achieve one part per billion 
in Massachusetts for mercury?
    Ms. O'Donnell. That is for the discharges, wastewater 
discharges.
    Mr. Gilchrest. Wastewater discharges.
    Ms. O'Donnell. Right, and we are already achieving that for 
the Mass Water Resources Authority which basically treats 
sewage for half the State's population. They are already meet 
the one part per billion mercury limit set by us and EPA Region 
1, by the way, and Region 1 EPA played a very lead role in 
that.
    Mr. Gilchrest. In the TMDL program, is mercury a part of 
your TMDL?
    Ms. O'Donnell. Yes. We specifically submitted a TMDL for 
mercury. That was all six New England States plus New York.
    We previously submitted a proposal under 4(b), which is 
another listing category under the Clean Water Act, basically 
claiming that because the source of mercury came from the air 
and not the water a TMDL was not required, was not appropriate. 
EPA denied that request, so we are coming back now with a TMDL.
    Mr. Grumbles. Congressman, Madam Chair, I just wanted to 
mention in your very good questions that with respect to the 
Clean Air Mercury Rule, the Agency also has extensive records 
on how it made its decisions in setting a national standard, 
not a standard for Massachusetts but a national standard. Also 
with embracing the notion of federalism, that in particular 
instances if States are going to show additional leadership or 
specificity tailored to their conditions, they could do so.
    With respect to the TMDL, the program with which you are 
very familiar, we look very much forward to working with States 
on innovative approaches and regional approaches.
    The reason we did not accept the proposal from the State of 
Massachusetts was that based on our lawyer's views, the most 
legally defensible approach was to keep the Clean Water Act 
tools, not to create an off ramp from the TMDL program, to keep 
the TMDL program relevant and applicable but also to provide 
incentives for States that are showing leadership to take 
additional approaches and use additional tools. That is why we 
have come up with the March memorandum suggesting additional 
approaches towards early implementation using the various 
programs and activities that Arleen has articulated.
    Mr. Gilchrest. Thank you very much, Ben.
    Thank you very much, Madam Chair.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. McNerney.
    Mr. McNerney. Thank you, Madam Chairman.
    Mr. Grumbles, new reports indicate that oil refining in the 
San Francisco Bay Area is responsible for approximately 4,000 
pounds of mercury from atmospheric deposits into the San 
Francisco Bay per year. What guidance can you give me on how 
that would be dealt with, how long it might take, how much it 
might cost and so on?
    Mr. Grumbles. Congressman, thanks for mentioning that. You 
are underscoring the importance of looking at what goes up in 
the air and not just off the land if you are serious about 
water quality, and we are serious about water quality in the 
Bay. Various things come to mind.
    One, through the Clean Air programs, we would want to look 
very carefully at that to see what controls there are to reduce 
that percentage. Under the programs that I am focused on, the 
Clean Water programs, a very useful tool, one which we want to 
continue to use, is the TMDL, the Total Maximum Daily Load 
program which creates a pollution budget and which can help us 
working with our State and local partners to identify 
significant and not significant sources for pollutant loadings 
to bays and other estuaries.
    We also have the National Estuary Program, and the Bay is 
part of that. That is a forum for collaboration at the local 
and State level to bring in the private sector and to 
demonstrate to them and show them that we have enforcement 
tools. We also have tools for collaboration to make further 
progress in reducing mercury and other harmful pollutant 
loadings to the Bay.
    Mr. McNerney. Is this problem local to the Bay Area or do 
other refineries around the Country cause similar problems?
    Mr. Grumbles. There are other refineries. That is not a 
particular or uniquely local problem. Personally, I don't have 
with me statistics on how many other areas are experiencing 
that. I can say that sector, like other sectors that have air 
emissions, can lead to water quality problems.
    Mr. McNerney. Thank you.
    I yield back.
    Ms. Johnson. Thank you very much, Mr. McNerney.
    Mr. Duncan?
    Mr. Duncan. Well, thank you, Madam Chairwoman. I don't have 
many questions. I am a little curious, though.
    Ms. O'Donnell, have you ever done a study of whether or how 
much some of your pollution is coming from outside of 
Massachusetts or even outside the Country? Do you have any kind 
of estimate on that at all?
    Ms. O'Donnell. Our estimate now is 70 percent comes from 
upwind States.
    Mr. Duncan. Seventy percent comes from neighboring States?
    Ms. O'Donnell. Seventy percent, yes. We don't know what 
percentage of that comes from international sources.
    Mr. Duncan. I don't really have any questions, Madam 
Chairwoman. I was interested in the Ranking Member's statement 
that even God would be at non-attainment at some point. You 
know I have never heard a regulator any place who ever said 
that the cost-benefit analysis didn't come out in favor of more 
regulation.
    The problem is this: We could bring in people from small 
business who have been run out of business all over this 
Country in every industry because of so much regulation. I will 
give you an example. In East Tennessee, in 1978, there were 157 
small coal companies. Then we opened up an Office of Surface 
Mining, and now there are none.
    You know 157 was probably too many, but in all these 
industries, all these energy-related industries, the little 
guys go out first, then the medium size, and things end up in 
the hands of the big giants and costs go way up. People's 
utility bills go way up and all their energy costs go way up. 
Who you end up hurting are the poor and the lower income and 
the working people.
    I have noticed that almost all the environmental extremists 
come from very wealthy or very upper income families, and 
perhaps they don't realize how much they hurt the lower income 
and working people by destroying jobs and driving up prices, 
but that is what they do. And so, you have got to have some 
balance and common sense in some of these things.
    There are all these groups that are always telling us how 
bad everything is even though great improvements have been 
made. Great progress has been made in regard to clean air and 
clean water over the last 30 years, and that is a good thing. 
But we have these groups that keep telling us it is getting 
worse, getting worse, getting worse, and really what it amounts 
to is they are just trying to get more contributions. They 
don't want their contributions from their members to dry up.
    But what we need is some balance and common sense, and we 
need to keep in mind that every new regulation increases the 
costs that really can't afford it.
    When President Clinton locked up the largest natural gas 
deposits in the Country along the face of the Rocky Mountains 
and the Grand Staircase Escalante Region of Utah, it drove up 
people's utility bills all over the Country. We do that in 
regard to all these things.
    Anyway, I yield back.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mrs. Napolitano.
    Mrs. Napolitano. Thank you.
    Mr. Duncan, I agree with you to a certain effect, and I am 
sorry, but you just brought up a point. What is it worth in 
human effect because we have had an increase in, and I was 
making a note, attention deficit disorder in children and 
hyperactivity and mental health issues like bipolar disorder 
and cerebral palsy. If the findings from the tribe are focused 
and true, that human effect alone is worth the ability for us 
to continue to look at because our future generations will be 
affected. That, to me, whether it is mercury or perchlorates or 
any of those issues in water, we need to ensure that our future 
generations are protected in that manner.
    So while, yes, there may be some areas, but possibly we are 
right in being able to control them so that we don't have 
future generations affected as badly as some of our generations 
currently are. I am talking about the grandchildren and great 
grandchildren of our future.
    Commissioner O'Donnell, in testimony, Administrator 
Grumbles described EPA's new voluntary program for identifying 
and listing waters impaired by mercury placed on the TMDL 
category, the Total Maximum Daily Load. Could you explain how 
this new program is a useful program for the States like 
Massachusetts and what are the alternatives?
    Ms. O'Donnell. Well, Ben is probably in a better position 
to look at that. We did look. You are talking about the 5m?
    Mrs. Napolitano. Yes.
    Ms. O'Donnell. We thought about 5m, and we decided not to 
do it because we felt that we needed to take action sooner. The 
way we read 5m was it basically offered a delay in attacking 
the problem. So we wanted instead to do a traditional TMDL to 
make the case that further controls are needed and to get the 
discussion about how best to achieve those controls.
    Maybe Ben can talk a little bit about 5m. Our read of that 
was it was the slow path.
    Mrs. Napolitano. Well, I kind of agree.
    I was looking in the testimony from Mr. Grumbles where they 
are indicating, and this just really brings to focus. Fifteen 
years ago, EPA started the program, and we are just now asking 
for voluntary participation?
    Mr. Grumbles. Congresswoman, thanks for getting into this 
because it is important to clarify. The TMDL program, there are 
probably 23,000 or more. I know it is over 20,000 TMDLs that we 
and our State partners have done across the Country. We have a 
lot more to do.
    Mercury presents a unique challenge when it comes to TMDLs 
given the atmospheric deposition and the challenges outside of 
the jurisdiction and the science surrounding it.
    So what we were doing in response to concerns from various 
States, some of the States had concerns that if we go through a 
costly or lengthy TMDL process, that might not be the most 
efficient use of our resources. We could be moving ahead and 
implementing other programs that get at the atmospheric source 
that aren't under the Clean Water Act TMDL program.
    What our guidance says, it doesn't require or mandate 
anything. What it is saying to States is if that is an area 
where it has been a problem to you, we want to encourage you to 
move forward more quickly and use those other tools, and we 
will defer. We will allow you to defer some time on the Clean 
Water Act TMDL. But the bottom line is that as a matter of law 
we are still charged with enforcing the Clean Water Act, and if 
a State is going that other route and they are violating water 
quality standards, ultimately they will still be required by us 
to do a TMDL and to take other specific steps.
    We view it as it is not required. It is not a regulation, 
and that is why we are calling it voluntary. It is guidance 
saying, look, if a State, and States vary across the map as to 
what their priorities and challenges are, but we put this 
forward as a constructive way. Some States might choose to use 
it.
    We are very encouraged by the State of Minnesota which just 
a few weeks ago, we approved a first time Statewide mercury 
TMDL that we think may be a national model. Again, it wasn't 
based on the guidance that we provided in terms of that 5m 
memo, but we think that is a constructive and innovative 
approach.
    Mrs. Napolitano. But that just doesn't get the problem 
solved or at least the pollution addressed faster than we need 
to.
    In reading your testimony, you focused on mercury reduction 
efforts 15 years ago, and we are just still talking about 
helping people realize they have a problem. Now how are they 
going to deal with it?
    Ms. O'Donnell, what does the EPA need to do to help States 
achieve the goals of the Clean Water Act regarding atmospheric 
deposition?
    In other words, do we need to address it faster? Do we need 
to have them up their time frames? Is there another different 
approach that is more current?
    What about could EPA do it through regulatory promulgation?
    What can we do to help be able to work at a faster rate to 
address the issues and protect our waters and address the 
health factor of our populace?
    Ms. O'Donnell. Well, TMDLs aren't going to solve the 
problem. I can tell you that. They can point to where the 
problem is coming from, but until controls are placed on the 
sources of mercury, we are not going to get cleaner water. 
Right now, the major sources of mercury are coming from air 
emissions.
    So, electric arc furnaces, again I point to that as a great 
success. Ten to twelve pounds a year taken out of deposition, 
through application of the MACT Rule, and the electric arc 
furnaces saw it coming and did the right thing. They stepped 
up, and they said we have got to do something with the vehicle 
switches. So that is a good example.
    I think looking at every sector and figuring out how can we 
control it in a cost effective way. There are a lot of 
substitutes available. There are a lot of different control 
strategies available. But I think that is the type of approach 
that is needed.
    Mrs. Napolitano. Mr. Grumbles?
    Mr. Grumbles. I think Arleen has hit it on the head in 
terms of using a variety of tools and sources. I think it is 
important to keep in mind that the Clean Air Mercury Rule that 
the Agency issued in 2005 is the first mercury control rule for 
coal-fired power plants in the world, and it is going to lead 
to significant progress, but that alone isn't enough.
    We need to do more. Under the Clean Water Act, we need to 
continue to work with States on innovative approaches, not just 
in the TMDL program but others.
    Mrs. Napolitano. Can I go back very quickly? It is just a 
statement? Why have we not enforced stricter standards on the 
automobile industry to provide alternative fuel vehicles or to 
provide a higher mileage?
    We took out lead. What we have not done, and that is a lot 
of the source of the pollution, is emissions, car emissions, 
besides manufacturing.
    Mr. Grumbles. Yes. I appreciate your question. I think the 
Administration is looking forward to working with Congress on a 
variety of approaches. I know the department of Transportation 
as well as EPA and Energy are committed to making progress 
while maintaining this Country's economic competitiveness.
    I know you know, as you have described before, the 
importance of addressing various sectors, the transportation 
sector, cars. From a water standpoint, we know that this is one 
of the challenges of the future where we need to continue to 
use innovative approaches through the TMDL program and combine 
forces with the various air authorities and also focus on 
recycling and also minimizing the use of certain types of 
products. Arleen mentioned the mercury switches, getting those 
out of cars and having proper disposal and turning to other 
things is key. So it is a variety of different tools.
    Because it is a unique type of challenge, it is causing 
water quality impairments, but it is coming primarily from 
atmospheric deposition. It requires more collaboration and 
technology innovations.
    Mrs. Napolitano. Thank you.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Ms. Norton.
    Ms. Norton. Thank you very much, Madam Chair.
    First, just let me express my distress at hearing kind of 
circular arguments, particularly after what we have learned 
about global warming, about costs on the one hand, campaign 
contributions, jobs, over-regulation, regulation for its own 
sake.
    I just want to say enormous benefits of living in a society 
which uses all kinds of artificial chemicals, various kinds, 
enormous benefits. One thing that the Country, in part because 
of so little leadership from the Congress, has not understood 
and accepted is with those benefits come great risks and 
therefore some additional costs. If you look at young women who 
get cancer, I don't remember anybody getting cancer when I was 
young woman, breast cancer, for example, children.
    You have to say we want to keep the benefits coming. I mean 
we are wearing these chemicals. We are eating them. We are 
sitting on them, hey. But we don't even want to do any 
regulation. We have got to grow up.
    I would have thought that the global warming notion which, 
frankly, I think we may be too late for. We haven't figured 
out, maybe somebody will, a way to refreeze the glaciers. We 
may be smart. I just don't think we are that smart.
    Mr. Grumbles, you and I have become good friends over the 
years. I have got to ask you a question about the Clean Water 
Act, the provisions and lead in the water. We know that there 
was a terrible, embarrassing and dangerous crisis in, of all 
places, the Nation's Capital when it was discovered a few years 
ago there was lead in the water.
    Where? In the Nation's Capital--not in some developing 
country--and that people hadn't been told of it. You got to 
work, and the District of Columbia got to work. Then people 
panicked all over the Country because they thought they might 
be in the same kind of danger. We have had a new chemical added 
and the rest.
    We had another scare recently because we learned what 
apparently had been suppressed. The District of Columbia had 
found lead in water fountains of school all across the District 
of Columbia. I tell you one thing. I don't believe that is a 
contained District of Columbia problem.
    You argued when the lead in the water crisis came that we 
didn't need updated provisions of the Clean Water Act. What we 
needed was to let the Agency do its work. What have you done to 
assure that water fountains in our Nation's schools do not 
contain lead in them?
    Why wasn't the District subject to something you had done 
since the crisis of, what is it, five years ago, four or five 
years ago, so that that could not have occurred?
    Mr. Grumbles. What I said was that we were not supporting 
comprehensive revisions to the Safe Drinking Water Act. I 
didn't get into the Clean Water Act.
    Ms. Norton. I am sorry, yes.
    Mr. Grumbles. I will tell you where we are, Congresswoman, 
and I really appreciate this because there are two things.
    One is finalizing the revisions to the Lead and Copper 
Drinking Water Rule that I am estimating that we will finish 
and finalize by the end of this year. We have gone through the 
public comment period. We are committed. I am committed to 
seeing those revisions made, and the revisions are based in 
many respects on lessons that we have learned from the hearings 
and from the outbreak, the incidents that you are describing in 
the District of Columbia.
    With respect to schools and day care centers and 
facilities, there is most definitely a statutory issue in terms 
of the scope of the Safe Drinking Water Act as it is written in 
terms of how you define some of these public water systems. 
Schools, most schools are not public water systems.
    We have been spending quite a bit of time working.
    Ms. Norton. It is something you don't think you have 
regulatory authority with respect to?
    Mr. Grumbles. The way the statute is currently written, we 
don't.
    We have been working on technical guidance and voluntary 
measures. We provided to schools and public health authorities, 
what I call the three Ts--testing, training and telling--
information for school administrators and custodians and parent 
teacher associations to understand more about the plumbing 
systems in their schools and to work with their local and State 
authorities and, as appropriate, EPA on proper monitoring for 
potential lead in drinking water problems at schools and day 
care facilities.
    We provided that guidance. We are working with other 
agencies on that front.
    Ms. Norton. Mr. Grumbles, I appreciate your response. It 
does seem that the ball is in our court.
    Our concern about lead in water, frankly, was not about old 
deteriorated brains like mine. I don't think lead can do a 
thing to me yet or now. But the concern in the District of 
Columbia was nursing mothers and young children who certainly 
could be affected. My colleague has talked about the effect on 
IQ, for example. They were told nothing and that, of course, 
was not your problem. It was the District's problem because it 
withheld the information.
    We are about to introduce a new version of the Safe 
Drinking Water Act, and I wanted you to know that because of 
our concern.
    I will take a look, however, if you tell me when. You say 
the comment period is about to close. God, you have had a long 
time since that occurred. If you tell me when it is about to 
close, I would hold off putting the bill in until I at least 
took at look at it to see what was needed, if anything.
    Ms. Johnson. Thank you very much, Ms. Norton.
    Ms. Norton. Could he just respond to when the comment 
period is over?
    Mr. Grumbles. The comment period closed. The regular 
process that we follow through the Administrative Procedure Act 
is that we need to review all the comments, and we have done 
that. We are making the decisions within the Agency on what the 
final rule will look like.
    What I am saying is that our goal and my expectation is 
that that rule, those revisions would be finalized. The final 
rule will be issued later this year.
    Ms. Norton. When?
    Mr. Grumbles. I am guessing in the next four to five 
months.
    Ms. Norton. I don't intend to let this first session end 
without putting in a bill. So either you regard this as a 
matter of some priority or I am just going to put the bill in, 
Mr. Grumbles.
    Mr. Grumbles. It is a priority for us. Also, we can brief 
you on the direction we are heading.
    Ms. Norton. I would appreciate such a briefing.
    Ms. Johnson. Thank you very much.
    Let me thank the witnesses from panel one and suggest that 
members of the Subcommittee may have some follow-up questions 
for the record, and we would expect a timely response if they 
do, if the questions are forwarded to you.
    Thank you so very much. I appreciate all of you coming 
today and for your testimony.
    The second panel of witnesses consists of Dr. Michael 
Slattery, Director of Texas Christian University's Institute 
for Environmental Studies; Mr. Jon Mueller, the Director of 
Litigation for the Chesapeake Bay Foundation; and Dr. Charles 
Driscoll, University Professor of Environmental Systems and 
Engineering, Syracuse University.
    As I noted to the first panel, your full statements will be 
placed in the record. We ask that you try to limit your 
testimony to about five minutes, and that little light will 
blink when your time is up as a courtesy to other witnesses.
    Again, we will proceed in the order in which the witnesses 
are listed in the call of the hearing.
    Dr. Slattery?

   TESTIMONY OF MICHAEL C. SLATTERY, DIRECTOR, INSTITUTE FOR 
ENVIRONMENTAL STUDIES, TEXAS CHRISTIAN UNIVERSITY; JON MUELLER, 
 DIRECTOR OF LITIGATION, CHESAPEAKE BAY FOUNDATION; CHARLES T. 
    DRISCOLL, UNIVERSITY PROFESSOR OF ENVIRONMENTAL SYSTEMS 
ENGINEERING, DEPARTMENT OF CIVIL AND ENVIRONMENTAL ENGINEERING, 
                      SYRACUSE UNIVERSITY

    Mr. Slattery. Thank you, Madam Chair.
    If we can have the slides.
    I am proud to be from the great State of Texas although the 
accent may be a little misleading as to where I am from.
    Could I have the next slide, please?
    I would like to start with a simple statement, and this is 
going to be my take home message. This is the bottom line, and 
that is that if you live in Paris, France, mercury emissions 
from Texas power plants will have no immediate impact. If you 
live in Paris, Texas, however, the impacts are likely to be 
considerable and perhaps even widespread. If you could just 
remember that, I think that would be a useful take home 
message.
    Next slide, please.
    The mercury cycle is certainly complex, widely recognized. 
It is an environmental pollutant that biomagnifies in aquatic 
food webs to levels that threaten the health of wildlife and 
humans that consume contaminated fish. My colleague, Dr. 
Driscoll, will talk more about that, I am sure.
    Next slide, please.
    In Texas, we currently have 11 reservoirs, or 10 reservoirs 
and our only natural lake, and the entire coastline under a 
mercury advisory for at least one species of fish.
    Next slide, please.
    If we take a step back and look at States on a more 
regional picture, there are currently 20 advisories for the 
State of Arkansas, 38 in Louisiana and the State Oklahoma is 
under a Statewide advisory.
    Next slide, please.
    I think at a very simple visual or graphical level, there 
appears to be a correlation between the mercury advisories and 
emissions from coal-fired electricity-generating units or power 
plants. As you can see in this slide, the larger the circle, 
the greater the emission, and you can see this axis that is 
sometimes referred to as the wall of fire that stretches from 
South Central Texas up to East Texas, these coal-fired power 
plants.
    I am not using the term, correlation, in a statistical 
sense. This just is a graphical look.
    Next slide, please.
    We focus on Texas and regionally here because I am sure 
many of you are aware that Texas has been in the news through 
utility companies wanting to build 17 new coal-fired power 
plants, and five of the top ten emitters in the United States 
are in this great State that I live in.
    Next slide, please.
    Now the modeling of atmospheric deposition or transport of 
deposition is a complicated task. No one would deny that. Any 
kind of model involves assumptions and complications.
    But we are able to do this using several approaches, and 
the one I have been involved in, in terms of modeling the 
patterns of deposition of mercury, involve a model that has 
been widely tested and used and developed at NOAA's Air 
Resources Laboratory. It is called the HYSPLIT model.
    Next slide, please.
    I have used that to model the dispersion patterns of 
mercury deposition regionally.
    What is really important to stress is that when you are 
looking at the deposition of mercury or any pollutant, that you 
look at the long term statistical dominant transport winds. 
What that means is that essentially any scientist can make a 
computer model do anything to foot his or her desired outcome. 
What we have to be aware of here is that there is a background 
transport long term wind pattern. That is what the input to 
these models have to be.
    This is a wind rose from Waco in Texas. What you can see 
here is that the dominant transport directions in Central Texas 
are out of the South, South-Southeast and South-Southwest. 
Forty-three percent of the time, the winds are from that 
direction.
    Next slide, please.
    This is the graphical output for a run of mercury 
deposition from all current coal-fired power plants in Texas. 
There are 17 of them. The yellow plumes are of greatest 
concerns. The yellow plumes in this model, this is for a wind 
scenario that is reflective of the dominant transport winds. 
This happens to be the 5th of November, 2005, my birthday. I am 
not quite sure whether that is meaningful, probably not.
    The plumes here represent an area or cover an area of about 
15,000 square miles. That is just the yellow plumes, and these 
are the plumes in which the deposition would be most 
significant because these plumes are reflective of what is 
known as divalent gaseous mercury. This is Hg2. This is the 
mercury that falls out closest to the power plants.
    The blue plumes show a less intense deposition, and those 
plumes actually reached as far north as the Great Lakes 
themselves.
    The rates of deposition within the yellow plumes are on the 
order of four micrograms per square meter per year. Now that 
may not be meaningful if you haven't done any kind of mercury 
modeling, but just in those yellow plumes themselves, those 
rates without any synergy between the plumes represent the 
equivalent to the background deposition rate across the United 
States.
    Next slide, please.
    Two more runs just to show you that these plumes under less 
dispersive atmospheric conditions on the left would impact 
places like Louisiana quite dramatically and Caddo Lake in 
particular, and on the right of that diagram is a model 
deposition run where the winds are out of the north.
    Next slide, please.
    Now one thing that has concerned me and has got a lot of 
attention is this issue of foreign sources of mercury. 
Congressman Baker mentioned this at the outset of this 
afternoon's hearing. We hear very frequently that mercury 
deposition in the United States is not a U.S. issue; it is a 
Chinese issue. I, frankly, flat out disagree with that.
    This is a map that shows from the EPA web site, and I quote 
from the EPA web site, and this may well be the missing web 
page that Congresswoman Johnson was referring to. The U.S. EPA 
has stated that ``Regional transport of mercury from coal-fired 
EGUs in the U.S. is responsible for very little of the total 
mercury in U.S. waters.''
    What this map shows is that any part of the United States 
that is in gray, 85 percent or more of that mercury is from 
non-U.S. sources. Now for the Western U.S., that makes sense. 
But look at Arkansas, Louisiana and Texas. I simply don't buy 
the fact that even when you are in the greens and the yellows, 
that more than half of that mercury is coming from outside 
sources.
    Next slide, please.
    This is particularly acute from a watershed perspective, 
and the Honorable Grumbles mentioned this in his oral 
testimony. The red watersheds here in this diagram, especially 
the darker reds, show watersheds that are currently not in 
attainment of the EPA standards of .300 parts per million, 300 
nanograms per wet weight of fish tissue.
    When you look at the next slide, these watersheds, in 
particular, I draw your attention to the reds, the oranges and 
the reds. These are watersheds that are going to acquire up to 
a 75 percent reduction in atmospheric deposition with no new 
sources.
    This is EPA data. This is not my data. This is from the 
mercury mapping tool.
    Next slide, please.
    So, in conclusion, and I have just three, one, mercury 
deposition rates that we have found in these plumes of 4 
megagrams per square meter per year would be adding new mercury 
to the environment. I haven't gotten into the new plants and 
the whole TXU debate, and I would gladly field questions on 
those.
    But any new plant would be adding new mercury to the 
environment especially in these areas that are already 
stressed.
    Mercury deposition from the coal-fired plants is 
significant at the regional scale. Bear that opening statement, 
as simple as it seems, in mind.
    I take this from the EPA web site, and then I will quickly 
close. ``Regional transport of mercury emission from coal-fired 
power plants in the U.S. is responsible for very little mercury 
in U.S. waters.'' I think that is very important and quite 
telling.
    Finally, next slide, please.
    Requiring utilities, in my opinion, to meet a national cap 
will really have very little effect in areas such as North and 
East Texas that are already, for lack of a better way of 
putting it, under the gun when it comes to mercury deposition.
    I thank you for the opportunity to testify and would 
welcome your questions.
    Ms. Johnson. Thank you very much, Dr. Slattery.
    I would like to welcome Jon Mueller from the Chesapeake Bay 
Foundation. Please proceed with your testimony.
    Mr. Mueller. Thank you. Thank you for the honor to appear 
here today.
    I would like to start with the first slide if we could, 
please.
    This is a map of the Chesapeake Bay Watershed. I am sure 
Mr. Gilchrest has seen this a few times and probably can 
memorize it by heart here.
    But the point is, as we go to the second slide, that is 
64,000 square miles and this is a map of what we call the NOx 
or nitrogen oxide airshed. So sources within that outer circle 
contribute to nitrogen deposition to the Chesapeake Bay region 
and the watershed. That is also true, and when I discuss 
mercury, you will also see that the airshed is a little bit 
bigger than, in fact, the size of the watershed. So we do have 
sources from outside of the Bay States, traditional Bay States 
of Pennsylvania, Maryland and Virginia that are contributing to 
problems within the Chesapeake Bay Region.
    One of those problems is acidification. Mr. Grumbles talked 
about the successes of the acid rain amendments, Title IV of 
the Clean Air Act. With all due respect, while that is a 
successful cap and trade program, it has not been successful 
for all regions in the United States. I am sure Mr. Driscoll 
will address the Northeast and New York State, my home State 
and the impacts to the Adirondacks which have been quite 
severe.
    If we go to the third slide, we can see there is one in 
there that is the map of Virginia, if you could. There you go. 
Thank you. That was it.
    You will see the shaded areas there, Shenandoah National 
Park, St. Mary's Wilderness area, Dolly Sods and the Otter 
Creek Wilderness areas, these are all areas that are continued 
to be impacted by acidification which is lowering the ph in the 
waters due to nonpoint source air pollution from power plants 
and other NOx and SO2 sources. So, again, while we do have acid 
rain amendments and they have done a lot to reduce SO2 and NOx 
emissions in the United States, they don't address all of the 
problem and more needs to be done.
    The other problem area, and you have heard a lot of that 
today, is mercury and how mercury is a harmful neurotoxin. One 
of the things I would like to respond to is one of the comments 
discussed about how the poor and the working families are 
impacted by regulation.
    Well, my suggestion is that, in fact, in the Chesapeake Bay 
Region and this is probably true throughout the United States, 
that those same people are impacted by our failure to regulate 
especially when we have impacts to water quality like 
Chesapeake Bay where there is a mercury health advisory for 
rockfish in all Maryland waters, a very prominent recreational 
and commercial fishery. When you have watermen that their 
livelihoods depend on their ability to sell fish or crabs or 
other aquatic organisms that are impacted by mercury or by 
nitrogen deposition.
    The problem with nitrogen is that whether it comes off the 
land or through the air and directly deposits to the Bay, it 
causes algae blooms. Those excessive algae blooms either block 
the sunlight and inhibit the ability of these organisms to grow 
or it deprives of them of oxygen. When you have crabs and 
oysters that can't move, they are severely impacted by what is 
called hypoxy or apoxy. In the Bay, that has become a 
significant problem.
    In 2003, the Chesapeake Bay program studied dissulved 
oxygen in the Bay--if we could go to the next slide back--that 
large red area is the main stem of the Bay and is the largest 
area of the Bay to report anoxic or hypoxic conditions which 
basically means death for all aquatic organisms that live down 
below that area. So, again, there are direct impacts to the 
livelihood of people that are either recreational fishermen or 
commercial fishermen who depend on good water quality.
    One of the other things about mercury that is a big problem 
is health advisories. Well, there was some research done by 
students and graduate folks from Virginia Tech that looked at 
the impact of fish advisories in Baltimore, Washington, D.C. 
and the Tidewater, Virginia areas.
    What they discovered was that people who live at the 
subsistence level are not greatly impacted by fish advisories. 
They read them. They are aware of them. But because of their 
life conditions, they have to subsistence fish or they pass the 
fish on to friends, and they eat the fish. So they are 
consuming the contaminants that we are all warning them not to 
eat, but because of their economic situation, they have to eat.
    If we could go to the bar chart, one of the things I think 
that astounded me in doing research for this is that mercury 
was the top cause for impairments on the 303(d) list throughout 
the Nation.
    Mr. Grumbles spoke a lot about the Clean Air Mercury Rule. 
Ms. O'Donnell stated that some States have sued EPA over that 
rule. The Chesapeake Bay Foundation and a number of other 
citizens groups have also sued EPA over that rule because it 
does not address hot spots which are localized areas around the 
plants which EPA's own research has showed is actually the 
problem. We are not dealing with international sources. We are 
dealing with in-State or local sources that are impacting water 
quality.
    Until that rule is amended, we are not going to be able to 
address those problems inherent in water quality today.
    Thank you.
    Ms. Johnson. Thank you very much, Mr. Mueller.
    Dr. Charlie Driscoll from Syracuse University, we look 
forward to hearing your testimony at this time.
    Mr. Driscoll. Madam Chair and the Subcommittee members, 
thanks for hearing me.
    I am an academic researcher.
    I am going to try to talk about three things. First of all, 
I would like to talk to you a little bit about two components 
of air pollution on surface waters, firstly, acid rain and, 
secondly, a little bit on mercury. I will try to streamline my 
mercury comments because we have heard so much about it. But, 
third, I would like to seek your input in terms of a critical 
component of evaluating air pollution effects, and that is 
monitoring programs, and I will close with those comments.
    Next slide. On this slide, I have two figures and a map. 
The map is the Eastern part of the Country. You can see that it 
is color-coded. Those areas that are reddish and orangish 
represent those areas of the Eastern part of the Country that 
have been impacted by acid rain.
    The resources that are impacted are soil--that is why I 
show this figure of soil--as well as surface waters. You may 
wonder why I am mentioning soil in a Subcommittee on Water, and 
that is because soil influences water quality. These soils have 
lost their base content and therefore are less able to 
neutralize inputs of acid rain, and that is going to delay 
recovery.
    Next slide, whole ecosystems are impacted as Mr. Grumbles 
said. This is sort of a snapshot of where we stand in terms of 
the current situation. The items on the left represent what are 
the status of various water bodies in the Eastern part of the 
U.S. in terms of recovery.
    Mr. Grumbles is correct that given the fact that there have 
been reductions, that areas in New England and New York and in 
the northern Appalachians are showing some limited improvement. 
Streams in Virginia are not showing any trends, and this is 
because the soils are very sensitive southern soils.
    The bottom line, though, is that for these areas, soils are 
continuing to acidify and that will impair the long term 
recovery of these systems. If we look to the future with the 
Title IV of the Clean Air Act, we would expect to see much of 
the same, but under the Clean Air Interstate Rule, we would 
expect to see some curtailment of soil acidification and 
additional improvement. But the recovery of these systems will 
be extremely slow.
    Next slide, even though my research focuses on the East, I 
would be remiss if I didn't mention the West. The West also is 
sensitive in terms of air pollution, particularly lakes, and 
the contaminant of interest here is nitrogen. Nitrogen will 
impact surface water quality in the West because many lakes are 
nitrogen growth limited.
    Next slide, then on to mercury very briefly. As people have 
said, mercury is really derived from atmospheric contaminants. 
The critical step in this is the conversion of inorganic 
mercury from the atmosphere to methylmercury in certain 
environments, and that is the form of mercury that accumulates 
in fish by a factor of a million to ten million times.
    Next slide, so human exposure to mercury is largely through 
fish consumption. People have mentioned this, but I think maps 
are very effective. Madam Chair, as you indicated, virtually 
every State in the Country has some sort of mercury advisory.
    Next slide, one thing that I wanted to point your attention 
to is we recently completed a study for the Northeastern part 
of the U.S. and portions of Canada where we have identified a 
series of what we call biological mercury hot spots, and these 
are areas in the landscape where we have particularly high 
concentrations of mercury. So, as we move forward with the 
Clean Air Mercury rule, it is really critical that these very 
high mercury areas are identified for other parts of the 
Country and also we track the recovery of these systems as we 
try to control mercury emissions in the future.
    Next slide, I would like to close by talking a little bit 
about monitoring, and I can't emphasize this enough. I think 
monitoring is a critical tool to track how effective we are at 
managing these air pollution programs. Some of these are 
extremely expensive.
    I want to bring your attention to two programs in 
particular that are under jeopardy in the current budget. The 
first is the Dry Deposition Program through CASTNet, that in 
the current budget is experiencing major cutbacks. The second 
is the Surface Water Monitoring Program which has direct 
implications with this Subcommittee.
    The current President's budget has proposed to zero out 
those programs. So if you ask me a year from now whether or not 
I can give you an assessment of surface water quality, I will 
not be able to do that because these monitoring programs will 
have been terminated if the current plan goes forward.
    Last slide, then with respect to mercury, there were 
questions about what is the current mercury monitoring program. 
There is a network of precipitation programs across the U.S., 
but that only measures wet deposition of mercury. EPA is taking 
leadership in developing a dry deposition program which 
hopefully will get at total deposition efforts.
    I also wanted to call your attention to this House bill 
here, the Comprehensive National Mercury Monitoring Program, 
which was recently introduced in both the House and the Senate 
to establish a national comprehensive mercury monitoring 
program.
    Thank you very much.
    Ms. Johnson. Thank you very much, Dr. Driscoll.
    We will now begin the questioning. Let me say that I have a 
question for Dr. Slattery, and then I have got to run to 
another meeting, but you will not be left alone.
    Dr. Slattery, in your view, had the TXU proposal to erect 
the 13 new coal-fired power plants in the State of Texas gone 
through, what impact would that have had on the atmosphere or 
water quality within the State or atmospheric deposition?
    Mr. Slattery. Thank you, Madam Chair.
    The impact, well, there are 17 in total and 11 TXU new 
units, I believe. If that deal goes through to still construct 
those units, our work has shown, I think, very clearly that the 
impact would certainly be profound in terms of regional 
deposition. When I say regional deposition, the plumes 
themselves were all within about 100 to 150 miles of the plants 
themselves.
    There would certainly be impacts beyond that and beyond the 
State just depending on how those plumes interact and the 
synergy between the plumes themselves. Those plants, I think we 
have shown confidently and clearly that the impact would be 
significant from a regional perspective. I guess when I say 
regional, I should point out that it is not just Texas, that it 
is Texas and the immediate surrounding States. The implications 
will be widespread for the region in terms of water quality.
    Ms. Johnson. Thank you.
    Now, in your view, what needs to happen to avert a crisis 
of mercury exposure in our Nation's waterways?
    Mr. Slattery. Well, I mean that is a great question and a 
very difficult one. In a sense if you are thinking about the 
national picture, a lot has been made of the Clean Air Mercury 
Rule and my colleague, Dr. Driscoll, has referred to that. 
Whilst there is certainly a good deal to be positive about in 
terms of that rule in a national reduction of 70 percent of 
mercury by, I believe, 2018 or 2025 when it becomes fully into 
effect, the real issue is deposition at this regional scale.
    A national cap and trade program like the Clean Air Mercury 
Rule, whilst it may produce a national reduction of some 
percentage, that rule will do essentially nothing to regions 
where you are putting in new old technology coal-fired power 
plants. I guess that is the bottom line.
    Ms. Johnson. Thank you very much.
    The Chair recognizes Mr. Baker.
    Mr. Baker. Thank you, Madam Chair.
    Dr. Slattery, what is the mechanism that results in the 
mercury being deposited on the Earth's surface out of the 
atmospheric suspension? What causes the mercury to come out of 
that very fine particle that is blown in the prevailing winds?
    Mr. Slattery. My understanding of it is that it is one of 
two mechanisms. We talk about a dry deposition which is a 
straightforward settling out of the mercury itself but also a 
wet deposition in rainfall.
    Mr. Baker. Of the two mechanisms, the wet form would be the 
more prevalent because what does it require to have a dry 
deposition, very still winds, at the upper altitude?
    Mr. Slattery. The settling velocities of the particulates 
are very small as you would imagine.
    Mr. Baker. Very fine particle.
    Mr. Slattery. They are very fine particles, and there is no 
question. You raised a very important point early on, Mr. 
Congressman, about the fact that these pollutants do not obey 
State or even international boundaries. They get transported 
around the globe.
    Mr. Baker. Yes. They don't have a voter registration. They 
just go where they want.
    Mr. Slattery. Oh, absolutely. They go around the globe 
merely depending on the winds.
    Mr. Baker. Which gets me to my sort of observation about 
some of the PowerPoint presentation. There were some very 
significant yellow plumes outlined. Fifty thousand square 
miles, I think you said.
    Mr. Slattery. Fifteen thousand.
    Mr. Baker. Fifteen thousand.
    Mr. Slattery. Yes, 15,000.
    Mr. Baker. In scope, and based on the modeling through 
which the formula output that type of distribution. My question 
goes to what kind of data points were initially put into the 
formula to generate that pattern?
    It was, as I believe you outlined it, historical 
observations of prevailing winds, perhaps other information, 
but it was not necessarily air monitoring at the various coal-
burning facilities that led to actual observational data being 
then cranked into the formula which then generated the chart. 
It was basically historical observations that if we use this 
generalized data, put it into the formula, this is what it 
would look like.
    Mr. Slattery. Now let me clarify that because that raises a 
very important point when it comes to atmospheric modeling 
because, as I said earlier, there is a catch phrase with any 
kind of modeling and that is garbage in, garbage out. We can 
produce anything really that we want.
    With an atmospheric model like this, the input data, we use 
the actual observed meteorologic data that is stored on the 
NOAA web site which is stored at a resolution of 40 square 
kilometers.
    Mr. Baker. But that is meteorologic data.
    Mr. Slattery. That is meteorologic data.
    Mr. Baker. It doesn't tell you wind direction, speed and so 
forth.
    Mr. Slattery. Absolutely. Sorry.
    Mr. Baker. That doesn't necessarily tell you about air 
quality or the discharge from the facility itself that is the 
source, in your view, of the mercury that then is transported. 
You are looking at the piping mechanism through which it moves. 
You are not looking at how much water is going into the pipe.
    Mr. Slattery. No. You are. You are looking at both because 
you have got to have input. You have got to have as realistic 
as possible or even a real emission rate. You have got to have 
a rate of emission.
    Mr. Baker. Right, that was my point, but is there air 
emission data that is available to you?
    Mr. Slattery. Absolutely. Now there is a caveat there in 
that the mercury air emission data is relatively sparse. There 
are five power plants in Texas that have widely available data 
on the NEI, the National Emissions Inventory on the EPA web 
site, and that was the data that was put in for the five power 
plants under the TXU recent coal issue.
    But, no, the mercury emission data is available on the 
National Emissions Inventory and the TRI. I actually spoke with 
the guys at the Air Resources Lab to get that data to put in.
    You have to put in full velocities for that particular type 
of mercury. That gets built into the model.
    Mr. Baker. There are some assumptions built into the 
modeling as a result because, for example, at the outset I 
asked about the mechanisms by which the mercury would come out 
of suspension and be deposited. Rain would be a big factor. 
That would be why on those dry East Texas summers, stuff would 
leave Texas and likely come to Louisiana and get rained on, and 
that is why we would be the downstream beneficiary of that 
activity.
    Are those weather patterns part of this data?
    Mr. Slattery. Yes, they are. But, again, you are correct; 
they are assumptions. They are built in. They are built into 
the model. Like, for example, the 5th of November plumes, the 
input data are the emission data. The meteorologic data are the 
meteorologic data. But there is no one up there in an air 
balloon actually telling you what percentage of that is falling 
out as dry deposition versus wet deposition.
    Mr. Baker. Well, that is one of the problems for us in the 
Baton Rouge area. A lot of our non-attainment problems with 
ozone, we believe come from the Houston automobile market, but 
we don't have real data to prove it.
    My point is don't we need some significant scientific 
expenditure? I can't imagine you saying no.
    Mr. Slattery. No. Yes, we do. No.
    Mr. Baker. To determine with some degree, some higher 
degree. I don't wish to cast aspersion on your presentation but 
a significant amount of data on which to act to determine where 
things are coming from. For example, the lady who testified 
earlier from Maine or Massachusetts was saying they had done 
great work in reducing their own emissions, but about 70 
percent of their problem now seemed to come from either out of 
state or out of country.
    We have got to find out where it is coming from if we are 
going to fix it, and that is my only point.
    Mr. Slattery. Can I respond to that? I mean absolutely.
    Mr. Baker. Oh, certainly, yes.
    Mr. Slattery. Yes, I agree, and that goes to Dr. Driscoll's 
monitoring. I mean when you look at the mercury deposition 
network and that really is, as far as I am aware, the only real 
hard monitoring data that is out there in terms of a national 
picture. I think Louisiana may only have three, maybe four 
sites. Texas has two. Oklahoma has one on the eastern border.
    It is important to be able to calibrate and test these 
kinds of models that you are producing. They have to be 
validated with hard data on the ground, and that data on the 
ground is extremely sparse. The contour maps that you see, that 
are produced, showing the deposition patterns, it is very easy 
to look at those contour maps and think that they are 
absolutely real, but they are lines from a computer. They are 
interpolated from actual data measurements, yes, but Louisiana 
has three points throughout a very large State.
    So you are absolutely right; we need good monitoring. I 
would agree with you completely that you need to be looking 
significantly west of your State boundary to where a lot of 
that mercury is coming from. There is no question about that.
    Mr. Baker. It is sort of the difference between polling 
prognosis and election night returns. We need a few more 
election night returns to find out where we really are.
    I yield back.
    Mrs. Napolitano. [Presiding] Thank you very much.
    I can't help but think about California's EPA. Cal EPA, for 
years, brought up the issue of pollution in California, whether 
it was automobiles, which we have the largest concentration of 
automobiles there, I believe, and the pollution was causing the 
health problems it was causing. So we have done a lot of the 
actual research to be able to identify and bring down emissions 
from manufacturing and others.
    But when I think of the Eastern Seaboard, I think of the 
trade winds bringing a lot of the pollution not only from 
California, I would say--I mean it is stretching it a little 
bit--but all the pollution that is swept into the Eastern area. 
It is just reaching, and I am not sure whether any research has 
been done to determine where else. If in Massachusetts, 70 
percent is coming from outside sources, where?
    He is right. Where is it coming from?
    Is anybody looking at that research to identify and stop it 
at source rather than after it gets there?
    Mr. Slattery. Yes. I mean there is a lot of work being done 
on where this material is coming from, but the difficulty is 
tying down the specific percentages. I mean we cannot say with 
any certainty that 58 percent of the mercury deposition in pick 
your State is coming from a particular region. I mean that is 
just not how the atmosphere behaves. That very fine elemental 
mercury stays suspended for a very long time, and that becomes 
part of the global pool of mercury.
    When you look at the contribution from U.S. power plants or 
U.S. anthropogenic emissions or the U.S. as a whole to the 
global pool of mercury, it is small. It is less than 10 
percent. In fact, it is probably considerably less than 5 
percent to that background global pool, and that is what is 
being transported around and will fall out over long periods of 
time to add to this background rate.
    My concern is the mercury that is falling out approximately 
to these plants, in plants that are deposition in an immediate 
area to these coal-fired power plants. That is my concern, and 
that is the mercury, this gaseous mercury that has a much 
higher fall velocity and falls out much more quickly. That is 
why those plumes are 100 to 150 miles around these plants.
    Our modeling is certainly not suggesting that deposition 
from coal-fired power plants is stretching thousands of miles 
and depositing over that kind of geographic span. We know that 
that is not the case. It is a very regional issue, and that is 
why I like the term. I certainly didn't coin it, but I like 
this term of a mercury hot spot.
    Mrs. Napolitano. In the deletion of the two programs that 
Mr. Driscoll alluded to, what implications do these have to 
continue to identify and monitor them?
    Mr. Slattery. The programs, could you say that again?
    Mrs. Napolitano. The clean air status, the CASTNet, and the 
extramural monitoring.
    Mr. Slattery. To be honest, I am really not qualified to 
answer that question of those two programs. I would defer to 
Mr. Driscoll.
    Mrs. Napolitano. Mr. Driscoll?
    Mr. Driscoll. Well, concerning the mercury, those two 
programs are directed for and looking at sulfur dioxide and 
nitrogen oxide, so those contaminants in air and also in water. 
They specifically don't look at mercury.
    The only mercury program that is in place now is called the 
Mercury Deposition Network which only targets precipitation 
mercury, and that represents actually, in our neck of the 
woods, probably only about 30 percent to 25 percent of the 
total inputs. So there really needs to be a better program to 
track mercury as was suggested by the questions.
    Mrs. Napolitano. But why are the two programs you are 
talking about, valuable?
    Mr. Driscoll. They are valuable because by 2010, industry 
is going to be spending about $3 billion per year in 
expenditures to control these contaminants, and I think that it 
is only good management to track what the effectiveness is. 
What you are talking about is, in terms of CASTNet, you are 
talking about a million dollars a year. In terms of the Surface 
Water Monitoring, you are talking about $800,000 a year. So you 
are talking very modest programs to track the effectiveness of 
these very, very expensive programs.
    Without these programs in place, you won't have a good idea 
how effective those programs are and whether we need more 
controls or less controls in the future.
    Mrs. Napolitano. Well, is the current monitoring network 
adequate? Is it enough to be able to do what you are asking?
    Mr. Driscoll. It is bare bones. It is a very sparse 
network. Many of the areas that I talked about aren't included. 
The program in the Upper Midwest was eliminated. The program in 
the West was eliminated. So you are only talking a few sites in 
the East that the Surface Water Program currently targets. It 
is certainly not adequate, but it is better than nothing.
    Some of these areas that we are talking about are among the 
hardest hit in terms of acid rain impacts.
    Mrs. Napolitano. What would you say would be needed, an 
increase in being able to do other areas that should be 
targeted?
    Mr. Driscoll. If they had a million dollars a year or two 
million dollars a year, that would be a tremendous boost to 
this operation. They could do a lot with that amount of 
funding.
    Mrs. Napolitano. Thank you.
    Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Madam Chairman.
    I have some questions about a cap and trade program for 
various sources of toxins with air deposition. What areas of 
the Country have benefitted from the cap and trade for sulfur 
dioxide or acid rain?
    The map you had up there didn't look like the Northeast 
benefitted very much. Can anybody say what areas benefitted 
from this?
    Mr. Driscoll. Well, I think that the cap and trade program 
for sulfur dioxide has been beneficial. I think it has allowed 
industry to have flexibility to control the emissions. In 
contrast, there is also a proposal for cap and trade on 
mercury. Sulfur dioxide is less toxic. So I think it has been 
successful.
    I think there are still problems, and there will be 
additional controls that will be needed to basically allow 
these systems to fully recover.
    Mr. Gilchrest. Do you have a percentage of reduction of 
sulfur dioxide with this cap and trade for acid rain?
    Mr. Driscoll. Since we started the Clean Air Act, there has 
been about a 50 percent reduction. When the Title IV completes 
itself in about 2010, that will be a 50 percent reduction from 
1980 values. So you are talking about substantial reductions in 
sulfur dioxide.
    Mr. Gilchrest. So the cap and trade with the acid rain 
problem has been relatively successful.
    Mr. Driscoll. It has allowed us to turn the corner, and the 
systems are starting to recover, yes.
    Mr. Gilchrest. It seems from my perspective that a cap and 
trade with CO2 would be pretty successful too.
    But a cap and trade with mercury, given the term, hot spot, 
and given what the gentlelady from Massachusetts was talking 
about, would you recommend a cap and trade with mercury or to 
mitigate the problem of mercury, a standard regulatory policy 
would be better?
    Mr. Driscoll. As you indicate, Congressman, mercury is a 
very toxic substance. I am just a research scientist. I am not 
a manager. But a lot of people have expressed concern about the 
trading option of the Clean Air Mercury Rule. I think that the 
identification of hot spots are reason for concern in the 
mercury monitoring program.
    I would say my advice to EPA is if there is going to be 
unconstrained trading of mercury, there should be a rigorous 
monitoring program, first of all, to identify other areas of 
the Country where there are hot spots and, second, to track how 
they recover from this trading program because as we have 
heard, mercury will fall out very close to the source. So there 
may be very, very severe local effects.
    One of the hot spots is in Massachusetts, and following 
those very aggressive controls, we saw approximately 50 percent 
reduction of mercury in loons over a period of five years, 
really very rapid recovery. I think local emissions--we can't 
emphasize that enough--we think are very important.
    Mr. Gilchrest. Could I ask how long does mercury, an 
element, stay in the ecosystem from where it falls?
    It is a problem with fish, and we all know it is a problem 
with IQ as the first panel stated. If you have bigger fish 
eating smaller fish, I am not sure if we need to worry about 
the brain power of striped bass versus man? But how about bald 
eagles or ospreys or blue herons?
    Mr. Driscoll. You are correct. Those organisms that consume 
other fish such as loons, eagles, otter, mink, all those things 
are impacted. There is increasing evidence to show that mercury 
cycles through the terrestrial food chain. So birds that eat 
insects, bats, are showing very high concentrations of mercury. 
Now this is an understudied area, so the more we study the 
problem, the more widespread we find the contamination.
    As you mentioned, mercury, it is an element. It cannot be 
created or destroyed. Once we release it, it is there. It can 
only be sequestered and hopefully reduced, removed slowly from 
the ecosystem.
    Mr. Gilchrest. Thank you very much and, welcome, the 
Chesapeake Bay Program.
    Mr. Mueller. Foundation.
    Mr. Gilchrest. Chesapeake Bay Foundation.
    Mr. Mueller. Thank you.
    Mr. Gilchrest. Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. Gilchrest.
    If I remember correctly, California did some studies on the 
effect it had on the bald eagle and osprey, and they found that 
it was reducing the reproduction of those species. This was 10 
years ago if I remember correctly.
    Mr. Hall?
    Mr. Hall. Thank you, Madam Chair.
    Dr. Driscoll, I am sorry. I apologize to everybody for 
being late. I was triple booked with the Aviation Subcommittee, 
my Subcommittee that I chair, and Veterans Disabilities and 
this extremely important hearing.
    Just picking up on what you said, how does one sequester 
mercury once it is in the environment? Is that being done?
    Mr. Driscoll. It is being done. Mercury falls to the 
Earth's surface, and it can go one of three ways. It can be 
actually converted and go back to the atmosphere so it can be 
re-emitted. It can be transported in soil, and then it will get 
into potentially the aquatic food chain and contaminate humans 
and wildlife, but it can be incorporated in soil and removed 
from the system. This will occur over a period of years.
    One of the critical questions that we are researching is 
how will ecosystems respond if we control mercury emissions? 
Will they respond slowly or will they respond quickly? The few 
areas where we have data points suggest that surprisingly many 
of these ecosystems respond very quickly.
    I should point out that we also have a lot of data from 
sediment records where we collect material through the depths 
of sediment cores in lakes and bogs, and we can determine the 
age of the material and how that mercury has changed over time. 
What we see over the whole eastern half of the U.S. is that we 
have seen about a 30 percent decrease in mercury deposition 
since about the 1970s or 1980s presumably due to controls on 
incinerators and power plants and things like this. I think 
this is strong evidence that we can remove mercury.
    Mr. Hall. That is good news. I am glad to hear that.
    Dr. Slattery, I guess first to you and also to Dr. Driscoll 
because being from Syracuse, he would probably have a good idea 
about this.
    If the range of the plume, from coal-fired plants 
particularly, that is depositing mercury is thought to be 
relatively short, 100 to 150 miles I think I just heard. We are 
looking at some hot spots in the mid-Hudson Valley and also in 
the Adirondacks. We are also looking, of course, at the 
continuing acid rain problem in the Adirondacks. Where should 
we be looking for those sources?
    I mean are the coal-fired power plants that are in the 
Hudson Valley, more to the south than to the west of the 
county, Dutchess County where I come from, are they the likely 
source of the mercury that we are seeing in Dutchess County or 
would it be traveling from, let us say, the Ohio Valley?
    Mr. Slattery. Again, I don't want to just simply defer to 
Dr. Driscoll on this, but I haven't worked and I am not 
familiar with that region at all. I have just worked solely in 
Texas and the surrounding regions in terms of where to look for 
these sources. I will ask Charles to answer that in a moment.
    But I would make one comment in response to that, and that 
is that the plumes we were seeing emitted from the Texas power 
plants, this 100 to 150 mile stretch of immediate fallout, that 
was based on the assumption that there was no synergy between 
the plumes. We were doing this on an event type basis, a 24 to 
48 hour type basis just to get a picture of where these plumes 
were going and what the geographic extent of them would be. And 
so, what that means is when you have several power plants like 
this overlapping with one another, there will be synergy and 
mixing and an increase in the travel distances and the 
deposition fallout.
    But I can't actually answer specifically your regional 
question.
    Mr. Hall. Dr. Driscoll?
    Mr. Driscoll. Yes. So if there is a particular area, I can 
try to address that, but in general you will see both local, 
regional and global impacts. In Dutchess County, I am not aware 
of any large sources that are in the immediate area such as 
incinerators or power plants or industrial facilities although 
I could look that up for you if you were interested. But, 
clearly, it will be impacted by regional sources and some 
global sources as well.
    I mentioned the sediment cores that we have collected all 
over the Northeast, and they track very, very well with the 
regional historical emission estimates for the whole Upper 
Great Lakes area, explaining a large percentage of the 
historical mercury. So we think that the regional and local 
contribution is much higher than some have suggested. There is 
a global contribution, but I think the regional and local can 
be very important.
    Mr. Hall. Two more quick questions for anybody: How much of 
a problem is batteries, all kinds of batteries from little AAs 
up to camp light batteries that are disposed of by the average 
citizen, unfortunately?
    Unless there are household hazardous waste collection 
points which a lot of counties have or do collection days which 
many counties have, but a lot of them get into the incinerators 
and into the waste treatment in general.
    The second point is have you looked at tidal drying?
    I know in the Hudson River Valley, for instance, that there 
has been measurement done of PCB-contaminated dust that has 
blown between high tide and low tide. The water comes up and 
deposits sediment on the banks. Then it drops to low tide, and 
the sediment dries and is carried in the wind. There is 
measurable PCBs in the body fat of everybody who has lived for 
any period of time close to the Hudson River as a result. I am 
just curious if that sort of tidal re-introduction into the air 
is something that you have experienced elsewhere.
    Mr. Driscoll. Do you want me to answer?
    In terms of batteries, I think just briefly incinerators 
have been aggressively controlled and there is an effort to try 
to remove mercury from batteries. I think that progress has 
been made on that score.
    In terms of the intertidal zone, you are correct. It is a 
critical area probably not for the mechanism you are talking 
about, but in those environments where there is wetting and 
drying, that action can stimulate the methylation of mercury 
and, of course, that is the bioavailable form. That is a 
critical process particularly in estuaries and coastal waters 
for the production of methylmercury and the contamination of 
those water bodies.
    Mr. Hall. Thank you.
    Thank you, Madam Chair.
    Mrs. Napolitano. Thank you.
    There is such a great interest in what you are talking 
about. I am the Chair of the Subcommittee on Water and Power in 
the Natural Resources Committee, and we are discussing 
perchlorates and the VOCs in our rivers and aquifers.
    What we don't know is hurting us, and unfortunately we need 
to be able to get more information from the research community 
to find out what you have done because we need to translate it 
into how we address the future of not just legislation because 
that is not all but partnership, partnering with those that can 
make the changes. That is the general public in many instances.
    Batteries, when they go into the landfill, if they go into 
the landfill, which in California we have very strict 
standards. They have to be recycled. Many things are recycled. 
Back in the 1990s, California banned burning of trash. I 
remember. So that was some of the pollution that was hitting 
the atmosphere. There are many things that the general public 
began to understand was contributing and adding to the 
atmosphere.
    Now I am not sure. I am not on the Eastern Seaboard. I am 
on the other side. But I would hope that together, this 
Committee and the research community,--and thank you for coming 
and sharing your testimony--that we can be more forthcoming in 
addressing how we protect our environment for future 
generations.
    So, with that, gentlemen, thank you very much.
    This hearing is now adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4796.021
    
    [GRAPHIC] [TIFF OMITTED] T4796.022
    
    [GRAPHIC] [TIFF OMITTED] T4796.023
    
    [GRAPHIC] [TIFF OMITTED] T4796.024
    
    [GRAPHIC] [TIFF OMITTED] T4796.025
    
    [GRAPHIC] [TIFF OMITTED] T4796.026
    
    [GRAPHIC] [TIFF OMITTED] T4796.027
    
    [GRAPHIC] [TIFF OMITTED] T4796.028
    
    [GRAPHIC] [TIFF OMITTED] T4796.029
    
    [GRAPHIC] [TIFF OMITTED] T4796.030
    
    [GRAPHIC] [TIFF OMITTED] T4796.031
    
    [GRAPHIC] [TIFF OMITTED] T4796.032
    
    [GRAPHIC] [TIFF OMITTED] T4796.033
    
    [GRAPHIC] [TIFF OMITTED] T4796.034
    
    [GRAPHIC] [TIFF OMITTED] T4796.035
    
    [GRAPHIC] [TIFF OMITTED] T4796.036
    
    [GRAPHIC] [TIFF OMITTED] T4796.037
    
    [GRAPHIC] [TIFF OMITTED] T4796.038
    
    [GRAPHIC] [TIFF OMITTED] T4796.039
    
    [GRAPHIC] [TIFF OMITTED] T4796.040
    
    [GRAPHIC] [TIFF OMITTED] T4796.041
    
    [GRAPHIC] [TIFF OMITTED] T4796.042
    
    [GRAPHIC] [TIFF OMITTED] T4796.043
    
    [GRAPHIC] [TIFF OMITTED] T4796.044
    
    [GRAPHIC] [TIFF OMITTED] T4796.045
    
    [GRAPHIC] [TIFF OMITTED] T4796.046
    
    [GRAPHIC] [TIFF OMITTED] T4796.047
    
    [GRAPHIC] [TIFF OMITTED] T4796.048
    
    [GRAPHIC] [TIFF OMITTED] T4796.049
    
    [GRAPHIC] [TIFF OMITTED] T4796.050
    
    [GRAPHIC] [TIFF OMITTED] T4796.051
    
    [GRAPHIC] [TIFF OMITTED] T4796.052
    
    [GRAPHIC] [TIFF OMITTED] T4796.053
    
    [GRAPHIC] [TIFF OMITTED] T4796.054
    
    [GRAPHIC] [TIFF OMITTED] T4796.055
    
    [GRAPHIC] [TIFF OMITTED] T4796.056
    
    [GRAPHIC] [TIFF OMITTED] T4796.057
    
    [GRAPHIC] [TIFF OMITTED] T4796.058
    
    [GRAPHIC] [TIFF OMITTED] T4796.059
    
    [GRAPHIC] [TIFF OMITTED] T4796.060
    
    [GRAPHIC] [TIFF OMITTED] T4796.061
    
    [GRAPHIC] [TIFF OMITTED] T4796.062
    
    [GRAPHIC] [TIFF OMITTED] T4796.063
    
    [GRAPHIC] [TIFF OMITTED] T4796.064
    
    [GRAPHIC] [TIFF OMITTED] T4796.065
    
    [GRAPHIC] [TIFF OMITTED] T4796.066
    
    [GRAPHIC] [TIFF OMITTED] T4796.067
    
    [GRAPHIC] [TIFF OMITTED] T4796.068
    
    [GRAPHIC] [TIFF OMITTED] T4796.069
    
    [GRAPHIC] [TIFF OMITTED] T4796.070
    
    [GRAPHIC] [TIFF OMITTED] T4796.071
    
    [GRAPHIC] [TIFF OMITTED] T4796.072
    
    [GRAPHIC] [TIFF OMITTED] T4796.073
    
    [GRAPHIC] [TIFF OMITTED] T4796.074
    
    [GRAPHIC] [TIFF OMITTED] T4796.075
    
    [GRAPHIC] [TIFF OMITTED] T4796.076
    
    [GRAPHIC] [TIFF OMITTED] T4796.077
    
    [GRAPHIC] [TIFF OMITTED] T4796.078
    
    [GRAPHIC] [TIFF OMITTED] T4796.079
    
    [GRAPHIC] [TIFF OMITTED] T4796.080
    
    [GRAPHIC] [TIFF OMITTED] T4796.081
    
    [GRAPHIC] [TIFF OMITTED] T4796.082
    
    [GRAPHIC] [TIFF OMITTED] T4796.083
    
    [GRAPHIC] [TIFF OMITTED] T4796.084
    
    [GRAPHIC] [TIFF OMITTED] T4796.085
    
    [GRAPHIC] [TIFF OMITTED] T4796.086
    
    [GRAPHIC] [TIFF OMITTED] T4796.087
    
    [GRAPHIC] [TIFF OMITTED] T4796.088
    
    [GRAPHIC] [TIFF OMITTED] T4796.089
    
    [GRAPHIC] [TIFF OMITTED] T4796.090
    
    [GRAPHIC] [TIFF OMITTED] T4796.091
    
    [GRAPHIC] [TIFF OMITTED] T4796.092
    
    [GRAPHIC] [TIFF OMITTED] T4796.093
    
    [GRAPHIC] [TIFF OMITTED] T4796.094
    
    [GRAPHIC] [TIFF OMITTED] T4796.095
    
    [GRAPHIC] [TIFF OMITTED] T4796.096
    
    [GRAPHIC] [TIFF OMITTED] T4796.097
    
    [GRAPHIC] [TIFF OMITTED] T4796.098
    
    [GRAPHIC] [TIFF OMITTED] T4796.099
    
    [GRAPHIC] [TIFF OMITTED] T4796.100
    
    [GRAPHIC] [TIFF OMITTED] T4796.101
    
    [GRAPHIC] [TIFF OMITTED] T4796.102
    
    [GRAPHIC] [TIFF OMITTED] T4796.103
    
    [GRAPHIC] [TIFF OMITTED] T4796.104
    
    [GRAPHIC] [TIFF OMITTED] T4796.105
    
    [GRAPHIC] [TIFF OMITTED] T4796.106
    
    [GRAPHIC] [TIFF OMITTED] T4796.107
    


  HEARING ON NONPOINT SOURCE POLLUTION: THE IMPACT OF AGRICULTURE ON 
                             WATER QUALITY

                              ----------                              


                       Thursday, April 19, 2007,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:00 p.m., in Room 
2167, Rayburn House Office Building, the Honorable Timothy H. 
Bishop [chairman of the committee] presiding.
    Mr. Bishop. We are about to get called for a set of votes, 
and that is why our Ranking Member is not here. He has gone 
directly to the Floor. So if you all will indulge us for 
another, I would say 20 or 25 minutes, we have a series of 
votes coming up on the Floor. Then we will be back and we will 
begin the hearing. So I thank you for your patience and your 
indulgence.
    [Recess.]
    Mr. Bishop. I would like to call the Subcommittee to order.
    Let me start by thanking you all for your patience and for 
your indulgence as we went through a series of votes. Today we 
will be having a hearing on nonpoint source pollution and the 
impacts of agriculture on water quality.
    I would like to welcome today's witnesses to our hearing on 
the impact of agriculture on water quality. Today we will hear 
from representatives from Federal, State and municipal 
governments, as well as from academia and other interested 
stakeholders. These diverse perspectives will provide the 
Subcommittee with a much broader understanding on whether and 
the degree to which agricultural activities impact water 
quality. We also hope to learn more about how the Federal 
Government can further assist the agricultural community in 
reducing runoff.
    To begin, let me extend a warm greeting to Dr. Robert 
Howarth, who hails from my home State of New York. Dr. Howarth 
is a professor in Cornell University's Department of Ecology 
and Evolutionary Biology. He is one of our Nation's preeminent 
scientists and he will be speaking on the second panel. Dr. 
Howarth, thank you for being here.
    Let me say that in large part, this hearing is about 
protecting our heritage. A very important part of that heritage 
is farming. Today the United States is the breadbasket of the 
world, and it wouldn't have this role without the important 
part played by farms and ranches across the land.
    But there is another part of our heritage, too, and this 
includes protection of our natural resources; critical among 
them, protection of the Nation's water bodies. The hearing we 
are holding today will look at the impacts of agricultural 
runoff on water quality. As we will learn, the promotion of 
agriculture and the protection of the Nation's waters are not 
exclusive concepts. Indeed, the Federal Government is actively 
working to promote both.
    The question is, however, is the Federal Government doing 
enough? Let me be very clear: any suggestion that we want to 
end farming and return farmland to its natural state in order 
to protect our waters is nothing but a red herring. We seek 
agricultural practices that make sense, environmental sense, 
and economic sense.
    Agricultural runoff consists of pollutants from farming and 
ranching that are picked up by rainfall and snowmelt and 
eventually deposited into water bodies. These pollutants can 
include nutrients, pesticides, sediment and animal waste. Why 
is agricultural runoff important? It is important because these 
pollutants can lead to water body impairments, as well as 
threats to human health. In fact, the EPA tells us that the 
States have reported that 45 percent of rivers and streams 
across the Country are impaired, and that agricultural runoff 
is a leading culprit.
    Water body impairment is not just a box on a scientific 
report somewhere that is just checked off impaired or not 
impaired. No, there are very real-world implications that 
impact our communities, making it harder for ordinary working 
folks to make a living and harder for municipalities to provide 
basic services. Let me provide just a few examples.
    As we will learn today from our witness from Waco, Texas, 
the City of Waco has had to spend literally millions and 
millions of dollars to upgrade its drinking water facilities as 
a result of water contamination from upstream dairies. Through 
relatively simple dairy farm management reforms that would have 
been far cheaper to implement, those upgrades would not have 
been necessary. This money could have been spent on schools in 
Waco, it could even have been returned to the taxpayers of this 
community through lower taxes.
    Similarly, blue crabs are in decline in the Chesapeake Bay 
and commercial oysters harvesting is nothing compared to what 
it once was. On the Gulf of Mexico, one of the Nation's 
greatest natural resources, fishermen are suffering because 
shrimp and commercial fish populations are in decline due to 
the infamous Dead Zone. This Dead Zone is in part the result of 
nutrient runoff hundreds of miles upstream along the 
Mississippi River.
    The Federal Government has a number of programs that 
provide opportunities for the farming community to receive 
funding and assistance to decrease this runoff. These programs 
are largely voluntary and entail farmers and landowners 
adopting best management practices. Many of these programs make 
both economic and agronomic sense.
    For example, water body impairment through excess nutrient 
runoff is often the result of too much nutrient being applied 
to fields. Precision agriculture means fewer nutrients which 
means that farmers have to spend less on buying fertilizer. At 
the end of the day, this leaves a bigger paycheck.
    Erosion control programs help keep valuable topsoil on the 
fields. As any farmer will tell you, healthy, abundant topsoil 
is critical to success. These programs are just further 
examples of what makes economic sense makes environmental sense 
also.
    The trouble is that not enough farmers are receiving 
benefits from these programs. Given that some of these 
practices have been proven to work, the onus is on us to work 
out why there is not more enrolment in these Federal programs. 
Part of the reason is that the programs just aren't big enough. 
There is not enough funding for conservation programs that 
provide grants to farmers. In fact, funding is so low and the 
backlog of applications so long that there are currently 195 
farmers in Iowa who have chosen to take out conservation loans, 
that is loans, not grants, through Iowa's local water 
protection program. This just goes to show that farmers want to 
do what makes environmental, economic and agronomic sense. It 
is just that the Federal Government doesn't seem to be there 
for them.
    Today we hope to learn more about what the Federal 
Government is doing with these programs, whether it is doing 
enough and if we all work together, the Federal Government, the 
States, the farmers and conservationists, what more needs to be 
done. I welcome the witnesses to today's hearing and I look 
forward to their testimony.
    Now I would like to recognize the Ranking Member, Mr. 
Baker, for any opening remarks he wishes to make.
    Mr. Baker of Louisiana. I thank you, Mr. Chairman, and 
appreciate the interest in the subject matter and the calling 
of this hearing on this important topic.
    Data which is not all that recent, but still relevant 
enough for this hearing, indicates that less than 3 percent of 
the American population is engaged in or in some way acts in 
concert with a principal farming operation. That number is 
continuing to decline.
    Concurrently with that decline in number of producers, we 
are also seeing commercial operators grow the scope of farming 
operations in geographic size dramatically. In my state, unless 
you are at least 2,000 acres, in the soybean business, you are 
probably not going to be economically viable. Which leads to an 
observation: these folks are sophisticated people trying to 
make a living producing from the land which is the essential 
core of their long-term economic viability. They are folks that 
are necessarily going to do what they believe best for the 
preservation of that natural resource.
    And as you pointed out, Mr. Chairman, fertilizer isn't 
cheap. And the less of it you use, the better off your yield is 
in the bank. So the idea is to use sophisticated production 
technologies to increase the yield, keep costs down, and for us 
to help keep farmers alive. We do not need to rely on foreign 
nation's generosity to feed our people.
    In fact, in looking at the end result of this process that 
we have been engaged in, the atmospheric transport of mercury, 
for example, that filled the room up last week, we appear to be 
on a course of designing a new set of regulatory standards for 
all sorts of environmental activities. I only hope that at the 
conclusion of this work, we find economically viable 
methodologies, which will enhance the ability of people to 
continue to produce.
    I would also point out that in looking for causes of water 
contamination, we should not divert our attention too far from 
urban centers, where weekend landscapers use material this time 
of year to weed and feed their lawns. Just a casual observation 
I have made, not too many appear to be reading labels. They are 
walking around slinging it out by the handfuls. That stuff 
winds up in the same groundwater supply as everybody else's by 
product, and we need to be carefully examining all sources of 
potential contamination to determine what if any action might 
be taken to assist in that arena.
    Finally, aging municipal water treatment systems. It is not 
uncommon for, in a severe storm, to have systems back up and 
overflow and that contamination finds its way again untreated 
into public water systems. For these reasons, we have a lot of 
work to do, Mr. Chairman. I am hoping that throughout the 
course of our discussion we will learn here today from learned 
individuals perspectives on how we can help, not hinder, and 
how we can accomplish these goals in an economically 
responsible manner.
    With that, I yield back.
    Mr. Bishop. Thank you very much.
    Mr. Salazar, do you wish to make an opening statement?
    Mr. Salazar. Thank you, Mr. Chairman.
    First of all, I appreciate that we are addressing the topic 
of water pollution, specifically the issue of nonpoint source 
pollution. There is no question that having a clean and safe 
water supply is important to all of us, including those of us 
who are in agriculture. Ecosystems work together. Healthy 
wildlife populations, vibrant plant systems and clean water 
each contribute to the overall well-being of our environment.
    But I must assure you that America's farmers and ranchers 
are the best stewards of the Nation's land and water resources. 
Their production and profitability can only be as good as the 
land from which it comes. So appropriate care for land and 
water resources makes both environmental and economic sense for 
them.
    As a farmer and rancher myself, I fully appreciate the 
importance of a healthy, functioning ecosystem. I firmly 
believe that we can have agriculture and a clean water system 
in this Country.
    I think it is important to recognize that agriculture is a 
regulated industry. Extensive new regulations were put in place 
in the 109th Congress to control discharges from concentrated 
animal feeding operations, known as CAFOs. In fact, there has 
been a significant shift over the past several years in Federal 
efforts to regulate and prohibit production area discharges 
from CAFOs. In addition, CAFOs must utilize and comply with 
strict nutrient management plans when applying manure to 
agricultural fields, to ensure that manure is applied at 
agronomic rates. Any violation of these requirements can result 
in substantial penalties in certain situations, even 
imprisonment. We should consider these new regulatory 
requirements that ensure protection of our waters and give them 
time to work.
    There are also several programs in place under the Clean 
Water Act that specifically address nonpoint source pollution. 
This Congress should consider increased funding, and I 
associate myself with the Chairman's remarks, that the 
Government does not do enough for agriculture. But this 
Congress should consider increasing funding of these programs 
to levels that will enable States to address nonpoint pollution 
as intended.
    Agriculture producers are also taking measures to be as 
environmentally friendly as possible in their operations. We 
just had a hearing in the Ag Committee. Just one example is the 
implementation of the projects of the USDA Farm Bill 
conservation programs that work to improve water quality. We 
discussed the buffer strip initiative that is being proposed.
    From 2002 to 2006, NRCS disbursed over $2.7 billion to ag 
producers for projects to improve water quality. But as the 
Chairman said, there is still not enough. Most of those 
projects were through the Environmental Quality Incentives 
Program. In the same time period, they spent almost $1.2 
billion conserving and improving wetlands, mainly through the 
Wetlands Reserve Program.
    Family farmers and ranchers are excellent stewards of their 
land, natural resources, and water. Their livelihoods depend on 
it. We should enable them, through programs like these, to 
continue to produce our Nation's food and fiber in an 
environmentally sound and sustainable way.
    Last year for the first time in the history of the United 
States, the United States became net food importers of 
specialty crops. That is a scary thought to me. I think it is 
the responsibility of this Committee, this Congress, to ensure 
that we preserve and protect our water sources for today's use 
as well as for future generations. But it must be done in a way 
that does not negatively impact the slim margins that farmers 
face today.
    Thank you, Mr. Chairman, and I look forward to today's 
hearing. I yield back.
    Mr. Bishop. Mr. Salazar, thank you.
    Mr. Gilchrest, do you wish to make an opening statement?
    Mr. Gilchrest. Thank you, Mr. Chairman. Just very briefly.
    Thank you for holding this hearing. This is an issue in 
many parts of the Country. In my Congressional district, the 
biggest industry is agriculture. It wraps around the Chesapeake 
Bay.
    Just a couple of comments. There are a myriad of programs 
in the Department of Agriculture that attempt to address 
nonpoint source pollution, particularly in agriculture. What we 
have been doing for years and what we really want to try to do 
in this Farm Bill is to pump more money into those programs to 
help the farmer whose only source of income is production 
agriculture, but give him ready cash to be a part of the 
solution of reducing runoff from herbicides, pesticides, too 
much nitrogen, too much phosphorus, et cetera. That is in the 
form of cover crops, CRPs, forested buffers, grass buffers, 
technical assistance on the kinds of crops to plan, you name 
it.
    This Country is a lot better off and our taxes are a lot 
lower with a landscape carpeted with farms as opposed to a 
landscape carpeted with sprawl. You don't need a lot of 
bureaucracy to take care of an agricultural area. But you need 
a lot of bureaucracy and you get a lot more pollution from 
sprawl.
    So if we just recognize that economic viability for 
communities, but especially agriculture, rests on the Federal 
Government being an assistant in helping with money, with 
technical assistance, with expertise, the farmers dealing with 
their stormwater runoff. Because that is what this is. 
Agriculture has a problem with stormwater runoff, just like an 
urban area does. But you can sure capture that stormwater 
runoff with the expertise that we now have in-house.
    So I want to thank the Chairman for holding this hearing. 
The hypoxia Dead Zone in the Gulf of Mexico is a classic 
example of something that we can solve, the dead zone in the 
Chesapeake Bay which is caused by urban and ag runoff. Like the 
previous speaker said, the farmers in Maryland have applied, 
there are more farmers applying for those kinds of dollars to 
deal with that kind of stormwater runoff, which in essence is 
what it is, because we all know from our seventh geology class 
or geography class that water runs downhill. And the way we 
absorb that is something that is a well-known quantity: 
preserve agriculture, put money into these programs and we all 
benefit.
    Thank you, Mr. Chairman.
    Mr. Bishop. Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    If I can just ask the former speaker, what he had against 
straw.
    Mr. Gilchrest. What I have against what?
    Mr. Brown. Straw.
    Mr. Gilchrest. Straw? I like straw. It's a good bedding for 
cows, horses, hogs. I think I said sprawl. I didn't say straw.
    Mr. Brown. Oh, sprawl.
    I thought you said straw. It must be your southern accent.
    [Laughter.]
    Mr. Baker of Louisiana. For a small fee, I will gladly 
interpret for you.
    [Laughter.]
    Mr. Oberstar. Mr. Chairman, this morning Mr. Brown wanted 
an interpreter for me. Now I think we need one for him.
    [Laughter.]
    Mr. Bishop. If there are no other members who wish to make 
an opening statement, we will now proceed to the first of our 
two panels. We are pleased to have a very distinguished panel 
of witnesses here with us this afternoon. First, we have Mr. 
Richard Coombe, Regional Assistant Chief of the USDA's Natural 
Resources Conservation Service. Next will be Mr. Craig Hooks. 
Mr. Hooks is the Director of the Environmental Protection 
Agency's Office of Wetlands, Oceans and Watersheds, which is 
located in the Office of Water. And our final witness on the 
first panel will be Mr. Wiley Stem, Assistant City Manager for 
the City of Waco.
    We are pleased to welcome you all here this afternoon. We 
ask that the witnesses try to limit their testimony to a five 
minute oral summary of their written statements, and their full 
written statement will be entered into the record in its 
entirety.
    We will proceed in the order in which you were introduced, 
so let us begin with Mr. Coombe.

TESTIMONY OF RICHARD COOMBE, REGIONAL ASSISTANT CHIEF, NATURAL 
RESOURCES CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE; 
     CRAIG HOOKS, DIRECTOR, OFFICE OF WETLANDS, OCEANS AND 
  WATERSHEDS, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION 
AGENCY; WILEY STEM, ASSISTANT CITY MANAGER, CITY OF WACO, TEXAS

    Mr. Coombe. Thank you, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to appear before 
you today to describe the relationship between water quality 
and agriculture and the activities the Natural Resources 
Conservation Service is participating in to provide assistance 
to address this issue.
    This topic is of special interest to me, as I served as CEO 
of the Watershed Agricultural Council, Inc., of the New York 
City watershed. This watershed project was a showcase example 
of how agricultural forest landowners took successful, 
proactive steps to protect the water supply of the city of New 
York. For over 70 years, NRCS has been committed to working 
with America's private landowners through a locally-led, 
voluntary, cooperative conservation approach. This approach has 
proven time and time again that when given sound information, 
guidance and technical assistance, farmers and ranchers 
voluntarily adopt, install and maintain conservation practices.
    Our mission effectively describes what we do: helping 
people help the land. Water quality is a primary indicator of 
our environmental health. And the quality of water reflects 
what occurs on the land. Water quality concerns from 
agriculture are generally defined as nonpoint source pollution. 
This pollution comes from diffuse sources, which makes 
identification of the source of water quality problems 
difficult. Often, water quality problems are the result of 
actions by many landowners, both rural and urban.
    Mr. Chairman, if you visit any one of the 3,077 counties in 
the United States, you would likely find that agricultural 
producers work with NRCS. Our conservation technical assistance 
program provides direct conservation planning, specific 
conservation practices, or systems are developed and farmers 
and ranchers may utilize our Farm Bill cost share programs and 
other authorities.
    Let me highlight a few of our voluntary programs. First, 
the Environmental Quality Incentives Program (EQIP) is the 
flagship of the Working Lands Conservation Program portfolio. 
Funding for EQIP in the 2002 Farm Bill greatly expanded the 
program's availability. Sixty percent of these funds are 
directed to address livestock-related resource concerns. The 
Department's 2007 Farm Bill proposal recommended consolidating 
and reauthorizing existing cost share programs into a newly-
designed EQIP, which will simplify and streamline activities 
and includes the creation of a new regional water enhancement 
program.
    The Conservation Innovation Grants (CIG) program stimulates 
the development and adoption of innovative conservation 
approaches. In fiscal year 2006, CIG was implemented with three 
components: national, the Chesapeake Bay watershed, and State. 
The Wetlands Reserve Program provides funding to landowners to 
retire cropland from agricultural production if those lands are 
restored to wetlands and protected with a long-term or 
permanent easement. Our 2007 Farm Bill proposal seeks to add 
more than 1 million additional acres to WRP, bringing the 
overall enrollment to more than 3.5 million acres.
    The Conservation Reserve Program, administered by the Farm 
Services Agency, provides technical and financial assistance to 
eligible farmers and ranchers. There are more than 36 million 
acres enrolled in the program and planted to cover crops to 
stop soil and nutrients from washing into waterways.
    Finally, the Conservation Security Program provides 
assistance on tribal and private working lands which rewards 
producers who practice good stewardship on their agricultural 
lands and provides incentives for those who want to do more. 
NRCS has offered the program in 280 watersheds and rewarded 
nearly 19,400 stewards on 15.5 million acres.
    Every year, NRCS measures the changes of the resource based 
on private lands through the National Resources Inventory 
(NRI). The NRI is a statistical survey of natural resource 
conditions and trends, and it assesses soil erosion, land cover 
and use, wetlands, habitat diversity, selected conservation 
practices and related resources. In 2006, the NRI shows a 43 
percent reduction in cropland soil erosion between 1982 and 
2003. This reduction did not happen by regulation, but through 
voluntary cooperation at the local level.
    Mr. Chairman, we have excellent information about our 
program outputs, but we still are working to quantify our data 
on environmental outcomes of our programs. As a result, 
starting in 2003, in collaboration with USDA and Federal 
agencies, we initiated the Conservation Effects Assessment 
Project (CEAP) to scientifically assess the environmental and 
related outcomes from Farm Bill conservation programs at both 
the national and watershed scale through 2008.
    We believe that farmers and ranchers are making important 
gains in conservation on working lands. We are sharply focusing 
our efforts and will work together with our partners to 
continue to make improvements to water quality.
    I look forward to working with you as we move ahead in this 
endeavor. I thank the Subcommittee and will be happy to respond 
to any questions.
    Mr. Bishop. Thank you, Mr. Coombe.
    Now we would like to welcome Mr. Hooks from the EPA office. 
Mr. Hooks, we look forward to your testimony.
    Mr. Hooks. Thank you.
    Mr. Chairman and members of the Subcommittee, I am Craig 
Hooks, Director of the Office of Wetlands, Oceans and 
Watersheds in the Office of Water at the U.S. EPA. Thank you 
for the opportunity to discuss EPA water quality programs for 
agriculture.
    EPA's 2002 National Assessment Database summarizes State 
water quality reports and categorizes the quality of the State-
assessed waters as good, threatened or impaired. States 
assessed their rivers, streams, lakes, ponds and reservoirs and 
found that agriculture was the most frequently identified 
source of water quality impairment.
    The National Nonpoint Source program, under Section 319 of 
the Clean Water Act, is EPA's primary program to manage 
nonpoint source pollution. The most significant category of 
nonpoint source pollution is agriculture, and as such, it 
deservedly receives more attention than any other nonpoint 
source category.
    The Section 319 program is administered by EPA, but 
implemented by the States. States develop and implement 
watershed plans that assesses water quality programs 
holistically throughout a watershed, analyze and quantify the 
sources and causes of water quality programs and impairments, 
estimate the pollutant reductions that will be needed to solve 
water quality problems, and identify the best management 
practices that will be needed in various places to achieve the 
needed pollutant reductions.
    In terms of EPA's relationship with USDA, EPA and USDA 
bring different strengths to solving water quality problems at 
the local level. USDA conservation programs have built a long 
history of trust among agricultural producers. EPA and State 
water quality agencies can provide funding for some activities 
that may not be funded by USDA programs to help make a 
watershed project a success. For example, EPA funds can be used 
to conduct water quality monitoring, to improve understanding 
of water quality issues and potential solutions, develop 
watershed plans that enable a community to identify priority 
needs and priority locations for implementation, hire a 
dedicated watershed coordinator, often a conservation 
specialist, who is rooted in a local community, who can educate 
the community and help design and implement solutions and 
demonstrative innovative management practices.
    EPA water quality programs and USDA conservation programs 
are most effective when we are able to work together in a 
concerted and coordinated manner to focus our resources in the 
same watershed.
    I would like to mention water quality trading. One of EPA's 
tools for supporting agricultural conservation practices is 
water quality trading. Water quality trading programs allow 
facilities facing high pollutant costs to meet their regulatory 
obligations by purchasing environmentally equivalent or 
superior pollutant reductions from another source at lower 
cost. Trading programs transform pollutant reductions achieved 
by implementing agricultural conservation practices into a 
valuable commodity that a producer can sell to an industrial or 
municipal facility.
    So in conclusion, we have made a major investment in the 
implementation of programs and practices to protect and restore 
waters that are impacted or may be impacted by agriculture. 
However, much more work remains to be done to achieve the 
program's long-term goals. We will continue to work with this 
Committee, our Federal colleagues and the many partners, 
stakeholders and citizens who want to accelerate the pace and 
efficiency of water quality protection and restoration.
    This concludes my prepared remarks and I will be happy to 
respond to any questions you may have.
    Mr. Bishop. Mr. Hooks, thank you.
    We will now proceed to Mr. Stem from Waco, Texas.
    Mr. Stem. Good afternoon, Mr. Chairman, members of the 
Committee. My name is Wiley Stem. I serve as Assistant City 
Manager for the City of Waco, Texas.
    I am pleased to be here today on behalf of the American 
Waterworks Association and its 60,000 members. AWWA member 
utilities serve safe water to over 80 percent of the American 
people and AWWA is both very concerned and very qualified to 
speak about the subject of this hearing, nonpoint source 
pollution.
    Nonpoint source pollution is a very serious problem, and 
one that is not effectively addressed by the Clean Water Act. I 
would like to illustrate this problem by describing the 
situation we face in Waco over the contamination of our 
municipal water supply.
    Lake Waco is the only viable public drinking water supply 
for approximately 150,000 central Texas citizens who live in 
our city and in surrounding communities. In recent decades, 
Lake Waco has been severely damaged by pollution running off of 
agricultural lands and our watershed. Numerous studies and peer 
review publications concluded that high concentrations of 
phosphorus in Lake Waco are caused by runoff from agricultural 
operations in the North Bosque River watershed.
    More specifically, this runoff occurs as a result of 
concentrated animal feeding operations, or CAFOs, over-applying 
cow manure to their waste application fields. The dairies in 
question, which by the way are industrial scale operations, and 
not traditional family farms, are applying manure to their 
fields as a means of waste disposal, rather than for agronomic 
purposes.
    The excessive phosphorus in our watershed has caused algal 
growth in Lake Waco. These algae, in turn, cause serious taste 
and odor problems with the water. In addition to phosphorus, 
animal waste also is a significant source of pathogens. 
Although Waco takes great care to treat its water to safe 
levels, in other cities there have been several well documented 
cases where a chain of events, including breakdowns in water 
treatment, has resulted in people being killed or seriously 
sickened by pathogens associated with animal waste.
    The City of Waco has both an obligation under the Safe 
Drinking Water Act and a moral responsibility, which we take 
very seriously, to make sure that water we deliver to our 
residents is safe, odor-free and pleasant to drink. In order to 
meet this obligation, Waco has been forced to spend millions of 
dollars in recent years for additional water treatment as a 
direct result of the pollution in our watershed. The cost of 
upgrades in equipment and facilities which we must employ to 
deal specifically with this problem is projected to nearly 
double the cost of a project we are undertaking to ensure that 
we have adequate water supplies for now and the future. The 
cost of that project is estimated at approximately $90 million, 
of which $40 million is attributable to poor water quality 
caused by animal operations in our watershed.
    As described in more detail in my statement, the City of 
Waco was forced to sue a number of the dairies in our 
watershed, using Superfund. These suits were not for the 
purpose of enriching the city, but to force the dairies to 
adopt better practices that reduce the levels of polluting 
runoff from their fields. I would note that there are efforts 
underway in Congress to relax the provisions of Superfund by 
excluding animal manure and its constituents, such as 
phosphorus, from coverage under the law. I urge you to strongly 
oppose such relaxation of Superfund.
    I would also note that while Waco had to sue agricultural 
operators to adopt certain programs in our watershed, those 
same programs could be adopted voluntarily with support under 
our Nation's comprehensive farm bill. Congress is expected to 
pass a new comprehensive farm bill this summer. I urge you to 
expand the conservation programs in it to at least $7 billion 
annually, as proposed by representative Ron Kind and several 
other members of Congress. Protecting drinking water supply 
should be a top priority for those funds.
    Finally, I would be remiss if I did not thank 
Representative Chet Edwards for his tireless efforts to procure 
funds for the City of Waco to help us deal with these problems. 
I hope that you will strongly support the Water Resources 
Development Act and the funds Congressman Edwards is seeking to 
assist Waco and upstream agricultural operators in the 
important work of securing adequate and safe supplies of water 
for our citizens.
    Thank you again for the opportunity to appear today and I 
will be happy to answer any questions.
    Mr. Bishop. Mr. Stem, thank you very much.
    We will now proceed to questions for the first panel. Let 
me start with a question that will be both for Mr. Hooks and 
Mr. Coombe. The question has to do with coordination between 
the USDA and its Federal partners, such as the EPA, in an 
effort to continue to decrease agricultural runoff.
    In what ways is increased cooperation important, in what 
ways will they be valuable, and how would you suggest going 
forward to achieve that level of cooperation? We will start 
with Mr. Coombe.
    Mr. Coombe. Mr. Chairman, I would refer to the Chesapeake, 
for example. We have a predictive EPA watershed model, which is 
utilized so much in the press. It measures BMP, best management 
practices. In our particular program, conservation practices 
are what we use. Consequently, the jargon is different. So we 
are working closely to have these two work together.
    We have just signed a Memorandum of Understanding (MOU) in 
October between the EPA and USDA with regard to putting actions 
in place to deal with the Chesapeake together. At the 
departmental side, both agencies or both departments have an 
MOU in the works to improve communication between leadership 
and focus on financial and technical resources.
    We also have in the new Farm Bill proposal of the 
secretary, of a Regional Water Enhancement Program proposal 
which would be looking at large watersheds. Last of all, 
recently the regional directors met in Philadelphia at the 
request of Don Welsh, Region III Administrator, myself and 
others. That is an example of where each of us that oversee all 
of the States within the region of the Chesapeake have met.
    Mr. Hooks. Thank you for your question. I think one of the 
areas that USDA and EPA can work together really are at the 
local level. I think there are some examples of us working 
together in a much more concerted and coordinated fashion. Just 
recently USDA's NRCS office worked with the Nebraska Department 
of Environmental Quality to develop a fund in 2007 called the 
Water Quality Initiative Program that will invest EQIP dollars 
to fund one on one technical assistance to farmers and 
landowners at priority sites within a watershed.
    One of the key features that we have promoted, that we 
attempt to promote through our nonpoint source program, is our 
ability to work cooperatively and through this voluntary 
program at the local level. So in terms of our ability to again 
work with the USDA, I would say that we need to take a serious 
look at some of the programs and identify what priority 
watersheds we need to work in, and then work closely together 
with USDA in those areas.
    Mr. Bishop. Thank you.
    Mr. Coombe, is there a backlog in the Environmental Quality 
Incentives Program?
    Mr. Coombe. Mr. Chairman, there certainly is. All of our 
programs are over-subscribed. And with regard to EQIP 
contracts, for example, we have a backlog at this time, 
unfunded applications of over 41,000. There is about an 8.9 
percent participation rate, up to 2,128,982 farmers across the 
Country.
    Mr. Bishop. And what are the implications of this backlog?
    Mr. Coombe. The implications are that with regard to our 
expenditures since 2002 to 2006, 2,773,159,000--well, I have my 
digits off, but over $2 billion have gone for water quality 
programs, parts of programs. EQIP is a major one, WRP, et 
cetera. I am saying that all of our programs are over-
subscribed, and we believe that these are extremely important 
to watersheds. We take a national view, but realizing all land 
is in a watershed, and many of the members will have different 
watersheds they think are important. But we are over-
subscribed.
    Mr. Bishop. Thank you.
    Mr. Hooks, there is an EPA report entitled the National 
Water Quality Inventory. It is my understanding that the Clean 
Water Act stipulates that that report be released every two 
years. It is my further understanding that there has not been a 
full report released since the year 2000. So my question is, 
why is it that we have not had a report since 2000 and when do 
we think we might see the next report?
    Mr. Hooks. I am actually hopeful that you will see the 
report within the next few weeks. I think part of the reason 
for the delay in the report has been to a change in the type of 
reporting that we are doing. We have moved to an integrated 
reporting mechanism, combining both our 303(d), our impaired 
waters list, along with our 303(b) reports. We have moved to a 
different electronic reporting mechanism. That also caused 
certain delays in the reporting of the report.
    But we are starting to make significant advances and 
improvements in the reporting. The reports are coming to us 
electronically and we will be able to get these reports out in 
a much more timely fashion.
    Mr. Bishop. But you think that report will be available 
within the next two to three weeks, did you say?
    Mr. Hooks. Probably in the next two to three weeks.
    Mr. Bishop. Okay, thank you very much.
    My last question is one that has a local implication for 
me. I represent a district that includes two estuaries of 
national significance: Peconic Bay and Long Island Sound. It 
also is an area where agriculture is one of the more dominant 
industries. My question is for areas that include estuaries of 
national significance, particular farm land that borders 
estuaries of national significance, should the programs that 
currently exist to curtail runoff that are voluntary, should we 
be looking to make some of them mandatory when we are dealing 
with an estuary of national significance? Mr. Coombe or Mr. 
Hooks?
    Mr. Coombe. May I? I just feel so strongly on this, Mr. 
Chairman. In 1989, Surface Treatment Rule required all water 
systems to be filtered. The New York City watershed is one of 
the largest, 1.45 billion gallons. I own a farm within that 
particular watershed.
    We suggested that the low density land use pattern, 85 
percent in ag and forestry, was the preferred land use. The 
city decided instead to regulate us. The rest is history. They 
saw their way because in the area of the Croton system, which 
you are familiar with, highly urbanized and industrialized, 
they had to filter their water. They would have Croton-ized the 
Cat-Del if they had done that.
    So in my humble opinion, and I feel very strongly on this, 
when you are dealing with nonpoint source pollution on diffuse 
sources, from agriculture and forestry, you have to have 
access. That is one of the things we have had 70 years of 
experience with, 71, 72 years at NRCS. And that is the trust on 
the part of the farming community and the forestry community to 
utilize our science-based technology in order to protect the 
land. You have to get on that land and you have to win them 
over.
    So I believe that there can be a combination. Sometimes you 
need the hammer in the regulation. But to get the work done, 
you need the voluntary, incentive-based program. We have a 43 
percent reduction in sediment from 1982 to the year 2003. And 
that was done on a voluntary basis nationwide.
    Mr. Bishop. Thank you. Mr. Hooks?
    Mr. Hooks. I think one of the hallmarks of the 319 program 
at this point, it certainly is a voluntary program. One of the 
things that we focus on is education and training with the 
farmers and the local communities.
    I think one of the central tenets is in trying to promote 
the watershed approach, it is important that we have a plan 
that is based on sound management techniques and based on sound 
science, where we need to go in, assess what the natural 
resources are, identify what the goals are, determine what sort 
of priority problems we are going to focus on and then develop 
a specific management approach to the problem.
    Then we need to evaluate, and also bear in mind that we can 
apply adaptive management after we monitor and see what sort of 
progress we are actually making over time.
    Mr. Bishop. Thank you.
    Mr. Baker?
    Mr. Baker of Louisiana. Thank you, Mr. Chairman.
    Mr. Hooks, I am not questioning the underlying assumption 
about the hearing, but I think it is something that I need to 
understand better, and that is that agriculture represents a 
problem with regard to nitrogen runoffs.
    Within the agency, has there been significant academic 
study, either by outside source or within professionals in the 
agency to, for example, looking at the water in the Mississippi 
River, which flows by my front door every day, comes from 
everybody from the Appalachians to the Rocky Mountains? It is 
utilized by our industry, we have to take it out, treat it and 
use it for commercial purposes. And when it goes back to the 
river, it is cleaner than when we took it out. But we still 
have concerns about water quality, even doing that.
    But how much of pollutants, I learned a great deal in this 
atmospheric deposition here, and as they say, a significant 
problem, particularly in proximity to coal-fired generators, do 
we know whether the nitrogen is 100 percent runoff? Is it 50/
50? Is it 70/30? And is that based on studies that get us an 
awareness of where our problems really are?
    Mr. Hooks. Currently, actually, the agency's science 
advisory board is conducting a study at this point. One of the 
programs that EPA participates on is the Gulf of Mexico Hypoxia 
Task Force. They requested the science advisory board to look 
at actually both nitrogen and phosphorus and the contribution 
that it makes to the Gulf of Mexico.
    The numbers that I have seen, there is an estimate that 
approximately 74 percent of the nitrogen that is coming down 
the Mississippi is from agricultural sources.
    Mr. Baker of Louisiana. How did they get to that number? 
Did anybody do a study or is that modeling, or how did we come 
to that conclusion?
    Mr. Hooks. I don't know that personally, but I would be 
more than happy to research that.
    Mr. Baker of Louisiana. My reason for bringing this point 
up is, there are too few resources to address all the 
identified problems all at once. So we really need to 
prioritize. So a very carefully focused scientific analysis of 
where we believe the best taxpayer benefit would be yielded, 
for example, I know in high density animal operations, the 
milking parlor, as it is called in the evening, represents a 
concentration of animal waste that is pretty considerable. At 
least in my state, we have had dairies actually put in mini-
sewer treatment plants to treat that material before it is 
disposed of. That is an obvious one.
    But I am not altogether convinced, if you are looking at 
several hundred acres where you have crop rotations of beans in 
the spring and you go to an alternate crop in the fall, even 
grassland, that that kind of simple operation represents the 
environmental threat that I am hearing about. That is my point. 
My colleagues think I am not sensitive to the environment. We 
drink the wastewater you send down, that is where we get our 
drinking water, out of the river. So we are pretty sensitive 
about it.
    The point is, I don't want agriculture just to be plowed 
under here as the bad guy in all this. There are a lot of good 
people in business who spend their money to clean this stuff up 
because they rely on the viability of that land for their 
future kids' generations to come economic vitality.
    So I am just requesting that in our prioritization of where 
we spend money, let's at first have arms-length professionals 
take a look at the field and figure out who are the number one 
violators and how can we help those folks through voluntary 
programs correct those actions to help us all. But there were 
wildly varying numbers, as for example, in the Chesapeake Bay, 
as to whether atmospheric deposition was responsible for 10 
percent or as much as 50 percent of the deposition in that 
lake. We don't know.
    So it is hard to rush to a judgment and spend a lot of 
money when we might find out later we would have been better 
served somewhere else. How long do you think it is before that 
scientific study that you say is now engaged would be available 
to the Committee?
    Mr. Hooks. They are due to release a draft report in July 
of this year and have a final report, I believe, in October of 
this year. And I share your sentiments. It is an extremely 
complex and difficult issue, particularly the Gulf of Mexico 
issue.
    Mr. Baker of Louisiana. I represent sort of a rural area, 
and we have a lot of septic tanks that dump a lot of water into 
a lot of roadside ditches. I hope nobody from the EPA goes down 
there and checks them, but I have a suspicion that some of 
those wouldn't quite meet your standards. I think when you 
aggregate hundreds of thousands of people's activity as opposed 
to a single farming operator, the equities might need to be 
readjusted there.
    I yield back, Mr. Chairman.
    Mr. Gilchrest. Would the gentleman yield just for a quick 
second?
    Mr. Baker of Louisiana. Yes, sir.
    Mr. Gilchrest. The Chesapeake Bay program has actually 
helped us, through pretty critical analysis, to figure out 
where all these, where the nitrogen is coming from, where the 
phosphorus is coming from. And even where the septic systems 
are contributing nitrogen. In the State overall, there is 5 
percent of the nitrogen going into the Chesapeake Bay from 
septic systems.
    But if you take that down a few other notches, in certain 
areas it is 50 percent. If you look at a little tidal pond to 
the Chesapeake Bay, it will vary. And it is about 40 percent 
from agriculture, about 28 percent from air deposition for 
nitrogen, and about, I am not sure, maybe Mr. Coombe knows. But 
anyway, we have classified urban, suburban, agriculture, septic 
tanks, sewage treatment plants and so on.
    I do want to buttress one of your comments, and that is, I 
think my state, my farmers, nothing against Colorado, 
Pennsylvania, Louisiana, but we really have reached a level of 
state of the art in best management practices for agriculture 
to reduce these kinds of runoffs. And it is because of the 
collaborative effort in the Chesapeake Bay Program, EPA, 
Chesapeake Bay Foundation, the agricultural community. They 
have really integrated their cooperation together to move 
forward.
    Mr. Baker of Louisiana. I thank the learned gentleman.
    I would just merely point out that the type of diligence 
that the Chesapeake Bay groups have exhibited is the kind of 
diligence I am suggesting ought to be required nationally. 
Before the Congress spends a bunch of money, we ought to know 
what the net effect is and are we helping the problem or not. I 
am merely suggesting, I don't think agriculture generally, at 
least speaking for my state, is as bad as some folks may think.
    I yield back.
    Mr. Bishop. Mr. Baker, thank you.
    Mr. Salazar?
    Mr. Salazar. Thank you, Mr. Chairman.
    Ranking Member Baker, I couldn't agree with you more. In 
Colorado, we have several streams that are impaired. We have 
the Fountain Creek that flows out of Colorado Springs, through 
the City of Pueblo and on down the Arkansas River. Probably the 
largest contaminant of the Arkansas River. And most of the 
contamination does not come from agriculture, most of it comes 
from the City of Colorado Springs.
    As we build more cities, with more concrete and more 
pavement, when we have heavy rains it flows into the streams 
and that becomes a great contaminant. I am just concerned that 
agriculture is becoming the scapegoat here, and we have to be 
careful that we don't over-regulate agriculture.
    Mr. Stem, you mentioned that in Waco, agriculture 
contributes, I don't remember the number, but you said 
somewhere in the neighborhood of 30 or 40 percent of the 
contaminants to the river. Have you done an assessment as to 
what the City of Waco actually contributes when you have heavy 
rains or floods?
    Mr. Stem. There have been assessments done. The Texas 
Institute for Applied Environmental Research at Tarleton State 
University, which is in Stevenville, in the heart of dairy 
country, did a study of the watershed. I believe the number, 
the urban runoff number was around 7 percent. It has been a 
number of years since I read the study. It was less than 10 
percent. I think the waste application field contribution from 
dairies was in the 30s or 40s.
    Mr. Salazar. Well, that seems a little optimistic to me, 
when I look at what has happened in some of the Colorado 
rivers. I guess I would ask Mr. Hooks, what is your assessment 
of the mercury issue in our rivers and streams and lakes, based 
on the pollution by, for example, electric generation power 
plants? We have a study or a graph here, I have, that was 
issued by the EPA, which is an inventory of the U.S. greenhouse 
gas emissions. Thirty-two percent of the greenhouse gas 
emissions come from electric generation, 28 percent from 
transportation, our vehicles, 19 percent from industry. 
Agriculture only represents 7 percent of that contamination.
    I understand that these electric generation plants 
contaminate the water with heavy mercury deposits. Can you 
address that, please?
    Mr. Hooks. Yes. The mercury contamination is also an 
extremely difficult issue, particularly in the water program. 
The majority of the mercury that is deposited into our surface 
waters, oftentimes the majority of it can come from out of 
state, which makes it extremely difficult for State regulators 
to deal with on a case by case basis.
    I think the thrust of what we are trying to do is to work 
with States to develop comprehensive management mercury 
reduction programs, to the extent that we can. Certainly 
programs with the Office of Water's purview, we basically have 
indicated that States have the ability to delay implementation 
of their TMDLs for mercury impairments.
    So to the extent that we can, with the tools that we 
utilize within the water program, we try to understand the 
science, we try to understand the States' ability or lack of 
ability to meet those types of mercury standards.
    Mr. Salazar. Thank you.
    Mr. Coombe, are you aware of the new Greenbelt Initiative 
that the USDA is working on, and something that has been 
requested for the Ag Committee to include in the 2007 Farm Bill 
program, which basically creates greenbelts? I think part of it 
is to help with noise pollution, part of it is to help with 
water pollution. Are you aware of that initiative?
    Mr. Coombe. No, I am not.
    Mr. Salazar. Okay, thank you. This is something that I 
believe will help, especially with the farms and ranches that 
are along rivers and streams. We are going to be looking at 
that with the Ag Committee.
    With that, Mr. Chairman, I yield back. Thank you.
    Mr. Bishop. Thank you. Dr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman.
    First, let me start off by saying I want to associate 
myself with the comments of my colleague from Louisiana. I 
still have this question about, do we really know enough about 
monitoring and data collection on all this to really have an 
understanding from a watershed basis on what is the role of 
agricultural runoff versus suburban and urban runoff in this 
problem?
    First, my younger brother actually is a research scientist 
with the NRCS at the wetlands center down in Lafayette, 
Louisiana. I have been with him the center, obviously, seen his 
laboratory work. I have also gone out in the field with him on 
occasion. I have been to some suburban developments where there 
are ponds, they are trying to create beautiful grounds. And the 
ponds are repetitively overgrown with duckweed. And when you 
get down there and collect this duckweed, it has the strongest 
nitrogen smell you can imagine. So we know there is a lot of 
nitrogenous waste getting into the water.
    I have also been out to a number of farms in my district, 
which is largely a rural district in southwest Louisiana. I 
haven't seen that same problem. So it seems to me there are 
farmers that are doing a pretty decent job of approaching the 
problem. Just anecdotal, but again, I think we really need to 
make sure we are getting good, clean, accurate data and a full 
understanding of this.
    A couple of questions. One, Mr. Hooks, with the 319 
program, you mentioned some success stories in your testimony. 
I looked through them. Are there any other problems, 
disparities among the States, in your experience with this as 
to their effectiveness in implementing the program?
    Mr. Hooks. I think you would almost have to look at that 
problem on a case by case basis. There are plenty of examples 
where farmers have done an outstanding job in terms of their 
conservation practices on their local farms. Then there are 
ceratin areas where we need to do additional work.
    Again, one of the thrusts that we try to promote is looking 
at the problem from a watershed standpoint, so that we can look 
at a community of farmers, or a community of even urban 
potential inputs of nitrogen, phosphorus, what have you, on a 
watershed basis, so that we are trying to make significant 
progress and improvements on a watershed downstream.
    Mr. Boustany. So are you suggesting that there are many 
area where there is room for a lot of improvement in the 
implementation of this program?
    Mr. Hooks. Again, it is probably on a case by case basis.
    Mr. Boustany. That is a fair enough answer.
    Mr. Coombe, on the Wetlands Reserve Program, you mentioned 
retiring crop land. Are there other alternatives being looked 
at, such as strategic planting of wetlands plants to try to get 
the same result? Are you aware of any research or data along 
those lines, rather than retiring acreage of crop land?
    Mr. Coombe. Yes, there are a few. A quick comment to your 
statement before. The discharge of nitrogen and phosphorus is 
two times higher per acre from urban as opposed to agriculture. 
That was helpful. And with regard to Mr. Stem's comment, the 
North Bosque river is a CEAP special emphasis watershed that is 
the water supply for his community. We are monitoring water 
quality very closely there, and should have results by 2008.
    In terms of riparian areas and the Wetlands Reserve Program 
in our Farm and Ranchland Protection Program (FRPP) too, we are 
doing a lot of study through the Agricultural Research Service, 
which has developed agriculture-based models for crop land. We 
are also developing models with regard to the value of specific 
types of plantings along riparian areas.
    Mr. Boustany. Thank you. I see my time is about up, so I 
will yield back at this time.
    Mr. Bishop. Thank you. Mr. Arcuri?
    Mr. Arcuri. Thank you, gentlemen, for being here.
    Just a couple of questions. I have a district in upstate 
New York that has very heavy dairy farms. I couldn't agree with 
my colleagues on both sides of the aisle more. I hear them 
constantly complaining about the fact that they are being 
blamed for runoff and they are trying to do the right, but 
obviously it is very difficult, especially for the small 
farmers.
    My first question is to you, Mr. Stem. When you were 
speaking, you made a distinction in terms of using the 
Superfund to go after, I think you said, some of the larger 
dairy farms. Do you find the same problem coming from the 
smaller dairy farms? Do you have those in your area?
    Mr. Stem. In the North Bosque watershed, which is the 
watershed that feeds to Lake Waco, I believe there are 64 CAFOs 
that would be 500 head or more. Last I heard, 10 or 12 what we 
call FAFOs, which would be less than 500. Generally, we don't 
have the waste management issues with the smaller ones that we 
do with the bigger ones.
    But the problem in the North Bosque is that it is kind of 
over-permitted, and many of them just don't have enough land to 
apply their waste at agronomic rates. So there are some 
problems with some of the smaller ones. But primarily the over-
application is with the larger ones because they have so much 
waste to deal with.
    Mr. Arcuri. Mr. Hooks, does EPA treat the small farmers 
differently than the large dairy farmers?
    Mr. Hooks. Well, it certainly, the 319 program is a 
voluntary program. So obviously, the mechanisms that you might 
employe to educate or to train might be different. But the 
essential thrust of the program is the same, to provide 
technical assistance, financial assistance, promote technology 
transfer and demonstrate projects, both on small scales and 
large scales. So we try not, I don't think we discriminate 
between the large and the smaller farmers. But the thrust of 
our message and our program is the same.
    Mr. Arcuri. I would just like to point out, and I have had 
a series of town hall meetings throughout my district, which 
again is very dairy-oriented. Most of them are small farmers, 
but they say the same thing. They want to do the right thing, 
they want to try to take the right steps. The problem is, the 
price of milk is so low that they really can't afford to do the 
things that are necessary to do. So I think that is something 
that we really need to be cognizant of. These farmers, I think 
sometimes people tend to demonize them as the cause of this 
problem. And they are trying to do the right thing, but the 
economics of it is very difficult for them.
    Just one more question. We are finding many more organic 
farms sprouting up. Do you see any difference in terms of the 
problem with the organic farms as opposed to the traditional 
farms?
    Mr. Hooks. Actually, I am not that familiar with the 
farming practices of organic farming, to give you a decent 
response right now. But I would be more than happy to obtain 
some additional research and provide an answer to you on that.
    I did want to make one correction in terms of do we treat 
small farmers and large farmers any differently. For large 
CAFOs, those industries are regulated by NPDES permitting. So 
there is a distinction there, based on the size.
    Mr. Arcuri. Thank you very much.
    Mr. Bishop. Thank you. Mrs. Drake?
    Mrs. Drake. Thank you, Mr. Chairman. And thank you all for 
being here.
    The district that I represent borders the Chesapeake Bay. 
It has been my experience, talking with our farmers on the 
Eastern Shore, and also farmers I have talked to across 
Virginia, that they are very supportive of agricultural 
conservation measures. They understand the importance for the 
environment, and they know that it also helps them in their own 
practices.
    So my question is, there are so many programs that are out 
there, but there is confusion and I think limited coordination 
between agencies. So Mr. Hooks, what is the EPA doing, or Mr. 
Coombe, what are we doing to make sure that we are better 
educating our farmers, and the ones who are willing to 
participate in these programs? How are we making sure we are 
getting the information to them?
    Mr. Coombe. That is what we are all about. We are helping 
people help the land. We provide technical assistance. We are 
in most every county in the Country. As a farmer myself, NRCS 
is just the place we go for technical assistance, et cetera. 
Certainly, one of the most exciting things that we do, I think, 
is that we have State Technical Committees that represent a 
whole series of groups, and especially the farming community, 
that helps us set our priorities with regard to how we are 
spending the dollars in our national programs across the 
Country. And along with that, in terms of working with the 
communities, once again, Secretary Johannes in his 2007 Farm 
Bill presentation has agreed with you. So has the Chief of 
NRCS, Arlen Lancaster. And they do want to simplify and merge 
the programs together, so that our cost share program and our 
conservation programs from the standpoint of easements would be 
more simplified and yet still directed, in order to put 
conservation on the ground.
    We think that is one of our strongest points. One of the 
reasons, Mr. Chairman, I go back to your question with regard 
to the voluntary approach. It is important to change behavior 
patterns on lands by private individuals. We think this is the 
best way to do it, and that is what we are all about with our 
programs.
    Mr. Hooks. I think one of the distinctions from USDA's 
programs and EPA's is our ability to hire watershed 
coordinators, which typically USDA does not fund, use its 
moneys to fund that type of a hire. Right now, we spend 
approximately about $100 million per year doing the things that 
I mentioned earlier in terms of education and training. States 
or other entities below the State level have the ability to 
bring watershed coordinators on board full-time for that 
purpose, to basically go out and talk directly to the farmers.
    Mrs. Drake. Thank you.
    Mr. Chairman, I am going to yield back. I know we have a 
vote. Thank you.
    Mr. Bishop. Thank you very much.
    We have a 15 minute vote on the Floor right now. There are 
about 11 minutes left. I think we will have time at least for 
one more set of questions.
    Mr. Baird?
    Mr. Baird. I thank the Chairman. Mr. Hooks, as you may be 
aware, Puget Sound is engaging in a great effort to try and 
clean up that magnificent waterway. One of our challenges, 
frankly, is nonpoint source pollution, the subject of today's 
hearing.
    I wonder if you have any knowledge of that or any thoughts 
you would like to share about the role your agency might play 
in working with the Puget Sound and trying to improve its water 
quality, vis-a-vis nonpoint source?
    Mr. Hooks. As you are aware, while I have been focusing my 
comments primarily on the 319 program, we certainly have the 
NEP program in Washington, which is one of the hallmark 
programs for EPA. It is kind of the poster child for 
partnership and collaboration.
    They also are a large part of the solution in dealing with 
nonpoint source and point source pollution, working in 
collaboration with the many partners in the region and in the 
area.
    Mr. Baird. We appreciate your collaboration.
    Another issue that I played a role in has to do with the 
issue of harmful algal blooms. Many of us have a pretty strong 
feeling that that may be exacerbated, if not caused, by 
agricultural runoff, at least in some areas. It is a multi-
million dollar threat to shellfish and other fishing 
industries. I wonder if you could comment on that issue? We 
tried actually a couple of years ago to include some language, 
actually ran into some opposition from agricultural interests 
who didn't really even want us to study the possible 
contribution, let alone study measures to control this. I 
wonder if you have any insights into that, what the 
contributing factor is and what needs to be done?
    Mr. Hooks. In large part, again, it is going to be focusing 
on education. We are very much concerned about the HABs, or 
harmful algal blooms, around the Country. They can contribute 
to red tides, brown tides. Certainly dealing with the whole 
physteria epidemic on the east coast over the past couple of 
decades has also raised awareness of this issue.
    It is something that we just need to keep after. Again, 
developing an effective watershed plan that is based on sound 
science, trying to figure, again, what are the priority areas 
that we need to develop and work on, what are the best 
management practices to deal with this nutrient over-
enrichment, and do it in a concerted way, do it so that it 
makes sense. I try to identify what are the high priority 
watersheds that are contributing most highly to the nutrient, 
usually nitrogen in the marine environments, what are the 
highest priority watersheds that we need to focus our energy 
and attention on.
    Mr. Baird. Is EPA aware of the economic and health 
consequences of harmful algal blooms? I know there are powerful 
interests that might discourage you from attending to the 
upstream contributors to this. But are you aware of, for 
example, the impacts on the shellfish industry and other 
fishing industries and the economic impacts of that and the 
tourism industry, should harmful algal bloom hit a recreational 
area?
    Mr. Hooks. We are very aware of that. Hence the pressure to 
try to deal with this very serious issue. Oftentimes, 
obviously, the human health impacts associated with 
particularly some of the toxic blooms that occur on occasion as 
well.
    We are very aware of it. We continue again to work with the 
local community, work with our local coordinators, and again 
try to assess the natural resources and develop a plan that is 
effective that is effective and that is going to work.
    Mr. Baird. Do any of the other panelists want to comment on 
either of those issues?
    Mr. Coombe. I would just make two comments. Once again, 
back to the gentleman from Maryland, the data in the Chesapeake 
is showing at least two times more nitrogen and phosphorus 
runoff from urban development and suburban development. We are 
actually losing the battle, somewhat, because of the 
urbanization.
    Second of all, we in USDA Natural Resource Conservation 
Service have put forth salmon habitat improvement programs and 
dollars through the EQIP, the Environmental Quality Incentives 
Program I alluded to before. So it is a high priority.
    Once again, we know agriculture is part of the problem. We 
also know we are part of the solution. We believe our voluntary 
incentive-based programs at the local level are helping with 
the problem.
    Mr. Baird. I can tell you, some of my agricultural folks, 
especially the smaller producers, cranberries and others, 
really appreciate EQIP dollars. They use them very, very well, 
and very productively to keep the water supply clean. So thank 
you for that.
    I yield back.
    Mr. Bishop. Thank you. We have about six minutes left on 
the vote on the Floor. So Mr. Gilchrest, take it over.
    Mr. Gilchrest. Thank you, Mr. Chairman. Two very quick 
things, I will take 30 seconds.
    One, you can have a CAFO operation as long as you use BMPs, 
including nutrient management, and you have enough land, that 
is the big issue. The other thing is, Mr. Hooks, if you could 
contact my office, I would really appreciate understanding a 
little bit more about the trading system you described there 
earlier. And if it is a cap and trade or if it is a trade, I 
don't think we do it in Maryland, but I sure would like to take 
a look at it.
    Thank you very much, Mr. Chairman. I would like to talk to 
you further, Mr. Hooks.
    Mr. Hooks. I would be more than happy to do that.
    Mr. Gilchrest. Thank you.
    Mr. Bishop. Mr. Gilchrest, thank you.
    I think we will now excuse the first panel with our thanks 
and appreciation for your time and for your expertise. We will 
recess for about 15 minutes. When we return, we will start with 
the second panel. Thank you very much.
    [Recess.]
    Mr. Bishop. The Committee will reconvene.
    We will now move to our second panel of witnesses. The 
second panel consists of Mr. Roger Wolf, Director of 
Environmental Programs at the Iowa Soybean Association. Next 
will be Mr. Scott Faber. Mr. Faber is the Director of the Farm 
Policy Campaign at Environmental Defense. We will then have Dr. 
Robert Howarth from Cornell University's Department of Ecology 
and Evolutionary Biology. Then our final witness will be Dr. 
James Baker, a Professor Emeritus from Iowa State University, 
representing the Iowa Department of Agriculture and Land 
Stewardship.
    Again, I will ask that you limit your verbal testimony to 
five minutes. Your written testimony will be entered in its 
entirety into our record. Let us begin with Mr. Wolf.

 TESTIMONY OF ROGER WOLF, DIRECTOR OF ENVIRONMENTAL PROGRAMS, 
  IOWA SOYBEAN ASSOCIATION; SCOTT FABER, FARM POLICY CAMPAIGN 
   DIRECTOR, ENVIRONMENTAL DEFENSE; ROBERT W. HOWARTH, PH.D, 
    DEPARTMENT OF ECOLOGY AND EVOLUTIONARY BIOLOGY, CORNELL 
  UNIVERSITY; JAMES BAKER, PROFESSOR EMERITUS, DEPARTMENT OF 
 AGRICULTURAL AND BIOSYSTEMS ENGINEERING, IOWA STATE UNIVERSITY

    Mr. Wolf. Good afternoon, and thank you.
    On behalf of our 6,100 farmer and dues-paying members, I 
want to thank you for the invitation to talk about our 
perspective on agricultural nonpoint source pollution and water 
quality.
    The Iowa Soybean Association has the distinction of being 
the largest State-based row-crop commodity association in the 
Country. Over the last decade, Iowa Soybean Association has 
established itself as a leader in helping improve agronomic, 
economic and environmental performance in agriculture. We 
believe this is unique.
    We believe our programs are a model of what cooperative 
public and private partnerships with farmer leadership can 
achieve. In fact, we believe we are providers of solutions to 
these issues.
    Our participants include dozens of partners from the public 
and private sector, as well as 500 individual farmers working 
on 1,500 fields across the State. We are currently working in 
eight sub-watershed efforts that are within four major river 
basins.
    Of course, you mentioned my testimony has been entered into 
the record. It is quite long and I hope you do look at it. It 
recognizes that despite the fact that agriculture has made 
significant investment in conservation applications, challenges 
do remain. It addresses the question we all must answer, which 
is how best to achieve water quality the public demands, while 
also meeting demand for food, fiber and fuel. This is an 
exciting time in agriculture. If you are a farmer, it is the 
best time to be in agriculture.
    Our recommendations involve system changes as well as 
policy and program changes, changes that are designed to 
provide measurable improvements in environmental performance 
from agriculture. Our specific recommendations for advancing 
agriculture's environmental performance include: establish an 
Upper Mississippi River Basin initiative to provide a framework 
of inter-governmental, multi-jurisdictional and public and 
private collaboration, and implementing and funding a 
strategic, performance-based resource center plan for 
environmental performance. Maybe this could be done as a 
geographic initiative within EPA, or maybe it could be done as 
part of a priority area in the upcoming Farm Bill.
    We need more support of public-private partnerships, 
empowering local communities of farmers to work on providing 
these solutions. We need support, we need a means for diffusing 
and institutionalizing the innovation. That is one of the 
things Iowa Soybean has done over the last decade, is this 
innovation programming, so that we can mature agriculture's 
capabilities to perform. Frankly, we need to sophisticate our 
system. We need to go beyond best management practices. That is 
one of the foundations of our program at Iowa Soybean.
    We need increases in funding for technical and financial 
assistance on farms. That is critical. We need support of 
applied evaluation involving monitoring and measurement of 
management providing site-specific and location-specific 
feedback that can be used to validate performance and 
incorporate results over time. Farmers benefit first from that 
information and we believe we can best capture environmental 
improvements with that kind of information.
    We need to incorporate these adaptive management and 
performance-based approaches into watershed programming. Then 
we also must define realistic time frames to achieve some 
progress on these water quality issues.
    How did we arrive at these recommendations? They are based 
on the experience that we have at Iowa Soybean and the fact 
that we have stepped up to the challenge and embraced 
opportunities. We have heard about the issues from the other 
speakers and from your opening comments about nitrogen in the 
Mississippi River, the Gulf of Mexico. Certainly, the issues in 
the Chesapeake Bay, we share those issues.
    The Iowa Soybean Association, which manages the farmer 
checkoff, has invested over $2 million of farmer funding to 
address these issues and leverage that with State and Federal 
grants, all to work on this issue. Nonpoint source pollution is 
challenging because it occurs as part of a dynamic, open 
system. This is also what makes farming challenged. The 
difference is we have invested significantly in mastering 
management capabilities driven for profitability. ISA programs 
are designed to help tune in our management capabilities to 
address environmental objectives.
    Multiple tactics are used to do this. We use precision 
agriculture technology, we used applied science in fields to 
collect performance data. Performance data is used to adjust 
practices. This is all done as a proactive effort, for economic 
reasons for agriculture and to address water quality issues.
    Mr. Bishop. If you could limit your remarks to perhaps 
another one minute.
    Mr. Wolf. This approach works, because it gets quantifiable 
results and it is replicable. We are already seeing it evolve 
into a working model for landscapes across Iowa and beyond. 
That is why we think that the Upper Mississippi River Watershed 
and the sub-watersheds within should be targeted with a focus 
on making progress on nutrients.
    In closing, members of the Iowa Soybean Association hope 
you will consider our work to be a touchstone and our people to 
be a resource as your Subcommittee considers work ahead, and 
Congress works on the next Farm Bill. Thank you.
    Mr. Bishop. Mr. Wolf, thank you. Now we will hear from Mr. 
Faber.
    Mr. Faber. Thank you, Mr. Chairman. Let me just start by 
saying how much I appreciate your holding this hearing, and to 
especially thank Congressman Salazar for his leadership in 
introducing the Eat Healthy America bill and its proposal to 
increase conservation spending in the next Farm Bill.
    I would especially like to applaud the work of the Iowa 
Soybean Association. They have done incredible things to help 
farmers improve the efficiency with which they are applying 
fertilizers. We are getting real reductions, 10 to 20 percent 
reductions in the amount of fertilizer that is being applied to 
farm fields in Iowa. It is proof positive that farmers can 
significantly increase the efficiency with which they using 
their nitrogen and it helps all of our water quality problems.
    You have already heard that it has been more than 30 years 
since we pledged to clean up our rivers, lakes and bays, and 
that it has been more than 20 years since the first deadline to 
clean up our rivers, lakes and bays was passed. You have heard 
today also that thousands of our water bodies remain too 
polluted to meet the goals of the Clean Water Act. Farmers and 
ranchers manage more than half of the American landscape. So it 
is no surprise to any of us that agriculture has a significant 
impact on the environment. We heard that Mr. Hooks earlier 
today.
    To comply with the Clean Water Act, our States have 
developed thousands of pollution reduction plans, TMDLs, and 
many of these plans heavily depend upon agriculture to reduce 
loadings of nitrogen, phosphorus and sediment. One of the 
questions we heard earlier was about the Chesapeake Bay. About 
46 percent of the phosphorus that reaches the Bay comes from 
agriculture, and about 40 percent of the nitrogen comes from 
agriculture. So clearly, we are asking our farmers to do a lot 
to help us meet our Nation's water quality goals.
    I think the good news is that our farmers are really eager 
to help solve these water quality challenges. There are many 
examples. Let me just provide a couple. About 41 percent of our 
farmers now employ conservation tillage practices, up from 26 
percent in 1990. Farmers are widely employing the installation 
of buffer strips and grasses to help filter out runoff from our 
farm land. And overall, literally hundreds of thousands of 
farmers are implementing scores of different kinds of 
conservation practices that help us apply our fertilizers with 
much greater precision and help filter the nutrients that are 
intended for our crops.
    With additional tools and incentives, our farmers could do 
much more to help address our water quality challenges. Right 
now, more than 100 million acres of crop land are still eroding 
at unsustainable rates, despite the great gains we have made in 
the last 20 years. Most farmers still do not conduct basic soil 
tests. Less than 40 percent of our crop land is subject to a 
test for nitrogen before we apply fertilizers. Less than 15 
percent of our farmers employ technologies that automatically 
change fertilizer applications to reflect nutrient needs. This 
is not a criticism, it is a recognition that our farmers could 
do much more to apply nitrogen with greater precision and to 
intercept runoff before it comes off the field and into our 
surface waters with the right tools and the right incentives.
    Congress has many opportunities, including reauthorization 
of the Clean Water Act, the Energy Bill, but especially renewal 
of the Farm Bill, to help reward farmers when they help address 
our water quality challenges. We heard Mr. Coombe talk about 
the fact that many farmers are unable to get conservation 
funding when they see it from USDA.
    What is really tragic about that is that we have gone from 
a point where folks like the Iowa Soybean Association and 
Environmental Defense used to argue about agriculture's 
contribution to a point where now we are working together to 
seek those funds. Farmers are bringing their money to the table 
to share the cost of the installation of the myriad practices 
that can help address water quality. Every year, we turn away 
about 50,000 farmers who are putting their money on the table 
to help solve these significant water quality problems.
    Doubling annual conservation spending, as has been proposed 
in the Eat Healthy America bill and Mr. Kind's Healthy Farms 
bill would dramatically reduce the amount of nitrogen, 
phosphorus and sediment getting into our surface waters. We 
have hired some agricultural economists and other experts. They 
have estimated, for example, that nitrogen losses would fall by 
11 percent nationally if we double conservation spending as you 
proposed in the Eat Healthy America Act. There would be a 
significant reduction, far more than we have achieved in the 
last 30 years, in the time since the Clean Water Act has been 
passed.
    What Congress needs to do much more than simply expand 
these programs, we agree with ISA that Congress should do more 
to improve the delivery of these programs by bringing groups of 
farmers together in small watersheds to help meet local 
environmental challenges, what the Administration has called 
cooperative conservation. What we have frequently found is that 
when farmers work together, neighbor to neighbor, peer to peer 
in these small watersheds, we can often solve these water 
quality and wildlife challenges much faster and at less cost 
and provide far more insights into the benefits of significant 
practices.
    Congress should also take the opportunity with Farm Bill 
renewal to reform our land retirement and restoration programs, 
like the Conservation Reserve Programs, to focus more 
enrollment on lands that are best able to intercept and filter 
our farmland runoff.
    So let me just finish by saying, and reiterating that 
farmers are eager to help solve these big environmental 
challenges. Many of the challenges that farmers can implement, 
such as better nutrient management and better pest management, 
also help reduce their input costs. Many of them simply require 
changes in behavior, such as changes in the timing of 
fertilizer applications. But many of these practices also cost 
more money, create new risks. Those are costs and risks that 
should be shared by the taxpayer.
    I hope we will take advantage of this Farm Bill to reward, 
rather than reject our farmers when they offer to help share 
the cost of clean water. Thank you.
    Mr. Bishop. Thank you very much.
    Dr. Howarth?
    Mr. Howarth. Thank you, Mr. Chairman and members of the 
Subcommittee, for inviting me today. I am delighted by your 
interest in this topic, and Mr. Chairman, thank you also for 
your kind words of introduction earlier this afternoon.
    I am going to focus on nitrogen pollution in coastal waters 
of the United States. I am going to draw heavily on a National 
Academy of Sciences report that came out in 2000 in a committee 
that I chaired, but also from more recent reports from the Pew 
Oceans Commission and from the U.S. Commission on Ocean Policy 
that came out in 2004.
    For context, what human activity has done to the nitrogen 
cycle and nitrogen fluxes globally is one of the most severe 
aspects of global change. We are changing the rate of nitrogen 
cycling much faster than we are changing climate change. It is 
much more in our face.
    To put it in perspective, in the 55 years since I was born, 
the rate at which human activity creates reactive nitrogen, the 
nitrogen that can cause water pollution, has increased seven-
fold globally, a massive change. There are a lot of local 
scale, regional scale variations. It plays out differently in 
different parts of the world.
    Agriculture is a big part of that, and the creation of 
synthetic nitrogen fertilizer is a big part of that. Again, 
just to get the rate of change, half of the nitrogen fertilizer 
that has ever been used in this planet has been used in the 
last 15 years. So we are talking about rapid and massive 
changes globally.
    There was some discussion earlier about various systems and 
how much nitrogen came from various places. I will tell you 
that the science on the Gulf of Mexico-Mississippi River is 
solid enough that I can say with some assuredness that nitrogen 
is coming largely from agricultural sources in the Mississippi 
River Basin, certainly more than 60 percent, probably more than 
70, 75 percent, possibly more than that. There is uncertainty, 
but it is agricultural.
    Having said that, we look elsewhere and it is not so clear. 
Chesapeake Bay, agriculture is a big component, as you have 
heard. I think there is more debate about the exact numbers 
than you might have heard so far. But atmospheric deposition is 
also important. And this is nitrogen that comes from car 
exhaust and from power plants. If you follow the science of 
that closely, the numbers are changing rapidly. There is a lot 
of scientific discovery there.
    But the consensus at the moment of the scientific community 
would be that both of those sources are important for the 
Chesapeake Bay. If we look nationally, we need to deal with 
both of those. If we want to focus on the Gulf of Mexico, then 
it certainly is an agricultural issue.
    As a result of this increase in nitrogen cycling, over the 
past few decades in particular, nutrients are now the largest 
pollution problem in the coastal waters of our Country. They 
are one of the largest threats to the ecological integrity of 
these systems. We do not have a nationally consistent 
monitoring system for what the damages in coastal waters are. 
We just do not have that. And that severely limits what we can 
say in a quantitative sense, when we look and say how bad the 
situation is.
    But the best available evidence is that a majority of our 
coastal and marine ecosystems are degraded. Probably a third of 
them are severely degraded from nutrient pollution; another 
third moderately degraded. So it is a big problem.
    I have gone into more detail in my written testimony on 
what some of the issues are. I will say that the best evidence 
is that there is an increased frequency duration and extent of 
harmful algal blooms as a result of this nutrient pollution. We 
certainly have created dead zones as a result of this nutrient 
pollution. We have lost biodiversity. We are damaging fish and 
commercial shellfish.
    Unfortunately, or perhaps fortunately, there is a lot of 
regional variation in what the effects of nutrient pollution 
are. As a scientific community, we partially understand that 
and we partially don't. Some areas are much more sensitive to 
the problem than are others. We sort of understand that, we 
don't entirely understand that.
    As a scientist, that leads me to urge you to be very 
cautious. Because once we hit a tipping point where we severely 
damage these systems, there is every reason in the world to 
believe it is going to be more difficult to have them recover. 
It is not a simple matter of going back to where you are. It is 
a harder road to go.
    So we don't know, system by system, where that tipping 
point is exactly until we reach it. But that is a reason to be 
cautious and make sure we don't get too close to those tipping 
zones.
    I can see my light is flashing here. I have a minute to go. 
Let me jump to what I think is a critical thing for the 
Congress to consider, and that is the role of monitoring of 
what is going on. If you turn to page 5 of my written 
testimony, I have a figure there which is taken from the 2004 
U.S. Commission on Ocean Policy, a bipartisan commission. They 
show the change in surface water monitoring in the United 
States from the 1970s to 1990s to now. Monitoring is a fraction 
now of what it used to be. That severely limits our ability to 
track whether we are making progress or not.
    Similarly, the monitoring of atmospheric deposition is far, 
far less than it was in the past. So the scientific community 
is unanimous in believing that we really need to restore solid 
national monitoring programs of nutrient fluxes, of sources of 
nutrients. And we need to for the first time establish a 
nationally consistent monitoring program to truly, consistently 
determine what the effects are.
    Thank you very much.
    Mr. Bishop. Thank you, Dr. Howarth. Dr. Baker?
    Mr. Baker. Yes, thank you, Mr. Chairman, and thank you and 
the Subcommittee for inviting me to testify on this important 
subject. I am Jim Baker, formerly of Iowa state, now with the 
Iowa Department of Agriculture and Land Stewardship. I will 
concentrate on, the emphasis of this will be on nitrogen in the 
Corn Belt.
    I want to start out by making five points, based on 
research on field plots and watersheds, such as shown in this 
slide, on the Corn Belt. Before I make the first two points, 
you need to understand three things. First, that the rate of 
nitrogen applied to corn has been nearly constant the last 20 
years. At the same time, corn yields on average have increased 
at least 2 percent each year, therefore removing more and more 
nitrogen.
    So we are now at a point that inputs into row crops are 
generally less than outputs. This is true whether you are 
looking at fields or a whole State like Iowa. Recently, the 
Iowa Department of Natural Resources, with inputs from the USDA 
ARS and Iowa State University, did a nutrient balance for the 
State, shown in these two graphs. On the left, for nitrogen are 
the inputs which include fertilizer as well as manure and 
inputs like atmospheric deposition on the right are outputs, 
which include of course yields, but also loses to the 
environment. You will note for both nitrogen and phosphorus the 
balance is negative.
    So the first point is, a negative nitrogen balance means 
soil organic matter is being lost through a process called 
mineralization. This is bad because it results in the release 
of carbon dioxide to the atmosphere, reduces soil quality, 
sustainability and the soil's ability to produce and also 
increases water quality problems.
    In the second point, given this negative balance, current 
nutrient water quality impairments in the Corn Belt are not 
mainly due to the mismanagement or the use of ``excess'' 
fertilizers and manures.
    On the third point, background you need for optimum corn 
production, there must be an optimum level of nitrogen in the 
soil. For the producer, it is very economically advantageous to 
add nitrogen to this level either in the way of fertilizer or 
manure. The nitrogen in the soil must be in a form which is 
nitrate. That is readily available to crops, but it also then 
means that that form and that nutrient is readily available to 
be lost with water. So some nitrogen loss is going to occur 
whenever excess water in the way of precipitation and in some 
cases irrigation drains from the land, particularly when that 
water drains through the soil as a sub-surface or tile 
drainage.
    So the third point is that impairments are mainly due to 
past conversion from prairies and wetlands by our forefathers 
to intensive grain crops with nutrient inputs and sub-surface 
drainage where it is needed to produce the productive lands 
that we have.
    And in terms of the fourth point, the background that you 
need to understand, the level of nitrogen in the soil and the 
amount of excess water are both much less for sod-based 
rotations, including alfalfa and CRP ground. Constructed 
wetlands are a proven technology for removing nitrate from 
water passing through them. To be effective, though, these 
wetlands must be carefully sited within areas of significant 
nitrate loss to remove that nitrogen.
    So reductions in impairment, actually they will take 
substantially reductions in nitrate loss, will come mainly 
through changes in cropping and/or implementation of off-site 
practices.
    The fifth point, although we have learned a lot from past 
research, there is still a need for additional research to 
refine proposed but yet unproven management practices and 
technology. Likewise, beyond that, there is need for research 
on totally new or innovative management practices and new 
cropping systems. And of course, with the new pressures on 
agriculture to provide energy, this will provide additional 
water quality challenges that will need to be addressed.
    So the fifth point is that there is a need to create and 
fund a regional nutrient management, environmental research 
center. Currently this is being proposed through Iowa State. 
Our agricultural dean, Dr. Wendy Winterstein, that testified at 
a Farm Bill meeting last week in Council Bluffs, made the point 
that she is willing to lead that effort with engaging the other 
land grant universities across the Corn Belt.
    I have a few seconds left. Let me make a final point 
relative to the Iowa Conservation Reserve Enhancement Program. 
Again, with background Federal USDA and Iowa cost sharing, it 
was put together to construct wetlands for nitrogen removal in 
the tile-drained areas of north central Iowa. This program 
languished for about two years because of initial permitting 
issues. Even now, current regulations for assessments limits 
construction of these wetlands to about 20 sites a year, when 
it is estimated that 8,000 to 10,000 are needed to reduce 
nitrate losses.
    The last point is, regulatory impediments are currently 
limiting the adoption or efficiency of some of the off-site 
practices that we think are effective.
    And my last slide then is what we would like to have help 
with. We need research, new information. We need to be able to 
get help to fund implementation of that new information and we 
need some regulatory relief. Hopefully we can develop a new 
landscape that might include more buffers as well as changes in 
the field itself.
    Thank you.
    Mr. Bishop. Dr. Baker, thank you.
    We will now move to questions. Let me start with a question 
for both Mr. Faber and Mr. Wolf. We have heard a lot this 
afternoon, and in the testimony there was a great deal of talk 
about good practices, having farmers perform soil tests, 
installing buffers, restoring wetlands and so on.
    What is the best way to encourage more farmers to adopt 
these and other practices that will help point us towards a 
solution?
    Mr. Wolf. Thank you for the question.
    One of the things that our program does in Iowa is we go 
into a watershed and we ask a fundamental question: can you 
validate and verify the performance of your practices. First, 
farmers want to know, do they work agronomically and do they 
perform economically, because they are driven by bottom line 
issues. Our programming helps them collect data and the data 
really, it defuses the whole question. This becomes very 
compelling. In some of our watersheds, we have 60 to 70 percent 
of the farm fields enrolled, collecting data. Then the farmers 
have the data, they can look at it, and all of a sudden you 
have their attention, because it addresses their bottom line. 
They want performing solutions.
    The other interesting thing that we found is that what one 
answer works in one watershed, you go right over to the next 
one and it is a different answer completely. If they hadn't 
collected the data, they wouldn't be able to take advantage of 
it. So it is just applied evaluation. It is very compelling. It 
addresses their bottom line. And if we strategically do some 
things in the watershed, we think we can provide some water 
quality solutions as well.
    Mr. Faber. What is so unique about what the Iowa Soybean 
Association has done is that they have really gone beyond what 
most farmers do, which is use State recommended rates for 
fertilizer applications, and instead tried to calibrate their 
applications to fit the needs of that particular farm, in many 
cases finding they were applying more nitrogen than they need 
to. So that reduces their costs of their inputs, but also helps 
improve the receiving waters nearby.
    So I think Roger has hit the nail on the head, that in many 
cases, simply providing more information, more technical 
assistance to producers. One of the big challenges facing NRCS 
is that we have doubled the size of their conservation 
portfolio, but we have not at all increased the number of staff 
who are available to deliver those programs. So the era when 
USDA experts used to go out into the field and work with 
producers to help them think about nitrogen applications, 
installation of buffers, the myriad practices you can 
implement, is now over. All those guys are stuck in the office, 
administering contract applications for EQIP.
    So one big challenge is getting more technical assistance 
in the field. But I think there is also a number of practices, 
many of the practices you would implement simply require more 
information. Some of them require an incentive payment, just to 
get the farmer to try to adopt a new practice, or because he is 
going to incur a new risk, such as changing the timing of his 
fertilizer applications from the fall to the spring or 
splitting his spring applications. A lot of the things that get 
us the most bang for the buck don't cost the farmer any money 
out of pocket, but increases the risks, that is that there 
might be a wet spring and he won't be able to get out there and 
apply the fertilizer when he would ideally like to. That would 
ultimately reduce yields.
    Then of course there are practices that simply cost money, 
installing buffers, installing artificial wetlands. Those are 
things that reduce yields, that take land out of production and 
that do cost money. So it is a mixture of things that are 
needed to get farmers to take those steps.
    Mr. Bishop. Thank you very much.
    Dr. Howarth, you sort of hand to race through your comments 
on monitoring. So I thought I would give you an opportunity to 
go through those thoughts in a somewhat more leisurely fashion.
    Mr. Howarth. I appreciate that opportunity. Thank you very 
much.
    There are several points here I would like to make. First 
is there is not, as I said briefly, there is not a nationally 
consistent monitoring program of what the effects of nutrient 
pollution are in coastal waters. So we have monitoring that is 
done in the National Histories Program, we have monitoring that 
is done through the NOAA Reserve Programs, we have State and 
local governments doing monitoring.
    When our National Academy committee sat down to try to see 
if we could look at a consistent pattern, or when NOAA has 
tried to do this before us, what you find is that the 
measurements are made in different ways, different 
methodological things, different sampling time periods. As a 
result, you really are hard pressed to say that what the trends 
are in particular areas, or in a highly quantitative sense, 
what the scale of the national problem is.
    So I mentioned that there is a consensus that we have two-
thirds of our coastal waters degraded from nutrient pollution, 
a third moderately and a third severely degraded. That is based 
on NOAA's polling of local expert judgment. They go to estuary 
by estuary and they sit down with the local government 
officials and they sit down with the local academic officials 
and they sit down with the stakeholders and they say, what do 
you think it is here? When people do that, that is the answer 
you get, we have a big national problem.
    But in terms of objective data, where we contract things 
and really look at progress or degradation, we cannot do that. 
There has been a proposal on the books at least since our 2000 
committee report, and it was endorsed by the Pew Oceans 
Committee and by the U.S. Ocean Commission. There is a huge 
amount of monitoring going on. With a little bit of 
coordination at the Federal level, it could be done in a 
nationally consistent way and nationally reported, which it is 
also is not, and we would have a national data set, which would 
be invaluable for determining if we are making progress. So 
that would be one recommendation.
    The next is that the U.S. Geological Survey has done 
historically a great job of looking at nutrient flows and 
sediment flows in rivers, starting in the early 1970s and going 
until the mid-1990s. That program, that series of programs, has 
been severely cut since that time.
    So when we develop models or statistical procedures, which 
would allow me to say what the extent of agriculture's problem 
is versus car exhaust or other things, we are using those data 
sets collected from the 1970s and 1990s, and particularly what 
happened in the 1990s. Since then, we have had climate change, 
we have different weather patterns. That is going to change the 
nutrient fluxes. We can model that all we want, but we cannot 
verify whether or not those changes are real. Because the 
monitoring data are no longer there. And we need those sorts of 
data.
    The third point is the measurement of what is coming from 
the atmosphere. For acid rain, but also for this problem of 
nitrogen pollution, the national atmospheric deposition program 
has been curtailed slowly over the last several years. It is 
scheduled to be further curtailed in the budget that the Bush 
Administration sent forward. Other atmospheric monitoring 
problems, like CASNA, which also deal with mercury pollution, 
are being cut back. Those really need to be expanded, not cut 
back.
    I appreciate the opportunity to comment on that.
    Mr. Bishop. I have one final question. You perhaps may have 
heard me describe my district earlier. It is the eastern half 
of Long Island, very rural, particularly as you move further 
east, two estuaries of national significance. An emerging 
industry is aquaculture. It has been embraced by the Long 
Island Farm Bureau and the acquaculturists are now members of 
the Long Island Farm Bureau.
    So I guess my question is, how can we best focus on how we 
could improve aquaculture? Dr. Howarth, this is perhaps best a 
question for you, or Mr. Faber, I am not sure, or Dr. Baker. 
Any of you that wish to comment on that.
    Mr. Howarth. Okay, sure. Aquaculture, as you know, our 
national fisheries, our world fisheries are depleted. They have 
been over-fished, they are damaged by pollution, they are being 
altered by climate change. As I say in my testimony, it is 
difficult to say exactly how much of a problem is due to each 
of those in any locality. It is very frustrating as a 
scientist. Those things interact synergistically and they are 
damaging our fisheries.
    One hopeful response is to try to at least make some of 
that fish protein back up through aquaculture. There is a huge 
potential from there. It requires good water quality as the 
basis of that. You really need to have high quality water to do 
that. You certainly have that in the Peconic Estuary. Long 
Island Sound is a little more problematic, but that is okay, we 
can maybe make it better.
    And of course, as with any agricultural activity, 
aquaculture is the same. It is not entirely free of risks, and 
we should carefully think about the risks for particular types 
of aquaculture in particular water bodies and whether they have 
a long-term sustainable use or not. I don't think that has been 
adequately done yet.
    Mr. Bishop. Any other panelists wish to comment?
    Thank you. Mrs. Schmidt?
    Mrs. Schmidt. Thank you.
    I would like to direct my question to Dr. Howarth, if I 
could, please. And maybe Dr. Baker might want to comment, or 
Mr. Wolf or Mr. Faber.
    I looked with curiosity at your testimony, and I think that 
you are making some assumptions here with your data, simply 
because as I believe you just stated, your data pool is not as 
nice as you would like it to be. One of the things that I have 
a concern with is in your end on page 6, when you want to 
mention the current national expansion of producing ethanol 
from corn. My question to you is this. We all want to be 
sensitive to the environment. I think we can all agree that we 
need to get off of oil for whatever reason, we need to get off 
of oil.
    In getting off of oil, you have to get onto something else. 
There are folks out there that don't want us to have nuclear 
power because they have concerns. There are folks out there 
that don't want us to expand the coal, because they have 
concerns. There are folks out there that don't want us to use 
ethanol, because they have concerns.
    My question to you is this: how are we going to reduce our 
reliance on oil, whether it is foreign or domestic, if we don't 
look at the broad alternatives? Because I don't think, and I 
think you and I will agree on this, there is going to be one 
source that is going to replace oil. So maybe you can help me 
there.
    Mr. Howarth. Yes, thank you for the question. I did indeed 
add that at the end of my testimony and I didn't have time to 
mention it today. It is something I feel is very important to 
address.
    We certainly do not have a sustainable economy based on 
oil. We need to be developing other energy sources. We need 
conservation. That is not my expertise. Water quality is my 
expertise. For background, I have just been asked over the last 
several months by the International Council of Science and by 
the United Nations to lead an international effort of 
scientists to look objectively at what is good and bad in all 
of the ways of various biofuel alternatives. We are just 
getting started on that. I am not in a position to give you 
that analysis yet.
    I am in a position to say that every water quality person I 
have talked to across the Country is really alarmed by the 
ethanol production from corn, if it grows at the rate that many 
of us expect that it will, as the President and others would 
like.
    The reason for that is that corn, I think Dr. Baker can 
comment further on this, he alluded to it in his testimony as 
well, but corn inherently is going to lose some nutrients 
downstream. It is a major source of the water quality problems 
we have from agriculture in this Country. We can improve that. 
There are a lot of things we can do to make it better. But 
there are some fundamental limits. In some places, you want to 
be growing less corn, you want to move towards other sorts of 
cropping systems, if you really want to deal with Mississippi 
nitrogen flow, for example.
    If we greatly expand corn production without a great deal 
of care on that, we are taking on high risk. So what I am 
actually urging is not that, I know what the final answer is, 
but that we badly need objective science behind that before the 
Nation goes too much further in policy decisions which will set 
an economic infrastructure from which it will be hard to pull 
back, if in fact they are not the best, most sustainable 
choices.
    Mrs. Schmidt. A follow-up. One of the other biofuels that 
you can look at it soy diesel. But we also have a problem, or 
what I am hearing is that there is a concern with growing too 
many soybeans, because they also put the nutrients into the 
water system. So if we can't do corn and we can't do soy 
diesel, what do we do?
    Mr. Howarth. I agree with your starting premise, which is 
there is not a single bullet that is going to solve the 
problem. We need multiple choices. Again, I will answer your 
question in a second, but my fundamental premise is that we 
want to have a good, objective analysis of all the 
environmental pluses and minuses, so that whatever course we go 
down is the most sustainable for the long term, economically 
and environmentally. That analysis has not yet been done, to 
the best of my knowledge. There is an urgent need for it.
    There are alternatives to either soy diesel, which I have 
not studied that closely, or corn ethanol. We can grow other 
crops to make ethanol. We can grow other crops to make 
methanol, which is in fact a lot easier. We can produce 
methane, and the technology is more available for that. We can 
directly burn things such as switchgrass and the energetics of 
that. In my quick analysis, the environmental benefits would be 
far better.
    But I don't think the final answers are in on that. I am 
just urging that careful analysis be conducted. That needs to 
be funded.
    Mrs. Schmidt. Mr. Baker, would you care to comment?
    Mr. Baker. Sure. I think Dr. Howarth makes two points that 
I would agree with, that first the corn system is a leaky 
system. We can't retain all the water and all the nutrients 
there when we grow corn. The second point I would be in 
agreement on is that we do need to proceed carefully.
    But probably not quite as alarmed as he indicated some 
others might be.
    When you look at what we can do, for example, in Iowa, the 
projections are that this year we will plant 11 percent more 
corn acres than we did last year. And of course, where will 
that be planted? Well, in our State that will come from soybean 
acres, primarily. So these areas are fairly similar in their 
environmental impact. Actually, in terms of the issue of a 
negative mass balance or more consumption of organic matter, 
soybeans, even though they are a legume and produce nitrogen, 
they don't nearly produce enough to equal what is removed in 
grain. So on average, we are probably mining the soil about 80 
pounds an acre with soybeans.
    So switching some of those acres from soybeans to corn may 
actually help that soil organic matter issue. And of course, 
the impact in terms of nitrate leaching is very dependent on 
the rate of nitrogen fertilizer, although given what the high 
value of corn and the cost of nitrogen, although it has gone 
up, it hasn't gone up as fast, there is a chance that the new 
economic optimum rate will bump up, which could enhance the 
leaching of more nitrogen.
    The other point that one does need to be concerned about or 
think about is, in Iowa, or other States where there are other 
corps like alfalfa or even CRP, bringing those lands out of 
those sod-based rotations and putting them into corn could 
cause some water quality problems, but they wouldn't be nitrate 
leaching problems. Because those lands are not in tile-drained 
landscapes. They are in landscapes that aren't nearly as 
productive and have erosion problems, which is why they are 
either in CRP or in alfalfa.
    So I think again I would totally agree that we need to look 
at this carefully. I mentioned that as one of the research 
needs for this research center that we would like to see 
started.
    Mrs. Schmidt. Thank you.
    Mr. Bishop. Mr. McNerney?
    Mr. McNerney. Thank you, Mr. Chairman.
    I certainly appreciate the panel's willingness to come here 
and testify today. I understand that farmers are anxious to 
find solutions, as we all are.
    I have a couple of basic questions. I see a soybean 
representative, but no one from the corn community. What is the 
relative proportion of soybean to corn in terms of adding to 
the nitrogen build-up in our waterways. Dr. Howarth, do you 
have an answer to that?
    Mr. Howarth. I don't have a good answer. Dr. Baker can 
address it as well. But much of the analysis that has been done 
looking at corn and soybean in rotation has classically been 
done over the last decade. And again, the best estimates on 
what the relative contribution of nitrogen sources is is based 
on models and monitoring data from the 1990s situation. The way 
that farming is being done now is differently, quite frankly. 
So that throws uncertainty into it.
    Mr. McNerney. And I certainly appreciate the need for data. 
That was pointed out several times. It is something that we 
should be willing to help with. Adding scientific value to the 
discussion always makes the solution more apparent.
    There were some things that I was a little confused about. 
But what sort of farmer are we talking about? Are we talking 
about the mega-farmers or are we talking about family farms? 
What is the market of these farmers? Is it for food or for 
livestock or for ethanol? What are the sort of general 
parameters we are looking at here?
    Mr. Baker. In Iowa, of course, the State has about 36 
million acres. Ninety-five percent of that is in agriculture. 
And depending on how you count them, we probably have 90,000 
producers. So the average farm size might be 400 acres. But of 
course, we have a wide range of people within the State.
    But by and large, a major part of our corn and soybean 
production comes from producers that probably at most either 
work with a relative, son, brother, have one hired man. These 
are not, at least in terms of row crop production, these are 
not mega-operations.
    Mr. McNerney. Okay. I was a little confused about the 
nitrogen balance you discussed. It looked like more nitrogen 
was being put into the system than was leached out through 
drainage. Is that a proper understanding?
    Mr. Baker. No, what I was showing in the determination 
balance or mass balance sometimes is confusing. But in the case 
of my discussion, I was really talking about organic matter in 
the soil, about 5 percent of which is nitrogen. If you use the 
analogy that that was a bank account or checking account or 
non-interest bearing account, if you put money into that 
account, for example, in the way of fertilizer, and you take 
money out of that account in the way of yield, if those are 
equal, your account balance will stay the same. The problem we 
think we are getting into, again, particularly in a corn and 
soybean rotation, where soybeans remove probably 80 pounds an 
acre more than is added. And in the corn situation, depending 
on where you are in the fertility, you probably are negative as 
well.
    Over time, that bank account is going to go down. In other 
words, the amount of organic matter in our soil is going to go 
down. Right now, in many of our soils in Iowa, it is at about 3 
percent. It has extreme value. If you have traveled in the 
Midwest, you see these black soils. The reason they are black 
is the organic matter. One of the terrific advantages of that 
organic matter, in addition to buffering nutrients, is its 
ability to provide structure and to hold water.
    We can store about two inches of water per foot of soil 
that is plant-available. So out of maybe 18 inches that would 
be transpired through the plant, we can provide a storage, if 
we are wet in the spring, of 8 of those inches. So we can 
easily go through a month of no rain and still not impact 
yields. That is because of that organic matter.
    So we are not at a point where it is a ``red emergency.'' 
It is just something that we think we need to look at when we 
are making decisions on using fertilizer to reduce water 
quality impacts that we aren't at the same time reducing soil 
quality.
    Mr. McNerney. I would like to ask the Chair for one 
additional minute.
    Mr. Bishop. Proceed.
    Mr. McNerney. I am from the San Francisco Bay Area and the 
Central Valley immediately adjacent to that. Is there relevance 
to this discussion of the Bay Area, the delta in particular? 
What is the nitrogen build-up in that area, and how dangerous 
is it in your opinion, Dr. Howarth?
    Mr. Howarth. Well, San Francisco Bay certainly has many 
water quality problems, as I am sure you know. The South Bay in 
particular does. The relative contribution from agriculture 
there, I am not familiar. It has been modeled, I have seen 
studies on it. But I have not looked at those recently. But 
that information is available. The U.S. Geological Survey has 
modeled that using their National SPARROW Model. I have a lot 
of confidence in that model.
    Mr. McNerney. Anywhere along the West Coast, do you have 
any familiarity with that issue, of nitrogen and dead zone 
activity?
    Mr. Howarth. Well, there is a newly-described dead zone off 
of the coast of Oregon. Oregon State University has been 
working on it for the last couple of years. That is probably 
not a result of nutrient pollution from land. It is probably a 
natural phenomenon and it might be aggravated by climate 
change. That is their hypothesis at the moment. So there are 
natural things that can go on here as well.
    The larger problem, many of the West Coast estuaries do 
have problems with nutrient pollution. There are problems in 
San Francisco Bay, as I say. Puget Sound has problems, has been 
developing a dead zone. I believe there is some discussion and 
disagreement about the relative contributions of agriculture 
versus other sources in Puget Sound. I was in a discussion on 
that just two days ago.
    But it is fair to say that the distribution of estuaries 
that is affected by nutrients is about the same as elsewhere in 
the Country. The prevalence of dead zones is a little bit less, 
just because those systems tend to be a little bit less 
sensitive to that particular response. They are more likely to 
get harmful algal blooms or other problems.
    Mr. McNerney. Thank you.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you.
    Dr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman.
    In Dr. Howarth's testimony, he remarks that pollution can 
be lessened through management practices, such as planting 
winter cover crops. Are there agronomic issues with this 
practice? For example, getting cover crops established in the 
autumn as the growing season is ending, or accomplishing 
springtime planting when cover crops are already established 
there? Could each of you maybe comment on that?
    Mr. Howarth. Although I wrote that in my testimony and I 
believe the scientific evidence for the use of cover crops is 
the way to reduce nitrogen pollution is very, very strong, I am 
not an expert on the economic aspect of that. So I will defer 
to my colleagues who know more.
    Mr. Faber. There has been an enormous success story in the 
Chesapeake Bay region with the use of cover crops. For a modest 
payment, I think it is about $10 or $15 an acre, has gotten 
farmers to now routinely plant cover crops and reduced the loss 
of nitrogen from soil. It actually just came out, this great 
desk reference for those of you who really want to know every 
detail on the environmental benefits of conservation on crop 
land. One of the issues would cover crops is certainly when you 
are removing them and the impact on phosphorus and other soil 
quality issues. But properly managed, cover crops are among the 
most cost-effective ways to help address some of these water 
quality challenges.
    Mr. Wolf. I would like to add that farmers have lots of 
questions about how cover crops could be incorporated into 
their system. It really depends on the individual farmer. There 
are some farmers that could benefit from the forage that a 
cover crop could provide. There are a lot of farmers in Iowa, 
well, I shouldn't say a lot, but some farmers that are 
experimenting with it.
    But there are some questions that need to be answered. So 
we are just beginning some work with the Sand County Foundation 
in Iowa that are really going in and applying our evaluation 
techniques, looking at the questions of cover crops and what 
impacts they have on the agronomic performance, the economic 
performance for the farmer. And then ultimately the water 
quality issues. Because if we are asking farmers to use it as a 
mitigating practice, we have to address some of the risks that 
Scott Faber identified earlier. If nitrogen needs to be 
mitigated and cover crops become a viable strategy, then we may 
need to incentivize to cover some of those risks.
    Mr. Baker. We have interacted with the agricology group at 
the University of Maryland, as Scott mentioned. Maryland does 
pay $15 or $20 an acre, because they work there. Of course, in 
Iowa, with 25 million acres of row crop, at $20 an acre, you 
can see that that would be a very big program for us to 
implement.
    The other part of it is the climate differences. You have 
pointed out very well that the issues that we deal with, we 
have producers that have considered this and some that have 
even tried it, and their description is it is a management 
nightmare. And again, it is not to say that it couldn't work. 
We really need to figure out how to get around these problems. 
But you have the problems of establishment in the fall, because 
of our climates, cold, and after crops are harvested there is 
not enough time. And then in the spring, with wet and dry soils 
that a producer has to plant into, getting that cover crop 
killed and getting the soils warmed up and dried out is a 
problem. We have yield reductions. In measurements that have 
been made relative to water quality in limited studies, they 
have shown to be effective at holding nitrogen against 
leaching.
    Mr. Boustany. What about phosphorus management with regard 
to winter crops?
    Mr. Baker. With regard to cover crops?
    Mr. Boustany. Yes, winter cover crops.
    Mr. Baker. The issue there may be more, when you look at 
the potential of nutrient loss or phosphorus loss from a soil, 
at least in our conditions in Iowa and much of the Corn Belt, 
leaching is not a big issue. We do have, for example, probably 
50 parts per billion of phosphorus in our drainage water. But 
that is probably one-fifth to one-tenth what we have in surface 
water dissolved. Then a bigger issue is what is in the 
sediment.
    So probably the biggest benefit that you might see from a 
cover crop is not so much the cover crop taking up and holding 
phosphorus as much as preventing erosion, wind and water 
erosion.
    Mr. Boustany. Okay. Do any of you want to comment on that?
    Mr. Howarth. I would concur. The issue for nitrogen loss 
is, nitrogen is highly soluble. So we are talking about keeping 
things from moving in groundwater and crops holding it there is 
the issue. Phosphorus is not highly soluble so it is an erosion 
issue. Cover crops help for both. Some management practices do 
not work well for both.
    Mr. Boustany. I understand there may be some suggestion 
that you could increase phosphorus pollution by the use of 
cover crops.
    Mr. Faber. I don't think that is the case. In fact, 
probably the opposite is true. Because you are reducing erosion 
and phosphorus binds to the sediment, you are probably reducing 
phosphorus solution as a result of planting cover crops.
    Mr. Boustany. Thank you. I yield back.
    Mr. Bishop. Thank you. This brings our hearing to a close. 
I thank you very much for your testimony, particularly thank 
you for your patience. It has been a long afternoon.
    Thank you very much.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4796.108
    
    [GRAPHIC] [TIFF OMITTED] T4796.109
    
    [GRAPHIC] [TIFF OMITTED] T4796.110
    
    [GRAPHIC] [TIFF OMITTED] T4796.111
    
    [GRAPHIC] [TIFF OMITTED] T4796.112
    
    [GRAPHIC] [TIFF OMITTED] T4796.113
    
    [GRAPHIC] [TIFF OMITTED] T4796.114
    
    [GRAPHIC] [TIFF OMITTED] T4796.115
    
    [GRAPHIC] [TIFF OMITTED] T4796.116
    
    [GRAPHIC] [TIFF OMITTED] T4796.117
    
    [GRAPHIC] [TIFF OMITTED] T4796.118
    
    [GRAPHIC] [TIFF OMITTED] T4796.119
    
    [GRAPHIC] [TIFF OMITTED] T4796.120
    
    [GRAPHIC] [TIFF OMITTED] T4796.121
    
    [GRAPHIC] [TIFF OMITTED] T4796.122
    
    [GRAPHIC] [TIFF OMITTED] T4796.123
    
    [GRAPHIC] [TIFF OMITTED] T4796.124
    
    [GRAPHIC] [TIFF OMITTED] T4796.125
    
    [GRAPHIC] [TIFF OMITTED] T4796.126
    
    [GRAPHIC] [TIFF OMITTED] T4796.127
    
    [GRAPHIC] [TIFF OMITTED] T4796.128
    
    [GRAPHIC] [TIFF OMITTED] T4796.129
    
    [GRAPHIC] [TIFF OMITTED] T4796.130
    
    [GRAPHIC] [TIFF OMITTED] T4796.131
    
    [GRAPHIC] [TIFF OMITTED] T4796.132
    
    [GRAPHIC] [TIFF OMITTED] T4796.133
    
    [GRAPHIC] [TIFF OMITTED] T4796.134
    
    [GRAPHIC] [TIFF OMITTED] T4796.135
    
    [GRAPHIC] [TIFF OMITTED] T4796.136
    
    [GRAPHIC] [TIFF OMITTED] T4796.137
    
    [GRAPHIC] [TIFF OMITTED] T4796.138
    
    [GRAPHIC] [TIFF OMITTED] T4796.139
    
    [GRAPHIC] [TIFF OMITTED] T4796.140
    
    [GRAPHIC] [TIFF OMITTED] T4796.141
    
    [GRAPHIC] [TIFF OMITTED] T4796.142
    
    [GRAPHIC] [TIFF OMITTED] T4796.143
    
    [GRAPHIC] [TIFF OMITTED] T4796.144
    
    [GRAPHIC] [TIFF OMITTED] T4796.145
    
    [GRAPHIC] [TIFF OMITTED] T4796.146
    
    [GRAPHIC] [TIFF OMITTED] T4796.147
    
    [GRAPHIC] [TIFF OMITTED] T4796.148
    
    [GRAPHIC] [TIFF OMITTED] T4796.149
    
    [GRAPHIC] [TIFF OMITTED] T4796.150
    
    [GRAPHIC] [TIFF OMITTED] T4796.151
    
    [GRAPHIC] [TIFF OMITTED] T4796.152
    
    [GRAPHIC] [TIFF OMITTED] T4796.153
    
    [GRAPHIC] [TIFF OMITTED] T4796.154
    
    [GRAPHIC] [TIFF OMITTED] T4796.155
    
    [GRAPHIC] [TIFF OMITTED] T4796.156
    
    [GRAPHIC] [TIFF OMITTED] T4796.157
    
    [GRAPHIC] [TIFF OMITTED] T4796.158
    
    [GRAPHIC] [TIFF OMITTED] T4796.159
    
    [GRAPHIC] [TIFF OMITTED] T4796.160
    
    [GRAPHIC] [TIFF OMITTED] T4796.161
    
    [GRAPHIC] [TIFF OMITTED] T4796.162
    
    [GRAPHIC] [TIFF OMITTED] T4796.163
    
    [GRAPHIC] [TIFF OMITTED] T4796.164
    
    [GRAPHIC] [TIFF OMITTED] T4796.165
    
    [GRAPHIC] [TIFF OMITTED] T4796.166
    
    [GRAPHIC] [TIFF OMITTED] T4796.167
    
    [GRAPHIC] [TIFF OMITTED] T4796.168
    
    [GRAPHIC] [TIFF OMITTED] T4796.169
    
    [GRAPHIC] [TIFF OMITTED] T4796.170
    
    [GRAPHIC] [TIFF OMITTED] T4796.171
    
    [GRAPHIC] [TIFF OMITTED] T4796.172
    
    [GRAPHIC] [TIFF OMITTED] T4796.173
    
    [GRAPHIC] [TIFF OMITTED] T4796.174
    
    [GRAPHIC] [TIFF OMITTED] T4796.175
    
    [GRAPHIC] [TIFF OMITTED] T4796.176
    
    [GRAPHIC] [TIFF OMITTED] T4796.177
    
    [GRAPHIC] [TIFF OMITTED] T4796.178
    
    [GRAPHIC] [TIFF OMITTED] T4796.179
    
    [GRAPHIC] [TIFF OMITTED] T4796.180
    
    [GRAPHIC] [TIFF OMITTED] T4796.181
    
    [GRAPHIC] [TIFF OMITTED] T4796.182
    
    [GRAPHIC] [TIFF OMITTED] T4796.183
    
    [GRAPHIC] [TIFF OMITTED] T4796.184
    
    [GRAPHIC] [TIFF OMITTED] T4796.185
    
    [GRAPHIC] [TIFF OMITTED] T4796.186
    
    [GRAPHIC] [TIFF OMITTED] T4796.187
    
    [GRAPHIC] [TIFF OMITTED] T4796.188
    
    [GRAPHIC] [TIFF OMITTED] T4796.189
    
    [GRAPHIC] [TIFF OMITTED] T4796.190
    
    [GRAPHIC] [TIFF OMITTED] T4796.191
    
    [GRAPHIC] [TIFF OMITTED] T4796.192
    
    [GRAPHIC] [TIFF OMITTED] T4796.193
    
    [GRAPHIC] [TIFF OMITTED] T4796.194
    
    [GRAPHIC] [TIFF OMITTED] T4796.195
    
    [GRAPHIC] [TIFF OMITTED] T4796.196
    
    [GRAPHIC] [TIFF OMITTED] T4796.197
    
    [GRAPHIC] [TIFF OMITTED] T4796.198
    
    [GRAPHIC] [TIFF OMITTED] T4796.199
    
    [GRAPHIC] [TIFF OMITTED] T4796.200
    
    [GRAPHIC] [TIFF OMITTED] T4796.201
    
    [GRAPHIC] [TIFF OMITTED] T4796.202
    
    [GRAPHIC] [TIFF OMITTED] T4796.203
    
    [GRAPHIC] [TIFF OMITTED] T4796.204
    
    [GRAPHIC] [TIFF OMITTED] T4796.205
    
    [GRAPHIC] [TIFF OMITTED] T4796.206
    
    [GRAPHIC] [TIFF OMITTED] T4796.207
    
    [GRAPHIC] [TIFF OMITTED] T4796.208
    
    [GRAPHIC] [TIFF OMITTED] T4796.209
    
    [GRAPHIC] [TIFF OMITTED] T4796.210
    
    [GRAPHIC] [TIFF OMITTED] T4796.211
    
    [GRAPHIC] [TIFF OMITTED] T4796.212
    
    [GRAPHIC] [TIFF OMITTED] T4796.213
    
    [GRAPHIC] [TIFF OMITTED] T4796.214
    
    [GRAPHIC] [TIFF OMITTED] T4796.215
    
    [GRAPHIC] [TIFF OMITTED] T4796.216
    
    [GRAPHIC] [TIFF OMITTED] T4796.217
    
    [GRAPHIC] [TIFF OMITTED] T4796.218
    
    [GRAPHIC] [TIFF OMITTED] T4796.219
    
    [GRAPHIC] [TIFF OMITTED] T4796.220
    
    [GRAPHIC] [TIFF OMITTED] T4796.221
    
    [GRAPHIC] [TIFF OMITTED] T4796.222
    
    [GRAPHIC] [TIFF OMITTED] T4796.223
    
    [GRAPHIC] [TIFF OMITTED] T4796.224
    
    [GRAPHIC] [TIFF OMITTED] T4796.225
    
    [GRAPHIC] [TIFF OMITTED] T4796.226
    
    [GRAPHIC] [TIFF OMITTED] T4796.227
    
    [GRAPHIC] [TIFF OMITTED] T4796.228
    
    [GRAPHIC] [TIFF OMITTED] T4796.229
    
    [GRAPHIC] [TIFF OMITTED] T4796.230
    
    [GRAPHIC] [TIFF OMITTED] T4796.231
    
    [GRAPHIC] [TIFF OMITTED] T4796.232
    
    [GRAPHIC] [TIFF OMITTED] T4796.233
    
    [GRAPHIC] [TIFF OMITTED] T4796.234
    
    [GRAPHIC] [TIFF OMITTED] T4796.235
    
    [GRAPHIC] [TIFF OMITTED] T4796.236
    
    [GRAPHIC] [TIFF OMITTED] T4796.237
    
    [GRAPHIC] [TIFF OMITTED] T4796.238
    
    [GRAPHIC] [TIFF OMITTED] T4796.239
    
    [GRAPHIC] [TIFF OMITTED] T4796.240
    
    [GRAPHIC] [TIFF OMITTED] T4796.241
    
    [GRAPHIC] [TIFF OMITTED] T4796.242
    
    [GRAPHIC] [TIFF OMITTED] T4796.243
    
    [GRAPHIC] [TIFF OMITTED] T4796.244
    
    [GRAPHIC] [TIFF OMITTED] T4796.245
    
    [GRAPHIC] [TIFF OMITTED] T4796.246
    
    [GRAPHIC] [TIFF OMITTED] T4796.247
    
    [GRAPHIC] [TIFF OMITTED] T4796.248
    
    [GRAPHIC] [TIFF OMITTED] T4796.249
    
    [GRAPHIC] [TIFF OMITTED] T4796.250
    
    [GRAPHIC] [TIFF OMITTED] T4796.251
    
    [GRAPHIC] [TIFF OMITTED] T4796.252
    
    [GRAPHIC] [TIFF OMITTED] T4796.253
    
    [GRAPHIC] [TIFF OMITTED] T4796.254
    
    [GRAPHIC] [TIFF OMITTED] T4796.255
    
    [GRAPHIC] [TIFF OMITTED] T4796.256
    
    [GRAPHIC] [TIFF OMITTED] T4796.257
    
    [GRAPHIC] [TIFF OMITTED] T4796.258
    
    [GRAPHIC] [TIFF OMITTED] T4796.259
    
    [GRAPHIC] [TIFF OMITTED] T4796.260
    
    [GRAPHIC] [TIFF OMITTED] T4796.261
    
    [GRAPHIC] [TIFF OMITTED] T4796.262
    
    [GRAPHIC] [TIFF OMITTED] T4796.263
    
    [GRAPHIC] [TIFF OMITTED] T4796.264
    
    [GRAPHIC] [TIFF OMITTED] T4796.265
    
    [GRAPHIC] [TIFF OMITTED] T4796.266
    
    [GRAPHIC] [TIFF OMITTED] T4796.267
    
    [GRAPHIC] [TIFF OMITTED] T4796.268
    
    [GRAPHIC] [TIFF OMITTED] T4796.269
    
    [GRAPHIC] [TIFF OMITTED] T4796.270
    
    [GRAPHIC] [TIFF OMITTED] T4796.271
    
    [GRAPHIC] [TIFF OMITTED] T4796.272
    
    [GRAPHIC] [TIFF OMITTED] T4796.273
    
    [GRAPHIC] [TIFF OMITTED] T4796.274
    
    [GRAPHIC] [TIFF OMITTED] T4796.275
    
    [GRAPHIC] [TIFF OMITTED] T4796.276
    
    [GRAPHIC] [TIFF OMITTED] T4796.277
    
    [GRAPHIC] [TIFF OMITTED] T4796.278
    
    [GRAPHIC] [TIFF OMITTED] T4796.279
    
    [GRAPHIC] [TIFF OMITTED] T4796.280
    
    [GRAPHIC] [TIFF OMITTED] T4796.281
    
    [GRAPHIC] [TIFF OMITTED] T4796.282
    
    [GRAPHIC] [TIFF OMITTED] T4796.283
    
    [GRAPHIC] [TIFF OMITTED] T4796.284
    
    [GRAPHIC] [TIFF OMITTED] T4796.285
    
    [GRAPHIC] [TIFF OMITTED] T4796.286
    
    [GRAPHIC] [TIFF OMITTED] T4796.287
    
    [GRAPHIC] [TIFF OMITTED] T4796.288
    
    [GRAPHIC] [TIFF OMITTED] T4796.289
    
    [GRAPHIC] [TIFF OMITTED] T4796.290
    
    [GRAPHIC] [TIFF OMITTED] T4796.291
    
    [GRAPHIC] [TIFF OMITTED] T4796.292
    
    [GRAPHIC] [TIFF OMITTED] T4796.293
    
                                    

</pre></body></html>
